<html>
<title> - CURRENT MANNING, EQUIPPING AND READINESS CHALLENGES FACING SPECIAL OPERATIONS FORCES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-12]
 
  CURRENT MANNING, EQUIPPING AND READINESS CHALLENGES FACING SPECIAL 
                           OPERATIONS FORCES

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 31, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

40-967 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

                                     
  












































    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           ROBIN HAYES, North Carolina
JIM COOPER, Tennessee                KEN CALVERT, California
JIM MARSHALL, Georgia                JOHN KLINE, Minnesota
MARK UDALL, Colorado                 THELMA DRAKE, Virginia
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
KIRSTEN GILLIBRAND, New York         JIM SAXTON, New Jersey
KATHY CASTOR, Florida
                 Bill Natter, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant













































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, January 31, 2007, Current Manning, Equipping and 
  Readiness Challenges Facing Special Operations Forces..........     1

Appendix:

Wednesday, January 31, 2007......................................    45
                              ----------                              

                      WEDNESDAY, JANUARY 31, 2007
  CURRENT MANNING, EQUIPPING AND READINESS CHALLENGES FACING SPECIAL 
                           OPERATIONS FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Thornberry, Hon. Mac, a Representative from Texas, Ranking 
  Member, Terrorism, Unconventional Threats and Capabilities 
  Subcommittee...................................................     2

                               WITNESSES

Brown, Gen. Bryan D., Commander, U.S. Special Operations Command, 
  U.S. Army......................................................     2
Hejlik, Maj. Gen. Dennis J., Commander, U.S. Marine Corps Forces 
  Special Operations Command, U.S. Marine Corps..................    20
Maguire, Rear Adm. Joseph, Commander, Naval Special Warfare 
  Command, U.S. Navy.............................................    19
Wagner, Lt. Gen. Robert W., Commander, U.S. Army Special 
  Operations Command, U.S. Army..................................    18
Wooley, Lt. Gen. Michael W., Commander, Air Force Special 
  Operations Command, U.S. Air Force.............................    20

                                APPENDIX

Prepared Statements:

    Brown, Gen. Bryan D..........................................    49
    Hejlik, Maj. Gen. Dennis J...................................    93
    Maguire, Rear Adm. Joseph....................................    82
    Wagner, Lt. Gen. Robert W....................................    59
    Wooley, Lt. Gen. Michael W...................................    98

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Smith....................................................   109
    Mr. Thornberry...............................................   134
  CURRENT MANNING, EQUIPPING AND READINESS CHALLENGES FACING SPECIAL 
                           OPERATIONS FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                       Washington, DC, Wednesday, January 31, 2007.
    The subcommittee met, pursuant to call, at 3:01 p.m. in 
room 2118, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. We will go ahead and call the meeting to order. 
One of my goals is to start all our meetings on time. In 
Congress, I am not sure how long I will achieve that objective, 
but I am going to do my best to do that.
    I want to thank Representative Thornberry for being here 
and for working with me on the subcommittee. I think we will 
have a very, very good hearing. I think the subcommittee has a 
very important series of issues to deal with within our 
jurisdiction and look forward to doing that. Our primary goal 
is to be as helpful as possible to our forces in the field to 
help them do the job we all are asking them to do, and we are 
very, very fortunate with our first hearing today to have the 
Commander of Special Operations, General Brown, here, as well 
as all of the component commanders here as well. That will give 
us a great opportunity to get a terrific perspective.
    The other thing I am going to try to do as chairman is 
dispense with opening statements from Members of Congress. I 
have been in hearings before where the witnesses didn't get to 
talk until we were about an hour into it, and it always struck 
me as kind of odd. So, for ten years, I watched that and 
figured, if I get the opportunity, I would do it differently, 
and this is my opportunity.
    So I will just say that we are very interested, obviously, 
in the mission of Special Operations. We know we are trying to 
increase the size of the force and that challenges come with 
that. I want to hear a little bit about that. I am also very 
interested, not just the direct action piece, but in the hearts 
and minds piece, which General Brown and I have talked about 
before, and how we can use that more comprehensively in many 
places in the world.
    With that, I will turn it over to my ranking member, Mac 
Thornberry from Texas, for any comments he has.

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Thornberry. Thank you, Mr. Chairman.
    I would just say that we are looking forward to working 
with you as well. On your left, or my left, we bring a lot of 
expertise and a lot of intense interest in the matters which 
are before this subcommittee, and we look forward to working 
with you, looking at what is happening today but with a focus 
to what we need for the future, which I think is Congress's 
proper role. So we look forward to working with you and 
appreciate, as you do, General Brown and our other witnesses 
being with you today.
    Mr. Smith. Thank you. I will do one other thing. I will 
recognize Representative Castor, who I know has MacDill Air 
Force Base in her district where General Brown is joining us 
from. So if you want to say a quick greeting to your 
constituent, we will do that and then move on.
    Ms. Castor. Thank you, Mr. Chairman.
    Just to point out that the Tampa Bay community appreciates 
everyone that works at MacDill and all of the brave men and 
women that serve our country, whether it is at MacDill Air 
Force Base, Central Command (CENTCOM), but especially Special 
Operations Command (SOCOM). Everyone in our community is so 
pleased to have the brave men and women of SOCOM working hard 
in the Tampa Bay area. So thank you. I look forward to working 
with you.
    Mr. Smith. Thank you very much, Representative Castor.
    With that, General Brown, the floor is yours.

   STATEMENT OF GEN. BRYAN D. BROWN, COMMANDER, U.S. SPECIAL 
                 OPERATIONS COMMAND, U.S. ARMY

    General Brown. Mr. Chairman, Representative Thornberry and 
distinguished members of the subcommittee. It is an honor to 
appear before this committee today to report on the current 
manning and readiness challenges facing Special Operations 
Forces (SOF). With your permission, Mr. Chairman, I would like 
to make a few remarks to compliment my written statement for 
the record.
    Two decades ago, Congress created the United States Special 
Operations Command (USSOCOM) to be an exceptionally trained, 
exceptionally skilled and highly successful joint command with 
a mandate to accomplish our Nation's most challenging military 
missions. As we mark the 20th anniversary of USSOCOM, the 
innovation of Congress----
    Mr. Smith. I am having a little trouble hearing. Is the 
microphone on? Thank you.
    General Brown. As we mark the 20th anniversary of USSOCOM, 
the innovation of Congress has proven to be visionary in 
today's conflict. We find ourselves engaged in a fight we were 
built for, a dynamic conflict against a multifaceted enemy who 
is global, unconventional and formidable. A significant portion 
of our recent successes is due to the tremendous support we 
have received from the office of the Secretary of Defense and 
the Congress as a whole to ensure our SOF warriors have been 
appropriately resourced to successfully accomplish the types of 
unconventional, irregular and adaptive missions demanded of 
them. Enabled by SOCOM's responsive and agile acquisition 
authorities, today's SOF warriors are better trained and 
equipped than ever before.
    Recruiting across the command has been good but not without 
its challenges. One of those challenges has been the enlisted 
Navy Sea, Air, Land (SEAL) ranks. To meet this recruiting 
challenge, the Chief of Naval Operations has made SEAL 
recruitment the top recruiting priority in the Navy.
    Our components have been proactive in maximizing our 
training pipelines. We have grown the school houses, increased 
the number of instructors and reviewed and revised our training 
methods. This ensures we can accept the increased student load 
while upholding the rigorous standard required to become a SOF 
operator.
    Additionally, some of this group growth has been building 
new SOF capabilities never before in our inventory. I have 
mentioned MARSOC, the Marine Corps Special Operations Command, 
but there is also the addition of a predator unmanned vehicle 
squadron, manned intelligence surveillance reconnaissance (ISR) 
capability, strategic psychological operations capability, and 
the delivery of our first ever CV-22 tilt rotor aviation, just 
to name a few of the new capabilities.
    We are proud of our growth and I commend our component 
commanders for meeting the challenges of growth while 
transforming the force and deploying at the highest rate in our 
history, all while keeping or improving the standard. However, 
we must continue to grow carefully. The hallmark of Special 
Operations Forces is their skill, experience and maturity. 
Building the force with new graduates must be balanced by 
retaining our seasoned operators to maintain effectiveness on 
the battlefield. We simply cannot over-populate the force with 
junior personnel to meet the aggregate numbers.
    Our Special Operations component commanders will appear 
following my testimony, and I trust you will hear the details 
of incredible programs that they have built and manage every 
day.
    Our retention initiatives have been successful. In fiscal 
year 2005, the Under Secretary of Defense for personnel and 
readiness approved the SOF retention initiative. This 
initiative enables us to provide focused incentives for SOF 
throughout their career and provide us a known inventory for 
management. But it isn't enough. Currently, we have 
commissioned a study of SOF recruiting and retention incentives 
and compensation that will help us determine what works and 
what doesn't so we can better manage the force of the future.
    Our overall readiness is excellent, and our deliberate 
growth is supported by associated gains in training and 
equipping of SOF. The readiness of our equipment is challenged 
by sustained combat operations and increased maintenance 
requirements impacting an aging fleet of aircraft, land and sea 
mobility assets.
    Our high operations tempo tests the strength of both our 
personnel and the enablers that support them. Our equipment 
receives first class maintenance, but, more importantly, the 
SOF warriors receive first class family support. In recruiting 
SOF, we gain the individual, but we retain the family.
    I want to thank you and the members of the House Armed 
Services Committee for your continued support to our soldiers, 
sailors, airmen and Marines, our first class Department of 
Defense civilians and our dedicated USSOCOM families. The 
support of this committee, especially your visits to our troops 
in the field and the support of the Secretary of Defense help 
ensure SOCOM remains the most capable special operations force 
in the world. I will be happy to answer your questions.
    [The prepared statement of General Brown can be found in 
the Appendix on page 49.]
    Mr. Smith. Thank you very much, General.
    On the questions, we will try to stick to the five-minute 
rule, but also I want to say, for members, this is a relatively 
small committee. We are not going to adhere strictly to the 
five-minute rule or to the order. If you have something we are 
talking about and something you really want to ask about, then 
we will be liberal about yielding that time; I will be very 
liberal about yielding that time and allowing the conversation 
to flow forward.
    So don't feel like you have to sit there and wait forever 
if there is something you think is important, and I will trust 
your judgment on that, at least for a little while.
    With that, I just have a couple of quick questions. I had 
the opportunity, Representative Thornberry and I did, to be 
down at SOCOM on Monday. So we got a lot of our questions 
answered then, and I appreciate that.
    One specific question, particularly with regard to the 
Army. They have the bulk of the Special Operations Forces and 
the bump-up in terms of getting to the higher numbers on the 
training piece. Has there been any alterations in the training 
to sort of make, easier is the wrong word, there is nothing 
easy about this, have they had to alter, have the requirements 
been more liberal on how they have accepted people in order to 
meet these numbers, or are they still at the same requirements 
they had before the bump-up?
    General Brown. Mr. Chairman, actually, they are higher than 
they were before. When I used to command Army Special 
Operations Command, the requirement for an Special Forces (SF) 
soldier to graduate was what we call zero-plus-zero in the 
language capability. Today they have raised this standard to 
one, one, one; read, write and understand the language. So the 
standards have actually been raised.
    Now what they have done through a very, very detailed 
analysis of every training day, they have reduced the course 
and the length of time, and they begin training language the 
day the soldier starts the course, thereby giving him a full 
year or more to study the language.
    Those kind of innovations in the training pipeline for 
Special Forces has been very, very positive. We get a better 
product out of the end of the pipeline, but quite frankly, if 
anything, the standards are much, much higher than they were 
throughout history.
    Mr. Smith. What percentage of Special Forces are in Iraq 
right now, of your forces?
    General Brown. To give you the specific percentage, I would 
have to--I would have to figure it out. We have got about 7,500 
folks deployed, about 5,000 in Iraq across all of the SOCOM--of 
all SOCOM, we have got about 5,000. For Special Forces, I would 
have to figure that out specifically.
    Mr. Smith. One last question. When we were down there, you 
talked about the need to upgrade your aircraft, C-130, and you 
are, as we all know, dependent upon the forces themselves for 
the larger pieces of equipment like aircraft basically, and 
then you specialize it from there, so you are dependent on them 
moving forward and you are waiting for the Air Force to make 
their decision on what to do about the air frame around the 
130.
    What is your preferred outcome, accepting for the moment 
you have to live with ultimately what the Air Force decides, 
but in terms of our input in the process, what would you need? 
Do you think you can take the existing air frame out there and 
upgrade them? Do you need a new air frame? If you needed a new 
one, what would it look like? I ask that because where the V-22 
is concerned, you didn't exactly get what you wanted. You are 
going to live with it, and I understand that, but I would like 
to try to avoid that when we are trying to replace the 130. I 
am curious what your preference would be.
    General Brown. I think what we need is a 130 size aircraft. 
I think that we are about done modernizing our current fleet. 
Now we have already started a small modernization program with 
what we call the C-130 Whiskey fleet.
    Mr. Smith. What does that mean? You mentioned that when I 
was down there.
    General Brown. Our most capable C-130 is called the Combat 
Talon II, and that is an all-weather penetrating aircraft that 
can penetrate enemy defenses and weather to deliver troops to 
the target. We have a lesser version of that; it is called the 
Whiskey model. It is not a full-up Talon but it is part of our 
modernization and it will be the stop gap so that we have some 
new rebuilt airplanes on the flight line until we do get a 
decision and figure out what our modernization program is for 
the future of our C-130 fleet.
    It is my opinion that we need a new aircraft. Most of our 
aircraft are I would guess 29 to 40 years old, and they are 
flying every day, and we are putting a lot more hours on them. 
I would say my number one modernization issue is the C-130 
fleet. Today we have several different models of C-130's. 
Pilots can't fly each other's model. So you have--you fall into 
the law of small numbers immediately because you have got a few 
aircraft that can do this, a few aircraft that can do a 
different mission.
    What we are looking for is a modernization program with a 
new aircraft about a C-130 size that ultimately will give us a 
pure fleet so that we can get some mass in our capability and 
better manage the force.
    Mr. Smith. So that basically one pilot could fly--same 
pilot could fly any one of the four or five different versions 
you need.
    General Brown. That would be a good solution to a lot of 
our problems.
    Mr. Smith. Thank you, General.
    Mr. Thornberry.
    General Brown. Thank you, sir.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General, one of the tasks that has been assigned to SOCOM 
is overall planning for the global war against the terrorists, 
and I think it would be helpful to hear from you, at a very 
high level, how do we win this war in the long term because 
there is concern of course that we will have a difficult time 
hunting down every person who chooses to become a terrorist and 
so there must be a larger and longer approach? How--how would 
you describe that?
    General Brown. We have written the global war on terror 
(GWOT) plan. Without getting too detailed into the plan, there 
are two basic vectors, and one is the direct action piece, and 
one is the indirect action piece. The direct action piece has a 
direct impact on our enemy. The indirect action has a direct 
impact on the environment, thereby influencing the enemy.
    The most important piece of that is the indirect piece, and 
that is the very, very difficult piece, eliminating underlying 
conditions, eliminating Islamic extremist ideologies. It is the 
indirect piece that is very, very--building partner nation 
capability. That is the more difficult, and long term is a 
piece, but it is critical to the success in the long war for 
the global war on terror.
    The direct action piece is critical because quite frankly 
that has a direct impact on the enemy and in fact protects the 
homeland and buys time for the indirect piece of the global war 
on terror strategy to work.
    So I would say the secret is we have got to do both, both 
of them to protect the homeland, but the indirect piece of 
working with our partner nations, enabling them to be able to 
hunt down terrorists inside their own borders, building their 
capacity, eliminating underlying conditions, eliminating 
Islamic radical ideologies, those are the things that will 
eventually win it, and that influences the environment, which 
in turn influences the enemy.
    Mr. Thornberry. As you know, there has been some criticism 
that we as a government are too heavily weighted toward direct 
action. How do you think--do you think we have the balance 
about right or not?
    General Brown. Well, I think there is a need for both of 
them right now, but I would say, it would be better if we could 
be doing more indirect action around the world. Our Forces, SOF 
Forces are specifically capable of doing the indirect piece as 
well as the direct action piece. Most of our deployments as you 
know are into Afghanistan and Iraq, and so we are not doing as 
many engagement and training host nation countries and partner 
nation countries as we would traditionally do around the world. 
SOF forces are very good at that. There is one other point I 
would make, and that is on the Iraqi battlefield, our SOF 
Forces, our Special Forces and our SEALS are doing direct 
action, but they are doing it in concert with the Iraqi 
battalions. They are doing it in the combat advisor role, which 
is in fact the indirect piece. It is enabling partner nations.
    Now the outcome may be a direct action mission, and I think 
that is widely misunderstood and reported because people think 
that because you are going to hit a direct target, that is a 
direct mission, and it is in fact a direct action mission. But 
when you are doing it by training the Iraqi forces and then 
combat advising them, helping them plan and execute the 
mission, you are building their capacity and capability to do 
it by themselves, thereby making it an indirect approach.
    Mr. Thornberry. Thank you. I appreciate it.
    Thank you, Mr. Chairman.
    Mr. Smith. I believe what we will do is, I will call on Ms. 
Castor, and we will break, and if the General could, I think 
the other members of the committee would have questions for 
you. We will endeavor to be back as quickly as possible. 
Probably about a half hour.
    Ms. Castor.
    Ms. Castor. Thank you, Mr. Chairman.
    When talking about the indirect action, that piece of it 
that we have got to further develop in the global war, talk to 
me about how your recruitment efforts have changed and the 
challenges you face in recruitment, especially of the high-
quality type that you place special emphasis on in Special 
Operations and the challenges you face with cultural and racial 
diversity and recruits that have the linguistic skills that are 
necessary for your type missions.
    General Brown. That is a great question. First of all, 
recruiting since 9/11 has not been a problem for Special 
Operations Forces. Every seat in every school is full to start 
the course. We have had some problems getting people through 
the course but, quite frankly, overall speaking, and there may 
be some spot shortages, our recruiting has been excellent.
    We require every Special Forces graduate to be able to 
speak a language, and so they obtain those language skills 
while they are in our course. We have subsequently started 
language programs also in our SEALS, and the main requirement 
for language in our Air Force Special Operations Command is a 
unit we call the 6th SOS, which is a foreign internal defense, 
and they specialize in going into countries and helping them 
learn to maintain and fly their aircraft. So they have a 
language requirement.
    Language is incredible. It is incredibly difficult to train 
and maintain, and so we then target the people that we train in 
one area of the world so that they can maintain that cultural 
awareness and language skills. So while we don't try and 
recruit people with language ability, it is helpful.
    Our premise is that we are going to bring you in, we give 
you the Defense Language Aptitude Test, and then we put you in 
the language that we want to target you against where you will 
stay in that area of the world.
    Our recruiting, quite frankly, has been very, very good.
    Ms. Castor. And the training has been successful. The 
recruits are making it through that training and learning the 
languages in a timely manner enough to be deployed, and you are 
not having any difficulties with sending qualified, highly 
qualified troops out on their mission.
    General Brown. The troops going out on the mission today 
from Special Operations Command are the best that have ever 
gone out of Special Operations Command. About 23 percent 
graduate from the course, and they fail the course for all 
kinds of reasons, one of them being their inability to pass the 
language portion. And so if you can hit a target at 600 meters, 
that is great, but unless you can speak a language that we ask 
you to learn, you are still not going to graduate and wear a 
Special Forces tab.
    Ms. Castor. I am still learning a great deal about all of 
the services under the jurisdiction of this committee, but I 
imagine that, under Special Operations indirect action 
missions, those are much longer deployments, much longer-term 
than I am typically learning about in the Army Brigades that 
are in the more traditional combat missions. Is that right?
    General Brown. I think you are right. On the indirect 
approach, we have to provide some sort of persistent presence 
to build that relationship, to build that capability, and 
occasional deployment to an area to work with a foreign 
military to train them for four to six weeks is helpful but it 
is not nearly as helpful if we can keep a persistent presence 
in that country working with those forces for a much longer 
period of time and bring them up to a higher state of resonance 
to include training their non-commissioned officer (NCO) corps.
    The people I failed to mention real quick on the indirect 
piece that are critical to the indirect piece are the Civil 
Affairs and the Psychological Operations Forces, which are two 
core tasks of Special Operations Command, and we enjoy the good 
fortune of having the active Civil Affairs and Psychological 
Operations Forces under our command and proponency for them. 
They are critical in the indirect piece, which I think is 
pretty clear.
    Ms. Castor. Can those deployments go on for many years 
then?
    General Brown. They could. What our concept for future 
operations is that we will build a rotational force with the 
growth, with the SOF growth that is being provided by the 
Quadrennial Defense Review (QDR) that will allow us to maintain 
whatever the deployment is required but have sufficient forces 
trained in a joint nature so that we can still continue to do 
rotational Special Operations deployments.
    Ms. Castor. Thank you, General.
    Mr. Smith. Thank you. With that, I believe we will recess. 
I would imagine it would be about 25 minutes to a half hour.
    General Brown. Yes, sir.
    Mr. Smith. Thank you for your patience.
    [Recess.]
    Mr. Smith. Call us back to order. Ms. Drake.
    Mrs. Drake. Mr. Chairman.
    General Brown, first of all, thank you for being here. I am 
very concerned and I know all of us are about the increasing 
use of IEDs. As we all know, they are the leading cause of U.S. 
combat deaths and injuries in Iraq and additionally the use of 
improvised explosive devices (IEDs) in Afghanistan has doubled 
last year alone. IEDs are the low-cost weapon of choice of our 
enemies, and it seems to me that, as long as we are fighting 
the war on terror, we will be confronting IEDs.
    It is my understanding that SOCOM's role in this battle 
against the use of IEDs is to attack the networks that place 
them, thus neutralizing the threat before it even materializes. 
Can you comment on this mission and address for us whether your 
command has the resources necessary to execute this mission?
    General Brown. Thank you for the question. I think it is 
everybody's mission on the battlefield at all times to see if 
we can take this network apart that is developing the IED, 
delivering the parts for it, employing it, and so it is 
everybody's mission, but certainly, we are very, very 
aggressive about trying to track down that network that is 
providing the supplies that build the IED, all the way to the 
guys that hire people to put them in, people that put them in, 
and so we are very aggressive about it. We have got the 
resources we need to take this mission on.
    I should say that, right from the beginning, when the first 
IEDs started to hit us, we were very, very aggressive about 
doing what I think was just about everything we could do 
immediately to go after this problem set. We actually deployed 
forces to other countries that had some experience in it. We 
learned from them. We wrote the handbook. We worked with the 
United States Army and the Marine Corps to help develop the 
handbook for tactics, techniques and procedures. We immediately 
tried to start armoring up our vehicles.
    So we have taken the IED threat very, very seriously. But I 
think you hit the nail on the head. It is the entire spectrum 
from the IED maker all the way to protecting our soldiers, 
sailors, airmen and Marines with the best equipment we can. 
That is critical. IEDs are going to be with us a long time. 
They are a very, very inexpensive weapon of choice of 
terrorists around the world and it is proliferating around the 
world, but I think we do have the resources and the drive and 
the initiative to go after everything that we can to try and 
protect our forces on the battlefield.
    Mrs. Drake. General Brown, thank you for that. But just one 
other thing that I wanted to mention. We had a breakfast here a 
couple of weeks ago for Special Operation Forces, and we had 
two SEALS who came to tell us about their experience in Iraq, 
and they said three things that all of us have heard the exact 
opposite of and Americans have heard the exact opposite of. The 
first thing they said is they hire Iraqis when they are able to 
contract out work. Then they said this, the sheik had given 
them 350 of his people to be Iraqi police. And the third thing 
was that the Iraqi Security Forces were doing a very good job, 
and they were very impressed by the progress they have made.
    My question to them is, can we put them on TV, or how do we 
get the message out? Is there a better way to get the message 
out of what you are able to accomplish?
    General Brown. I am sure there is a better way to get the 
message out. I would just reiterate and re-emphasize what they 
said. I have been over there many times, will be back over 
there next week. I have been out with the Iraqi Security 
Forces, especially the Iraqi special operations forces that we 
have had the responsibility for training, and they are very, 
very good, and they are very dedicated to the task and so the 
folks that we have had the opportunity to train, quite frankly, 
are doing very, very well.
    I am sure there are better methods of getting the 
information out, and we are probably not doing well enough.
    Mrs. Drake. It was just the exact opposite of what we all 
think. Thank you for your answers. I yield back.
    Mr. Smith. If I can follow up on that, and I did hear that, 
but isn't it fair to say, it is a little bit more of a mixed 
bag in terms of the quality of the Iraqi forces and the support 
from the locals? I think there are some areas, particularly in 
the Sunni-held provinces, where a number of Sunnis have decided 
recently that al Qaeda is not in their best interest, and they 
are working with us. That has made an enormous difference. 
There you are working with basically what amounts to the 
militias for the local sheiks. Once the local sheiks have given 
the big thumbs up that they are supposed to work with them, 
then it is really good. But at other places, particularly in 
more mixed neighborhoods, the Iraqi forces, there have been 
instances when they haven't shown up, they haven't been 
prepared to do the job. Our forces have had to take on 
responsibilities.
    It is not all just one side or the other, and I will agree 
with Mrs. Drake that certainly we hear more of the negative 
than the positive, but I think it would be misleading to give 
the impression that all the negative stuff just isn't accurate.
    General Brown. I think you are exactly right. Sir, it is a 
mixed bag. It depends on where you are and what forces you are 
training with and their commanders. So it is different for 
whoever you draw as your team.
    The point I would make is for the Iraqi special forces, 
which we have trained from day one, they are very, very good, 
and so I am very, very confident and comfortable with their 
capabilities, and, as you know, that force is expanding.
    Once you get out away from the Iraqi special operations 
forces, our Special Forces teams and some of our SEAL teams, 
specifically in Ramadi, are out as combat advisors, and it is a 
mixed bag. But a little bit of training--when I was there, on 
the last trip I was there, the SEALS that I visited in Ramadi 
were in a large warehouse where they had taken the leadership 
of the Iraqi battalion that they were training with, and they 
had pulled off the NCO corps and had taken them to this 
warehouse and were training them at night so that the next day 
when they showed up to take over their platoons as platoon 
sergeants and first sergeants, they would act like NCOs, and 
they would have expertise that the troops did not have. So they 
were giving them this little additional training off to the 
side where nobody would see it to try and build the credibility 
of the NCO corps.
    So I would agree with you that it is dependent upon the 
unit you are working with, how good that commander is, but, 
quite frankly, the ones I have seen over the years, it is much 
improved. One of my first trips over up in the Mosul area, 
quite frankly, we had problems with just getting them to come 
to train. I didn't see that the last trip over. They were out 
there training, and we were getting pretty good numbers to show 
up.
    So it is a process you just have to stay after. It is not 
going to be instantaneous.
    Mr. Smith. Thank you.
    Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    Mr. Chairman, I would just like to take this opportunity 
before I ask the question to congratulate you, inasmuch as I 
wasn't here for the re-organization of the subcommittee, upon 
your becoming chairman of the subcommittee. I look forward to 
working with you and with Mr. Thornberry as ranking member, and 
I, as you know, enjoy serving on this subcommittee very much 
and getting to know the men and women of the Special Operations 
Command. So I look forward very much to working under your 
leadership in this regard so congratulations.
    Mr. Smith. Thank you. Of course, chairing, you have chaired 
the committee as well and did so quite ably. So I appreciate 
that. Thank you for those kind words.
    Mr. Saxton. Thank you.
    General Brown, just by happenstance, Congressman Thornberry 
and I about a month ago realized that in between, sometime in 
between the election and when we came back here to reorganize 
the Congress, he and I both read a book entitled, The Sling and 
the Stone. The book is a book that explains the nature of what 
the author refers to as fourth-generation warfare. And without 
going through an explanation of first generation, second 
generation and third generation, fourth-generation warfare is a 
strategy which attempts to weaken the political will of your 
opponent.
    As I watch the progress of the war, the global war on 
terror, I see the author's description played out over and over 
again. Basically, the folks in the Middle East have realized 
after watching the United States military or the coalition 
military in 1990 and 1991, that it is probably not a good idea 
to take us on in that kind of a war.
    And so in order to accomplish their goals, they had to find 
another way, and they watched what has happened through history 
where weaker--the weaker force has been successful in taking on 
a stronger force and using those techniques and methods and 
strategies to carry out this war.
    I don't know if you have seen that book, but could you--I 
think you probably get the gist of what I am saying. Could you 
just comment on what you see going on in regard to this as 
being a different kind of war, perhaps even a fourth generation 
warfare?
    General Brown. I am not familiar with the book. I will go 
get it and read it. But it sounds exactly like what we are 
talking about. This is that kind of war.
    It is a different kind of war. People have to understand 
that it is not big formations on big formations. A lot of 
people find that a very comfortable way to go to war because 
you can do all kinds of simulations and modeling and, as you 
know, in this kind of a war very, very difficult to do any of 
that.
    As you know, we have just written in concert with the 
Marine Corps our, Irregular Warfare Joint Operating Concept, 
and basically the definition of irregular warfare fits right 
into that type of warfare it sounds like this book is talking 
about with protracted--the protracted efforts to exhaust your 
enemy and his political system as opposed to direct action 
force on force. So I think that exactly describes what we are 
up against. So I will take that book on and read it before my 
next testimony.
    Mr. Saxton. Thank you, General Brown. Good to see you.
    Mr. Smith. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    Thank you, General Brown, for your outstanding leadership. 
I wanted to ask you, I know we have been interrupted by votes, 
and wasn't sure if this had been examined, I had the 
opportunity to be at the new Marine Special Operations Center 
in late August that is being stood up at Camp Lejeune and I 
know the good General is going to be with us in the next panel 
to talk with us about that.
    But with the proximity of Fort Bragg and Camp Lejeune, has 
there been any effort in the option of utilizing Army Special 
Operations Command infrastructure with the Marine Special 
Operations Forces training?
    General Brown. While we haven't physically overlaid the 
Marine Corps Special Operations training on top of the Special 
Warfare Center and school at Fort Bragg, the very first thing 
that the commanding general did, and I am sure he will be glad 
to talk to you about that, is go to visit the Special Warfare 
Center at Fort Bragg and look for areas where they can work 
together to help get the Marine Corps Special Operations 
Command assessment, selection, training, get it on board and 
get going with it.
    They have in fact--we do share, all of our SOF forces share 
each other's schools so we are already maximizing that. The 
Marine Corps Special Operations Command has a high number of 
medics in our medic course there at Fort Bragg, North Carolina, 
which the Special Forces medic is world renowned. So we are 
already sharing a lot of those kind of schools. We will do 
better a year from now as we work through more slots and 
building the capability to put more Marine Special Operation 
Forces into our schools. But there is a lot of work going into 
making sure we are not redundant, that we are parallel, because 
those forces have different requirements, different mission 
sets. So where we can do the same training and assessment, 
selection together, then we are encouraging them to do that. 
But where they need to be separate, they are.
    Mr. McIntyre. Thank you.
    Thank you, Mr. Chair.
    Mr. Smith. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    General Brown, thanks for coming today. A couple of 
questions, hopefully quick answers, on the Civil Affairs and 
the other non-operational types, for lack of a better phrase, 
are they fully SOF-qualified or other folks that don't 
necessarily need to be able to do all the things that----
    General Brown. The Civil Affairs Forces and the 
Psychological Operations Forces come through our school at Fort 
Bragg, North Carolina, and have to graduate from our Civil 
Affairs or our Psychological Operations Course. And so when 
they come to us, and they also have language skills and 
language requirements dependent upon what unit that they are 
habitually aligned with. They will be airborne qualified. They 
will deploy with SOF forces.
    So they are fully integrated into Special Operations with 
special training.
    Mr. Conaway. I know they are fully integrated, but in terms 
of their overall level of training, they go through all of the 
schools that someone----
    General Brown. Not all of the schools. They go through the 
schools that are applicable to the skills that we require them 
to have on the battlefield. I might mention that the Civil 
Affairs force has done a phenomenal job in Iraq and 
Afghanistan, and these are small four-man teams or, in many 
cases, men and women teams that are far out all by themselves, 
in villages, on the roads, in a Humvee, just doing an 
incredibly important job, and they have done it very, very 
well.
    Mr. Conaway. You talked to us a little bit more about 
modernization. You mentioned aircraft issues and needs. Are 
there other areas where there is training facility or equipment 
capability that you need that you don't already have?
    General Brown. Modernization, it never stops because you 
are always looking at what you have and what is available to 
make sure that we are putting the best equipment that we can 
for SOF operators. One of the key areas that we also focus on 
is what we call soldier systems, but it is really soldier, 
sailor, airmen and Marine systems for the ground forces and 
those that are on the ground to make sure that we are getting 
the best body armor, lighter body armor, the best radios, the 
best weapons, and so we are modernizing the force in all those 
areas.
    We are looking at a new weapons system called the combat 
assault rifle, Special Operations Combat Assault Rifle called 
the SCAR. We are about to start fielding that at low rate 
initial production to make sure it meets our requirements.
    We are modernizing our helicopter fleet. We are building MH 
60 model Black Hawks. We are building G model, through great 
efforts by the United States Army, G model Chinooks. We are not 
only modernizing that fleet. We are growing that fleet, and we 
are stationing some helicopters out at Fort Lewis, Washington, 
so, for the first time, in our history, we will have aviation 
on the west coast. Forty percent of all SOF is stationed west 
of the Mississippi, but no aviation, so we are fixing that 
piece on the helicopter piece and of course CV-22 is probably 
our biggest modernization project.
    All of our--we need to move faster on our boat programs, 
and we are. We have got some initiatives going on to look at 
the next generation of our rivarine craft, our Mark 5 SEAL 
assault crafts. So we are looking at our boat programs, and we 
are starting to move on. So we are modernizing in just about 
every area. We have got some pretty good plans.
    Mr. Conaway. But there are no glaring deficiencies that you 
are really concerned at this stage?
    General Brown. Glaring deficiencies is probably too hard. 
We need to work a little harder and get some decisions on the 
modernization of our C-130 fleet. That is the biggest one that 
kind of sticks out right now.
    Mr. Conaway. One last quick one. Can you talk to us about 
casualty rates among SOF forces in Iraq and Afghanistan versus 
non-SOF forces?
    General Brown. I have not taken a look at the numbers of 
casualties compared to the conventional force casualties. Our 
forces are doing high-risk missions, all the way down to Civil 
Affairs and Psychological Operations, like I talked about. They 
are out on very dangerous roads, out by themselves, they are in 
small teams. So they are doing very high-risk missions.
    They are provided the best equipment and the best training. 
They are trained at a higher level. So all that plays into the 
amount of casualties we take but the other thing is we are 
very, very proud of our medical capability for all the special 
operations medics so when they are wounded we have got very, 
very highly trained medics right next to them.
    I have not looked at the numbers. I can go back and look at 
that. Quite frankly, I try and stay away from briefing the 
numbers of casualties. These guys aren't numbers. These are 
absolutely wonderful special operators that are on the 
battlefield defending this Nation.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    General Brown, thank you for being here. A special thank 
you and our prayers for the men and women that you represent.
    General Brown. Thank you.
    Mr. Hayes. I have been kind of tagging along behind your 
wonderful folks ever since I have been in Congress, and it has 
been an incredible privilege. If I could yield my time to you, 
and I can, is there anything that you can bring to this hearing 
in terms of the folks back home--the committee is pretty well 
aware we are at war and what the stakes are. This is not a 
negotiating kind of thing.
    Is there a comment that you can add there that might help 
focus on the one word to describe Iraq, which is win, which is 
what you are doing.
    General Brown. I think I need to focus, if I were making a 
comment about Iraq, I need to focus on what the special 
operations tasks are and how well our forces are trained, 
organized, equipped and employed. And we will be going back 
over tomorrow morning to visit them.
    And when you go over, you kind of look at are we doing 
things right, and are we doing the right things with our 
Special Operations Forces? Are we doing missions that 
conventional forces are not organized, trained and equipped to 
do, because that is the purpose that this Nation built this 
wonderful Special Operations Forces? We are trained, organized 
and equipped to perform the functions that conventional forces 
are not.
    So the measurement of success for the SOF forces, when I go 
over, I see them doing everything, and they are doing it very, 
very well. I am not just up here cheerleading for them because 
they are a wonderful people, and we certainly don't get 
everything correct. But I will tell you that where I see them 
training and combat advising Iraqi and Afghani forces, they are 
phenomenal. Where I see our Civil Affairs Forces out meeting 
with Pashtun leadership, they are phenomenal.
    So I am very, very happy. And then our high-value targeting 
capability is very, very good. So I think that the thing I 
would say about Iraq is that the SOF forces over there are 
doing a tremendous job.
    Mr. Hayes. Thank you, sir. I am smiling because I am 
thinking about the breakfast that Chairman Smith and Mike 
McIntyre and others of us had. You generals are fine. We 
appreciate you, but when the operators come and tell from their 
own perspective in a very humble way who they are and how they 
do it, the press can't refute that. Again, thanks to all those 
guys.
    A cousin just graduated from college in December magna cum 
laude, and guess what he did with his degree, he is headed down 
to Fort Benning to join Special Forces to be a combat medic.
    Yield back. Look forward to the next panel.
    General Brown. Thanks very much.
    We will look forward to seeing him in the force.
    Mr. Smith. I should say for all members' information, we 
are going to try to do more of those hearings with Special 
Operations Forces, individual members coming back from 
battlefield and giving us some firsthand accounts, informal 
briefings. Try to do the same thing, something early in the 
morning. I have discussed that with General Brown, something 
they definitely want to do, interested certainly in Iraq and 
Afghanistan, but also one of the pieces, and I will be asking 
Admiral Maguire, when he comes up, about this, about the 
experience in the Philippines and the more indirect action 
piece of it, which as Mr. Thornberry has said, has enormous 
potential. So we are going to try to set them up and urge all 
of you to attend because I agree with Representative Hayes, 
that was incredibly useful for all of us.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, General Brown, for being here. I have missed 
some of the testimony and the questions and answers, and I 
don't want to be redundant, but I do want to say how very 
grateful I am for your service and the service of the 
extraordinary men and women in the Special Operations Command, 
to thank you and to thank them.
    I, too, am looking forward to the testimony of the next 
panel, but with my deep thanks and congratulations. I will 
yield back, Mr. Chairman.
    General Brown. Thank you, sir.
    Mr. Smith. Thank you. Actually, I think that concludes. I 
have just one more question. On the Capstone Concept for 
Special Operations, which put differently, is sort of your I 
guess 30,000-foot vision of, here is what we want the Special 
Forces to be doing in the immediate future in the environment 
we are in on the war on terror. If you could say a few words 
about that vision, because I think it is going to be enormously 
important in the war on terror.
    General Brown. Thanks for the opportunity.
    In Special Operations Command, our staff is built by 
functions. It is not built with the normal line and block 
charts that you would normally see in a joint staff. One of 
those that we stood up is called the Center for Knowledge and 
Futures, and their job is doing our Title 10-required doctrine 
writing, and also I have given them the task of taking on the 
future.
    We based our concept, Capstone Concept for Special 
Operations employment on three factors, and that is global war 
on terror, expeditionary trained join SOFs, and the ability to 
have a persistent presence forward.
    So what we did is we took this look at what we thought 
would be required around the world, how we could best meet 
those three strategic requirements, and I think we have come up 
with a good concept that will allow us to build and train a 
joint SOF force to match the requirement in a specific 
environment, build that and train it in the United States, put 
a command and control over it, enable it with all the schools, 
all the command and control communications intelligence, with 
all the logistics pieces, and then deploy that as an integrated 
unit to take care of a problem set in a specific environment.
    Mr. Smith. By specific environment, you mean as specific as 
this particular part of the world.
    General Brown. Exactly.
    Mr. Smith. Train about the culture, the language.
    General Brown. If in fact you were the European Command 
(EUCOM) commander and you had a requirement today for a 
campaign in Africa, we can build that force. We can train it to 
a standard and it will have all the pieces and enablers, and 
they will work as a joint force. Today, we traditionally do it 
based on the requirement of the Geographic Combatant Commanders 
(GCCs). They will ask for like a Special Forces team. We will 
then train, organize and equip and deploy that Special Forces 
team.
    Our concept goes beyond that. Our concept is building a 
Joint Force with a joint command and control with all the 
enablers in it to match the problem set that you are giving us. 
And so we wrote this Capstone Concept.
    The two enablers for it are the SOF growth that we got in 
the QDR, which helps us have the capacity to do this in the 
future, and global positioning of where our forces are around 
the world so that we match up with the task that we are trying 
to take on.
    So we put all those kind of pieces into a document. We 
wrote the concept. It is called the Capstone Concept for 
Special Operations, and it kind of guides us in the future of 
how we intend to employ special operations.
    Mr. Smith. Thank you. One last question, as I was thinking 
about it. It could sort of touch off a broader discussion, but 
I will ask it anyway. In terms of the use of our forces and 
what you just talked about there sort of triggered it in my 
mind, there are a lot of places particularly in Africa, 
Southeast Asia, different parts of the Middle East where there 
is a definite threat. There is an unstable environment, an 
extremist element if not al Qaeda directly. We have seen these 
extremist elements may not start out as al Qaeda but link up 
with them, as is happening in Algeria. It strikes me those are 
areas where you guys could really be enormously important in 
stopping that before it starts. The main problem with that 
right now is there is such a high percentage of the force in 
Iraq, would be my guess. I am not suggesting, and don't mean 
to, that somehow we can just go ahead and abandon that because 
we have other things to do.
    But I just make the point because conceptually the GWOT is 
about more than Iraq. It is not like if we win there, whatever 
at this point win might look like, if we succeed there, get a 
reasonably stable environment I think is a better way to put it 
than in terms of a win or a loss at this point, but even if we 
succeed there, we have got all these other places where you 
guys can be making an enormous difference, is my perception. Is 
that sort of, as you look at the world, can you see 5, 10, 15 
places like gosh, if we have two dozen of our SOF guys, that 
would make an enormous difference there?
    General Brown. Sir, I think there are plenty of places and 
opportunities where small Special Forces teams working with 
indigenous forces to train them, to help equip them, to help 
give them the capability to defend their own borders, fight 
terrorism inside their own countries, that Special Operations 
Forces could be working today.
    Our center of gravity as you said is Iraq. We are going to 
build five more Special Forces battalions, for example. Those 
battalions, while people think that is to reduce our ops tempo, 
it will do some of that. But the main thing it will do is give 
us the capacity and the capability to spread out and do the 
other types of missions that you are discussing.
    I should say also that, when we do the indirect piece, and 
part of that is enabling our partner nations around the world, 
I failed to mention earlier that there is a big interagency 
piece of that. And working with the interagency in our plan for 
the global war on terror is a key piece of our entire strategy.
    Mr. Smith. That is all I have. Does any other member have 
anything else for General Brown?
    If not, again we thank you very much. We know you are 
headed out into the field, so give all of our troops over there 
our best and our support, and thank you very much for being 
here and for all your great work on behalf of our country.
    General Brown. Thank you very much, sir.
    Mr. Smith. We will bring in the other panel. My preference 
is if we could just have us sit here. It shouldn't take more 
than a couple of minutes. I don't want to lose any time. So we 
will bring in the four component commanders and get going as 
soon as they are situated.
    Is Admiral Maquire just outside the room? We will give him 
just a minute. We did that kind of quick. You didn't 
necessarily see that coming, then all of a sudden we asked for 
you.
    I apologize, Admiral. My fault. We should have given you a 
little bit more of a warning time there.
    Welcome. We are now joined by our four Special Operations 
component commanders. We have Lieutenant General Robert Wagner 
from the U.S. Army Special Ops; Rear Admiral Joseph Maquire, 
Commander, U.S. Naval Special Warfare Command; Lieutenant 
General Michael Wooley from the U.S. Air Force Special 
Operations Command; and Major General Dennis Hejlik from the 
U.S. Marine Corps Special Operations Command.
    I want to welcome all four of you and say we are very 
honored and pleased to have all of you here. It is incredibly 
helpful to our committee to have your perspective. We know it 
is not easy. You are busy. You are in the middle of a war and 
doing very important things. So for you to take time and come 
back here and testify before us and give us a chance to ask you 
some questions means a great deal to this committee and gives 
us a great opportunity to get insights on what you could and, 
more importantly, how we can help you do it.
    With that, we will go left to right and start with 
Lieutenant General Wagner from the U.S. Army Special Ops 
Command and go down from there. General.

 STATEMENT OF LT. GEN. ROBERT W. WAGNER, COMMANDER, U.S. ARMY 
             SPECIAL OPERATIONS COMMAND, U.S. ARMY

    General Wagner. Mr. Chairman, Congressman Thornberry, 
distinguished Members of Congress, it is my honor to appear 
before the committee and to report on the manning and readiness 
of the U.S. Army Special Operations Forces, which are the best 
manned, trained and equipped in our history. They continue to 
perform magnificently. They are incredibly capable soldiers, 
and I think you can be very proud of them.
    My top two priorities are support the global war on terror 
and the readiness of our forces. First I would like to talk 
about the command support to the global war on terror.
    Every day we have over 4,500 carefully selected, highly 
trained, and well equipped Army Special Operations soldiers, 
the Green Berets, our Rangers, our Civil Affairs, Psychological 
Operations and Special Operations aviators and support forces 
deployed around the world.
    The pace and intensity of their deployments is incredible. 
The soldiers are engaged in full-dimension warfare, from 
indirect to direct action, requiring maturity, judgment and 
seasoned experience.
    In regard to the kinetic aspects of our mission, Army SOF 
soldiers are in a continuous cycle of find, fix, finish, 
exploit and analyze. Our SOF soldiers and the joint team are 
routinely hitting multiple targets per night. Their agility at 
exploiting intelligence from one target to go to the next is 
unmatched in the annals of warfare. This cycle is played out 
nightly in multiple locations in Iraq and Afghanistan and is a 
hallmark of the direct action success on the battlefield.
    Just this weekend, our Special Forces teams, embedded with 
Iraqi counterpart units and Air Force Special Operations Forces 
and conventional forces, were engaged in a major operation on 
short notice that prevented a major attack on a holy 
celebration.
    The force is very heavily committed. Most of our operators 
have completed eight or more combat rotations, with very little 
rest at home while they are in fact training for the next 
deployment and are on alert for contingencies.
    Conversely, in the non-kinetic aspect of our mission, Army 
SOF teams are embedded with indigenous people in the armies of 
Iraq and Afghanistan and in the Philippines and around the 
world, working side by side, building capacity and capability 
in the host nation forces, enabling them to operate 
independently with increased effectiveness.
    In my opinion, this is the most important work we do and is 
aptly key to winning the war, working by, with, and through 
partner forces and enabling their success. It is a hard, tough, 
patient work that President Kennedy had in mind when he 
insisted on expanding the size of the Special Forces, forces 
that are uniquely blended of skills to help those who have the 
will to help themselves. That we find ourselves today expanding 
the size of Special Operations Forces once again is instructive 
and, again, to your credit.
    To my second priority of force readiness, it is linked to 
the current fight. As General Brown stated, people are our most 
precious asset, followed closely by equipment and training. We 
must recruit, train, assess, equip, retain and professionally 
develop our SOF soldiers and continue to monitor every aspect 
of that process.
    As you know, we are in the process of adding over 6,800 
Active Duty soldiers to the Army Special Operations Forces from 
the QDR growth. Continued increased production of our SF Civil 
Affairs and PsyOps soldiers has been the total transformation 
of the instruction program at the John F. Kennedy Special 
Warfare Center and School, Fort Bragg.
    This continues to be very much a good news story as Special 
Force student production has increased from an average of 238 
per year in the nineties to a current steady state of over 750 
Active Duty soldiers per year. We did this basically using best 
business practices, all while maintaining increasing standards.
    Army SOF's population is more senior than most units, which 
highlights the importance of senior-grade retention 
initiatives. Retention programs are critical to keeping these 
extraordinary skilled professionals, who routinely separate 
themselves from their families and place their lives at risk. 
Over 1,000 retirement-eligible soldiers have accepted retention 
incentives to remain in Army SOF. With your help, we must 
sustain these initiatives and be prepared to initiate others to 
keep the force at peak readiness.
    In conclusion, I thank the members of your committee for 
your continued support to our soldiers. You help make our 
success possible as we prosecute the global war on terror, grow 
the force and maintain our high standards. I look forward to 
answering your questions.
    Thank you, sir.
    Mr. Smith. Thank you, General.
    [The prepared statement of General Wagner can be found in 
the Appendix on page 59.]
    Mr. Smith. Admiral Maquire.

STATEMENT OF REAR ADM. JOSEPH MAGUIRE, COMMANDER, NAVAL SPECIAL 
                   WARFARE COMMAND, U.S. NAVY

    Admiral Maquire. Chairman Smith, Congressman Thornberry, 
distinguished members of the subcommittee, good afternoon. It 
is an honor and privilege to appear before the subcommittee and 
talk to you about the state of Naval Special Warfare and the 
maritime component of the United States Special Operations 
Command.
    As I said in my written statement to you, and Mr. Hays said 
earlier in General Brown's session, nobody in this room has to 
be told that the Nation is at war and we have been engaged in 
combat operations for 5-1/2 years.
    Those of us who got Title 10 responsibilities to organize, 
train and equip have done our part, but I am glad to be here 
this afternoon to have an opportunity to thank the Congress for 
the equipment part. You have resourced us well. You have given 
us all the tools that we need to achieve victory on the 
battlefield. But we also realize that of those that are given 
much, much is expected.
    That said, Special Operations is not about the equipment, 
it is about our people, and I know that the focus of this 
afternoon is about our manpower and our retention.
    I was pleased to have the opportunity two weeks ago to be 
here with a couple of my young operators to talk to you about 
what they are doing on the battlefield, and I look forward to 
continuously engaging the subcommittee on such matters.
    Thank you for the opportunity this afternoon, and I look 
forward to a continued relationship as we support the marvelous 
men and women of Special Operations and do what we can to help 
them achieve victory on the battlefield.
    Thank you, sir.
    Mr. Smith. Thank you.
    [The prepared statement of Admiral Maguire can be found in 
the Appendix on page 82.]
    Mr. Smith. General Hejlik.

STATEMENT OF MAJ. GEN. DENNIS J. HEJLIK, COMMANDER, U.S. MARINE 
   CORPS FORCES SPECIAL OPERATIONS COMMAND, U.S. MARINE CORPS

    General Hejlik. Chairman Smith, Congressman Thornberry, and 
distinguished members of the committee, thank you very much on 
behalf of all the marines, sailors and Department of Defense 
(DOD) civilians of the Marine Corps Forces Special Operations 
Command, MARSOC, for the opportunity to testify this afternoon 
on our manning, our equipping and our readiness of MARSOC.
    In less than one year, because of your untiring support, we 
have gone from an operational concept to global deployed forces 
in the long war on terror. We have four military training unit 
teams at Tajikistan, in Yemen and in Columbia, and soon to have 
them in Saudi Arabia and in Chad. We have a Marines Special 
Operations company that is offloading on the 3rd of February 
from Djibouti and will join our fellow Special Operational 
Forces in Afghanistan in the fight in Afghanistan.
    Last, I would tell you that I look forward to your 
questions, and please come down and see your marines, sailors 
and civilians in Camp Lejeune. We would really appreciate that.
    Thank you.
    Mr. Smith. We appreciate the invitation and will take you 
up on it. Thank you very much.
    [The prepared statement of General Hejlik can be found in 
the Appendix on page 93.]
    Mr. Smith. Last we have General Wooley.

 STATEMENT OF LT. GEN. MICHAEL W. WOOLEY, COMMANDER, AIR FORCE 
           SPECIAL OPERATIONS COMMAND, U.S. AIR FORCE

    General Wooley. Thank you, Mr. Chairman, Congressman 
Thornberry, and other distinguished members of the committee. 
It is an honor for me as well to appear before this committee 
today representing my airmen and Air Force Special Operations 
Command.
    As you know, as the Air Force Special Operations Command 
(AFSOC) Commander, my primary responsibility is to provide 
General Brown and SOCOM with this specialized airpower required 
to execute SOCOM's mission. As airmen, we bring our Air Force 
core values, our heritage and service capabilities to join my 
fellow soldiers, sailors and Marines in forming a truly awesome 
Joint Special Operations capability for this great Nation.
    I believe AFSOC is a force unlike any other. We are very 
small in numbers. We have always been transformational. We 
always seek the edge in personnel training and readiness, 
tactics and equipage of our force in order to prevail in any 
conflict. We believe the maturity of our Air Commandos and 
their high levels of training have been directly responsible 
for our success on the battlefield.
    Recently we have been engaged in providing fire support, 
mobility and air control for Joint Special Operations teams 
engaged in this global war. The addition of our Predator 
unmanned aerial systems and the companion intelligence 
processing and dissemination capability has provided the field 
commanders with time-critical information to make effective 
battlefield decisions. I am proud to say that our AFSOC airmen 
are operating the Predator and those intelligence pieces that 
are enabling special operators to view data from a Special 
Operations perspective.
    Not only are we fully engaged in hunting down the Nation's 
vilest enemies, but we are also engaged in assisting friendly 
foreign air forces in developing their own internal capability 
to fight terrorism. We know that AFSOC is in high demand, yet 
our forces cannot be mass produced. We incorporate that 
philosophy when devising the best ways to apply that force in 
the future.
    I too would like to thank this committee for the things 
that you have done for us in the past, the things that you will 
continue to do for us, and I look forward to answering your 
questions. I am honored to be here today before this committee. 
Thank you very much.
    [The prepared statement of General Wooley can be found in 
the Appendix on page 98.]
    Mr. Smith. Thank you all. I have quite a few questions. I 
will ask some of them, and then move on to my colleagues and 
catch them at the end.
    Beginning with the training component, we all agree that 
basically you all are going to be asked to do a lot more in the 
years ahead, try to bring more Special Operations Forces on 
line, ready to go, do a divergent number of missions, and there 
are all kinds of layers of challenge there in terms of can you 
recruit the people, do you have the trainers, do you have the 
facilities to train, are you able to do, as General Brown was 
talking about, some of the special, okay, we are sending this 
particular group to this part of the world so we are going to 
take three months and train them in this language and culture. 
So there is a wide range of different pieces of that.
    I would like all of you to sort of let me know, tell the 
committee what are the greatest challenges. What do you think 
are going to be the biggest difficult hurdles to overcome to 
get to those numbers in general?
    Then specifically I have specific questions for the Army, 
Navy and Marines. Sorry, I didn't come up with one for the Air 
Force. I am new at this. I will work on that.
    But in the Army piece, there have been allegations, 
concerns, that in order to get those numbers up, you made the 
training slightly easier or given more opportunities for people 
to meet the levels. Just anecdotally, I have heard this. 
General Brown answered the question, but General Wagner, I 
would like to have you answer on that as well.
    On the Navy piece, concerns about language skills, the 
language skill requirements are not as high in the Navy.
    On the Marines piece, since you are relatively new at this, 
and we had the opportunity to talk a little bit before the 
hearing, but I am curious; seeing as how Camp Lejeune is so 
close to Fort Bragg, are there plans to coordinate and 
cooperate with the Army to take advantage of the training 
facilities that they have at Fort Bragg as you train your 
marines?
    That is a complicated, multipart question, but I figured I 
would throw it out there to get it started. So both the 
specific questions I asked, but also the general piece for each 
of you, what is going to be the toughest part of getting this 
done?
    General Wagner. Sir, thank you very much. From our 
standpoint, the transformation within our school is a major 
success and we have made a lot of changes. We did a number of 
things that I would say were business practice changes. They 
introduced efficiency without in any other way impacting cost 
or performance.
    We introduced the language training at the very beginning 
of the course. So if I am going to train to be an engineer 
sergeant and I am going to be assigned to the 7th troop and my 
area is Southern Command (SOUTHCOM) and my language is Spanish, 
part of my engineering training is in Spanish.
    What we have been able to do is get people to go through 
the course, and, with a 98 percent pass rate first time 
through, introduce language without having to add a separate 
phase following training, which used to exist.
    So what we did simply is we told people at the beginning of 
their training what group they were going to, what their 
Military Occupational Specialty (MOS) was, as opposed to 
waiting to the end of the training. That gave us the language 
piece.
    Another thing we did is we used to teach the course four 
times a year. We teach it eight times a year. In so doing, we 
were able to use basically the same faculty, but increase the 
throughput by eliminating the space between blocks of training.
    Mr. Smith. The mere fact you are speeding up getting these 
people through doesn't mean that you are dumbing down the 
training?
    General Wagner. Asbolutely not. We did make some changes. I 
will give you an example. We deemphasized map reading. We 
increased intelligence. Does that make sense? We are teaching 
the course to be directly applicable to the soldiers who are 
going to the warfight.
    We have increased the amount of interagency participation, 
particularly with the intelligence functions. We teach the 
course now at a secret level, so we can have true integration 
of the intelligence function into the program.
    I will tell you that we have exceeded all of our recruiting 
categories for our officers and our enlisted strength to come 
to the program, so there are more than enough people that want 
to do this work.
    The other thing that is unique about my recruiting is I do 
very little recruiting from initial entry training. I am 
recruiting career professionals. I go to the active Army and 
find people who are successful sergeants or captains and we 
recruit them to come to the command. So I draw on the 
experience of the active Army force, which is increasing 
phenomenally, as you know, and we recruit those people.
    The other point that is important to me is while most units 
have a large number of junior soldiers and a small number of 
senior people, our command goes the other way around. The 
junior people don't exist. There are senior people. So I have 
to not only recruit them, but I have to retain them. So to me 
recruiting and retention are hand in hand, because I have to 
retain those senior people.
    That is the heart of our strength, is in that senior team. 
In that 12-man team, for example, that has a captain, a warrant 
officer and senior non-commissioned officers, we have as much 
leadership there as in a conventional infantry company. So 
retention is key and recruiting is very strong and we are 
meeting all those goals.
    So I think you should be very, very confident and feel very 
good about what is happening within that transformation. I 
could take it to the other courses as well, but that is an 
example. Perhaps that is enough at this point, sir.
    Mr. Smith. Thank you very much.
    Admiral Maquire. Chairman Smith, there are many facets to 
the training. I have got a great deal of time I spend with my 
forces on the advance, and we really have no significant issues 
to report to you on that.
    My greatest challenge in Naval Special Warfare is with my 
basic training, my Basic Underwater Demolition SEAL (BUD/S) 
training in order to achieve the correct number of students in 
the door with the proper throughput out the door to fill the 
requirements from the Quadrennial Defense Review and the 
program as far as the number of SEALs.
    So, with that, in the last two years, working with General 
Brown's leadership and the Chief of Naval Operations, we have 
been able to apply the focus to prioritizing SEAL recruiting 
within the United States Navy and changing the way we are doing 
business within the United States Navy in order to bring young 
people into Naval Special Warfare.
    Last year, in 2006, I had a demand signal for over 1,000 
students, recruits, to come to our basic training, and we 
achieved roughly somewhere over 600 enlisted men in the door 
with a throughput of about 120-plus, which was significantly 
short. Giving that feedback to the Chief of Navy Personnel and 
to the Chief of Naval Operations, we have, as I said, changed 
the way we did business in recruiting, which I won't go into 
too much.
    But the results are this year, the fourth month of the 
fiscal year, I have a requirement for 1,400 men in the door. As 
of this week, the Recruiting Command has signed contracts for 
1,200 of the 1,400, which is a significant improvement. So I 
feel confident we will be able to get the proper number of 
students in the door.
    In addition to that, I had changed my basic program and 
done away with my winter class, because that was my highest 
attrition class. But as a result of the work that recruiting 
command has done and the throughput, I had a backlog of young 
men to start training.
    So based on my experience, I didn't want them to lose their 
motivation; I reinstituted my winter class and this week I have 
class 263 going through hell week. And as of today, just coming 
in to testify for the subcommittee, I still have 67 young 
candidates left on Wednesday of hell week.
    Now, they have got until Friday to complete the 120-hour 
program, but based on my experience as a SEAL and also as the 
former commanding officer of the Center, nobody is going to 
quit after going this far on Wednesday.
    Mr. Smith. After this long, you are going to stick out the 
last two days.
    Admiral Maquire. So we will finish up with about 65 of 
these guys, because of some illness. The other two will be 
rolled back. But if you complete hell week, then you have a 95 
percent chance of receiving it all the way through to receiving 
your Trident.
    Based on these numbers, and this is just a snapshot, but 
even in southern California it gets pretty cold, we will have 
60 of these men finish. Roughly, being conservative, let's just 
say only 50 of them make it to their Trident, and I have five 
classes a year this year, so right now, it is looking pretty 
good to growing the force.
    So that is my greatest challenge right now, and changing 
the way we are doing business, because we have a different 
battlefield. My Basic Underwater Demolition SEAL training is 
pretty much the same program as started in World War II. The 
battlefield in the 21st century and the irregular war we are in 
right now requires a different type of warrior.
    But yet we are the maritime component of the United States 
Special Operations Command, so I also need to make sure that I 
am doing that part for the Nation. Because if I am not 
preparing the young force to conduct maritime operations, 
Special Operations in a maritime environment, then nobody else 
is doing that as well.
    So my greatest challenge is to get the throughput in. I 
think that the United States Navy and General Brown have done a 
great deal to do that. I am confident that my community can 
increase this, and I have also hired industry to work within 
the United States Navy to do some stuff.
    So as far as the language training is concerned, it is 
somewhat of a challenge for us, because we are primarily a 
strategic reconnaissance and direct action force. Today, I am 
involved in combat operations, well, my men are, in Iraq and 
Afghanistan. We are also throughout--we are in Kenya, we are in 
Chad, we are in Nigeria and throughout the globe, in the 
southern Philippines as well.
    So with a small force of 1,771 enlisted men and roughly 450 
officers, it is difficult to key on the language and then have 
that individual be focused on that country with the language 
requirements and the cultural awareness with worldwide 
commitments.
    So we do have language requirements and I do have a number 
of my force who have achieved a level on that, but I do not 
have the level of language capability that is resonant in the 
United States Special Operations Command.
    Mr. Smith. You have a different mission, so that is 
understandable.
    Admiral Maquire. Yes, sir.
    Mr. Smith. General.
    General Hejlik. Sir, thank you very much for your question. 
It is a two-part question. The first one is on the training.
    First of all, we recruit within the Marine Corps, so we 
don't have the real young marine, the 18, the 19-year-old for 
the most part. There are two mission sets in MARSOC. One is the 
indirect phase, which the foreign military training unit does, 
and the other one is the direct action, which the Marine 
Special Operations companies do.
    If you are a four military training unit indirect recruit, 
you are a combat veteran and you have anywhere from four to six 
years in the Marine Corps. A little younger force.
    Their requirement is for zero-plus, zero-plus for language 
capability. They go through a 25-week training package. We have 
patterned some of that from General Wagner's Special Warfare 
School, taking some of their program in destruction and adapted 
it to what we need in the indirect approach on the battlefield.
    For the Marines Special Operations companies, we have 
gotten tremendous support from General Wooley down at Hulbert 
Field. We have had our people working down there with AC-130 
gunships, with the CV-22 and with our own V-22 in the Marines, 
with Admiral Maquire's folks down at Norfolk and at Coronado--
because I am split, my forces are at Camp Pendleton and at Camp 
Lejeune--and with General Wagner through the Schoolhouse. A 
great example of through the Schoolhouse, we have doubled the 
number of corpsmen or medics that we put through this 
Schoolhouse from 16 to 32. So the training coordination and 
interrogation is there throughout the components.
    If you look at my biggest challenge, sir, when it comes to 
training, it is what we call our high-demand, low-density MOS's 
or skill sets, that is our Intel capability and that is some of 
our communicators. You have to be in the Marine Corps, for most 
of our Intel capability, you have to be a sergeant with 
anywhere from four to six years. Our school throughput is very 
small.
    So that is our challenge. It will take us until about 
fiscal year 2010 to make sure we are up to that skill set. The 
interrogation is there, the cooperation is there, and we are 
using all of the facilities throughout the components.
    Mr. Smith. Thank you.
    General Wooley. Mr. Chairman, I would like to kind of come 
at this from two different perspectives.
    As you know, we have a ground force with similar recruiting 
needs and a pipeline to train them with. The Air Force has been 
very cognizant of the issue with finding those new recruits, 
and we have specialized recruiters that go out, for example, to 
extreme sporting events to use as a recruiting base for us. It 
is a known fact----
    Mr. Smith. You are watching the X games on television and 
go, that is the guy we want.
    General Wooley. In a sense we are, because we need that 
physical ability, the stamina, the mental facilities, if will 
you, to do that. We, too, have reengineered our training 
pipeline. We have come down from about 2 years, down to just 
over 12 months to get them through our advanced skills 
training, which is a very concentrated course of events.
    Our battlefield airmen, as we call them in our component, 
are very highly skilled air traffic controllers. They are 
parachutists, they are underwater divers. So they are 
multidisciplined, and it is hard to recruit folks that can do 
all of those things. We are on an up-tick right now. The 
pipeline is helping us out. The concentrated recruiting is 
helping us out.
    On our air crews side, we are entering into a new phase 
where we are flying UAVs with a SOF operator. That is a 
magnificent thing for us to add to our capability. We are 
taking pilots and sensor operators from our gunships, for 
example. We are taking gunners from helicopters and training 
them to be sensor operators. But the SOF mind and the mind-set 
of those SOF operators operating those unmanned aerial vehicles 
(UAVs) is bringing a force multiplier to the battlefield. We 
are doing that mainly within our own crew force.
    One place that we go outside of our own crew force when we 
field new weapons systems, like non-standard aviation that we 
are fielding as a result of the QDR, we are asking for help 
from the Air Force, as well as internal crew members as well.
    So we have got to come at it from a couple of different 
perspectives in our ground force as well as our crew force.
    Mr. Smith. The specific question about who you allow to fly 
on the unmanned vehicles, if enlisted folks are allowed to do 
that? I heard in the Air Force there is a restriction.
    General Wooley. Yes, sir. It is a two-person crew. The 
aviator is actually a pilot, and in some cases it can be a 
navigator, but they must be Federal Aviation Administration 
(FAA) pilot qualified. And then the other position is that 
enlisted sensor operator. As I mentioned, the core that we drew 
from are the sensor operators that we already have on our 
gunships, gunners and intelligence specialists that we train to 
operate the sensors on the Predators.
    So it is a two-person crew, an aviator that actually flies 
the machine, and the sensor operator that actually flies the 
sensor.
    Mr. Smith. Picks up the data. Thank you. I thank the panel 
for their patience. Mr. Thornberry.
    Mr. Thornberry. Mr. Chairman, I yield to our colleagues and 
will save my questions to the end.
    Mr. Smith. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentleman, thank you for coming today. I am a certified 
public accountant (CPA), and periodically the profession has to 
go through an analysis of what CPAs do, particularly entry-
level CPAs, in order to set the bar for folks who can get in 
and not get in, not dissimilar to what your ``hell week'' and 
other things do. But one of the things you have to decide, and 
that----
    Mr. Smith. I'm sorry, could you pull the mike up closer? I 
can't pick you up there.
    Mr. Conaway. Sure. That mission changes over time. It was a 
whole lot easier when I did it 40 years ago. As a part of that 
10- or 12-year review, that then changes the tasks, changes the 
skill sets that young folks need.
    Collectively across your systems, do you do a similar type 
of review to make sure that--particularly, Admiral, you 
mentioned hell week looks like it did following World War II, 
but yet we have a different fight today--to make sure that 
wherever you set the bar, and I am not saying to lower the bar 
or raise the bar, but wherever you decide you set the bar, that 
that is in fact an appropriate current bar for whatever it is 
we are going to pass these wonderful young men, and perhaps 
some women, to do?
    Can you speak to me about how you come to the conclusion 
you still have the right test as across the system?
    General Wagner. Would you like me to answer that first?
    Mr. Conaway. All four of you, sir.
    General Wagner. I truly do appreciate your question, 
because a standard can both help you and hurt you. If you are 
not careful, you can eliminate somebody who had great talent 
but didn't quite look like the profile you thought was 
appropriate. So we do continuously review our criteria.
    The good news, I think because we have been running our 
programs as long as we have, we have a good feel for what 
``average'' looks like and a place to see how to go above or 
below that, where we need to make our changes. I think as I 
mentioned in the Special Forces qualifications course, that 
causes us to eliminate from the program emphasis on one area 
and place more of it on another area.
    I will tell you that we place a lot of the emphasis too on 
psychological analysis, on people being interviewed to make 
sure we are bringing in people that have the characters, the 
values and the moral strength to be part of the team, because 
in essence we rely on mature people with good judgment, because 
we oftentimes put them into very undefined situations, which is 
the heart of how we use the Special Operations Force. As 
opposed to giving them details, do this, this, and do this, you 
give them intent and mission guidance. So the character of the 
person and their moral courage is a key part of that. Many of 
the other skills we can train them over time if they are a 
little weak in one area.
    I think we can tell you that we feel very confident that we 
do continuously review them.
    As we look to the number of people we need to bring in and 
the categories, every year we take a 2-year backward look to 
see what is happening and we review our analysis in terms of 
where we want to place our emphasis. We have a program where we 
would bring in a number of initial entry personnel. We start 
with 400. We went to 1,000. We went to 1,500. We are down to 
900. We looked at where we think that balance will be, because 
we were new into the program so we had to establish a water 
level to see how those people will perform.
    Then a key part of all of it for us is how will those 
people be retained, because we cannot invest in people who will 
stay with us two or three or four years. We need the people to 
advance through our senior ranks to run the organization.
    So your point is very important to us and I do think we 
give it a tremendous amount of emphasis. We have trained 
professionals, civilians as well as military, who help us look 
at our standards and our criteria.
    Thank you, sir.
    Admiral Maquire. Although we may conduct hell week pretty 
similar to the way we did it back in World War II, certainly 
the quality of the standard of the individual is far greater 
than it was in the past. I feel quite confident, sitting here 
as the Commander of Naval Special Warfare, that had I applied 
today with my previous record, that I would not be accepted 
into Naval Special Warfare.
    That said, our basic program is a course. It is a 
curriculum. It is Basic Underwater Demolition SEAL training, 
which is a ``26 curriculum'' under the Chief of Naval Education 
and Training.
    Mr. Conaway. Twenty-six weeks?
    Admiral Maquire. It is what the basic course is. It is a 
26-week curriculum, and each hour is just broken down into 
different blocks of instruction, different blocks of training, 
just like any other curriculum would be. So it is a 
schoolhouse. As such, any curriculum undergoes continuous 
review.
    As the commander, I have had delegated from the Chief of 
Naval Education and Training the curriculum control authority 
for the basic course. So we are continuously improving it, and 
no matter what you put on paper, it is one thing.
    I would think though, sir, it is the quality of the 
instructors that makes the program what it is today. I was most 
fortunate when I went through to have all Vietnam combat 
veterans. Today the young men who go through our basic program 
have the privilege of being put through training from some 
SEALs that have got three--and some actually have seven combat 
tours.
    So as far as the academic environment and the curriculum, 
it is something we do take very seriously and we continuously 
review.
    General Hejlik. Sir, thank you. That is a great question 
for us, because one of the things we really wrestled with up 
front is what do we want the MARSOC Marine and sailor to look 
like? What attributes does he or she have to have?
    One of the things we really tried to get away from, the 
core of the MARSOC, the Marine Special Operation Company, is 
the Force Reconnaissance Marine. He has about 11 to 15 years in 
the Marine Corps. He is an E-5, E-6, E-7. The standing joke in 
the Marine Corps had always been, to get into Force 
Reconnaissance you have to put an 80-pound rucksack on your 
back, swim the Mississippi twice, longways. That was a standing 
joke.
    We did not want that in a MARSOC Marine, standing joke or 
not. So what we look for is a Marine who is mentally tough, 
physically tough and morally tough, because that Marine has to 
stand alone and he is a strategic asset when he is out there in 
Chad, Yemen or wherever he happens to be. So, again, does he 
have the attitude, does he have the aptitude, can we take him 
to a higher level?
    If you are an Foreign Military Training Unit (FMTU) marine, 
it is a 25-week training package. If you are an MARSOC Marine, 
it is an 18-month training package. And it is tough. We haven't 
lowered our standards. But, again, we start with that basic 
mental, physical and moral toughness.
    Mr. Conaway. Thank you. General.
    General Wooley. Sir, we too have the same high standards as 
the other components. It had been a while when I arrived since 
we had gone through and reviewed those standards and our 
pipeline. We reengineered our training pipeline for our combat 
controller battlefield airmen last year. We are currently going 
through our pararescuemen training pipeline as we speak. So we 
are doing just what you talked about. It had been a while. We 
needed to do it, and we are about halfway done.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Mrs. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    Well, first of all, welcome to all of you. Admiral Maquire, 
I think I met you probably close to two years ago. I remember 
at that time we talked about the time you spend in the air 
between the West Coast and the East Coast, and I certainly 
think that is difficult. I know a lot of my fellow Members of 
Congress do the same thing. But I wondered, since that time----
    Mr. Smith. For the record, I for one don't mind the plane 
trip. The West Coast is worth it. I just wanted to make that 
known.
    Mrs. Drake. I won't talk about my drive. But, anyway, the 
Marines Special Operations Command has left Navy Special 
Warfare, so you are the only component command on the West 
Coast. You know I have been very supportive of your command 
moving to the East Coast, because I truly believe that would 
benefit the Special Operations Forces community.
    Can you comment on the status of that project or where we 
are with that now, or is it still up in the air?
    Admiral Maquire. Well, Congresswoman Drake, I would be 
happy to him comment on that. There have been some other 
factors that have mitigated that as well that I would like to 
share, inasmuch as now they are charging for a bottle of water 
onboard planes, and I think it is just a matter of time until 
you have to start trading frequent flier miles to use the 
lavatory. I think that the move to the East Coast is looking 
like something that needs to be done.
    I spend over half my time on travel, and most of it to the 
East Coast corridor. Obviously, the Navy Command is here, my 
boss, General Brown in Tampa, as well as the other component 
commanders. So programmatically, the United States Special 
Operations Command has placed about $60 million into the 2008 
program that is still working its way through the Department of 
Defense, and we are conducting site surveys in the Virginia 
Beach area for the possible headquarters location, if that is 
approved. I believe that we have also even started on the 
environmental impact on that.
    So I think that it looks like it is probably very likely to 
take place, and I would envision that if it is approved in the 
2008, we will start the money flowing there in fiscal year 2008 
and probably a move to the East Coast in the 10/11 time frame, 
ma'am.
    Mrs. Drake. Thank you for that. The question I have for all 
of you, because I know our troops that are serving overseas in 
Iraq or Afghanistan are typically four months to a year, based 
on the branch of service, how long they rotate in and out of 
there.
    For Special Operation Forces, can you comment on what is 
the amount of time they typically are deployed into theater?
    General Wagner. Yes, Congresswoman. Good to see you again.
    I think there is a couple of things that I would look at. 
Oftentimes you talk about tempo, which is how long people are 
gone. But I have come to believe that what is even more 
important than that is the pace and tempo of what they are 
doing while they are gone, because different forces are doing 
different things. So while I used to think there should be a 
standard, I think that was shortsighted, and the reality is we 
have to make sure we understand what we are asking the 
soldiers, sailors, airmen and Marines to do so they can stay at 
the operational peak that is required.
    For example, with our Rangers, who are hitting multiple 
targets at night, direct action missions, high intensity night 
operations, we are rotating them at a shorter duration than we 
are with the Special Forces, who we want to go in and build 
rapport and relationships and help create an environment.
    So our rotations go between 90 days to 7 months, and we 
think that is fair. The reason I think it is fair is because we 
are training the soldiers. They go back again, again and again. 
And I will tell you, when they come back, what they are doing 
is preparing to go back again. For the most part, a lot of our 
forces are there 50/50 time, or one-third of the time. That is 
how the bulk of our forces are rotating.
    Of course, in addition to that, they are doing the other 
deployments, the other Joint Security Assistant Training 
(JSATs), the 70 joint exercises for training that we do. So it 
is a very busy pace, but we do feel it is proper to balance it 
toward the intensity of their level of effort, don't burn them 
out in a short period of time, and let them do that. We are 
fighting a long war, so we each have a schedule that we think 
we can sustain for time.
    Mrs. Drake. Thank you. Admiral Maquire.
    Admiral Maquire. Echoing General Wagner's statement, 
though, it is really kind of diverse. I have SEALs and I have 
Special Warfare Combat-craft Crewman (SWCC) and then I have 
SEALs Special Mission Unit. But as far as the boat teams, the 
Special Warfare Combatant Craft Crewmen, I have the river boats 
deployed in the Euphrates, so right now they are only a small 
unit under Mr. Taylor's district there in Stennis, Mississippi, 
that had been deployed there for about the last eight months on 
a rotational basis.
    My other boat teams are rotating throughout the world, to 
Europe, down in the Philippines and into Central Command, on a 
one-in-four rotation. My SEAL, teams, right now I have them 
back into a one-in-four rotation, which means that they have 
six months forward deployed in the combat zone and 18 months 
out of the combat zone.
    That does not necessarily mean that they are home every 
night. So when they return, the way we have the situation set 
up, is that the individual level training for the first six 
months back, that is when the young SEAL will go off and do 
their language training, their advanced medical training and 
the individual skills that advance them personally. Then we 
have six months' unit level training where they form up in a 
SEAL platoon and work together as a group. And then the final 
six months prior to deployment is squadron integration 
training, where the SEAL team commanding officer steps up and 
becomes a squadron commander, brings in the SEAL Delivery 
Vehicle (SDV) teams, the boats, the cryptologic technicians and 
all of the enablers and work within the next six months as a 
team prior to deploying.
    So roughly in the 18 months back, or 18 months out of 
combat zone, they are roughly away from home I would say 
probably about 11 to 12 months of that time.
    Mrs. Drake. Thank you. General.
    General Hejlik. Thank you, ma'am, very much. I may have 
misunderstood in the last question you had with Special Forces 
on the West Coast, we have a battalion at Camp Pendleton that 
is neighbors down with Maquire's folks. So there is a Marine 
Special Operations battalion at Camp Pendleton.
    Mrs. Drake. Right, but your command is at Camp Lejeune.
    General Hejlik. My headquarters is at Camp Lejeune, that is 
correct. So I fly back and forth all the time. And I don't 
enjoy it.
    For our dwell time, ma'am, a great question for us, we do 
one-to-one dwell time. We are trying to do one-to-one. If you 
are a Marine Special Operations company, you will be deployed 
for 7 months. When you return, you will have basically 18 
months back at the home station.
    Like Admiral Maquire and the rest of the components, that 
is not time necessarily at home. Bring them back up to 
standards and make sure they get their proper professional 
military education, that they are still qualified in their 
military free-fall, their dive, all those other functions.
    With the foreign military training teams, the dwell time 
again is one-to-one. They will be deployed anywhere from 60 to 
120 days. After that 120 days, they are eligible to deploy 
again. The team that we have right now in Yemen was in Chad in 
November, and they just redeployed into Yemen. The team that we 
had in Colombia back in October is back in Colombia. But, 
again, we are trying very hard to stay to that one-to-one dwell 
time. For every day you are deployed, that equal amount of time 
back in CONUS. Not necessarily at home. Thank you.
    Mrs. Drake. General.
    General Wooley. Yes, ma'am. Again, two parts to my answer. 
Our ground force mirrors the operational tempo (OPTEMPO) that 
General Wagner talked about, because we attach our combat 
controllers and pararescuemen to those teams out in the field 
to integrate the air and the ground piece.
    Let me say that any airplane flying with weapons is able to 
support a ground team in a troops-in-contact or particular 
mission because of their air traffic control skills and their 
air attack skills, if you will. They can call in F-16s, they 
can call in B-52, they can call in our own AC-130 airplanes for 
air support. So our attachment to those teams out in the field, 
our battlefield airmen, mirror what General Wagner just 
explained to you.
    On the air crew side, it is different for each airplane. 
What we don't want to get ourselves into a situation of doing 
is concentrating in just one particular area of our warfighting 
skills on the aviation side. Iraq and Afghanistan bring a 
different set of requirements than you would find, say, out in 
the Pacific.
    What I don't want to do is atrophy, so I rotate my crews 
through the airplanes that are stationed there. And depending 
on the type of airplane it is, whether it is an MC-130, MH-53 
helicopter or the AC-130, between 90 days and 120 days are the 
typical deployments for our air crews. Then we bring them back 
for their leave, their retraining, getting specialized training 
in those skills that they haven't been able to practice in Iraq 
and Afghanistan, so that they remain worldwide deployable.
    So our problem is just a little bit different, but the 
OPTEMPO is about the same. We don't have anybody that is 
exceeding the one-to-one dwell time. So we are doing okay.
    Mrs. Drake. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Smith. Mr. Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman.
    Thank you, gentleman. This is a little challenging. I would 
like to thank you all for coming. As I told you in the lobby, 
the reason I asked to be on this committee was because I want 
to help you complete your missions and keep Americans safe. 
This may be to the Rear Admiral, all you have to do is watch 
one episode on Discovery of the BUD/S training and you realize 
how bad of shape guys my age are in.
    This may be the quickest question, and you may not be able 
to answer this, but I was intrigued. We talked a lot about 
training. General Hejlik, a comment you made in there, does it 
fall under any of your bailiwicks, on the training we are 
doing, and I am referring to page four, the Foreign Military 
Training Unit, where you are responsible and/or oversee the 
training of the trainers in theater, especially the Iraqi 
military. And, if so, then I guess I would like some kind of 
response on what you are getting back and how tough that is on 
our trainers, to train them in theater when things are going. 
It is one thing when you are over here and things are safe on 
our ground, and when bombs are exploding and bullets are flying 
by.
    Then I think it was General Wagner that said the will to 
help those who have the will to help themselves. I guess that 
is my question, is what are we hearing back on that training, 
the Iraqis' will, their fortitude, their aptitude to pick up. I 
have 100 percent confidence in our troops and what you are 
doing with our troops. I would like to get a feel for how they 
are adapting to our training methods.
    I know I have kind of covered a gambit there, but if 
anybody or one or all can comment on that, what kind of vibes 
you are getting back?
    General Wagner. I will give you some comments first, sir. 
To me, that is an ideal Special Forces SOF mission, and all of 
our forces in the different capacities can do it and with 
different elements. For example, we have an aviation outfit, 
who would do that with aviation. And General Hejlik's forces 
and my forces could do it in a similar area with the ground 
force, and Admiral Maquire's could do it in a different 
environment.
    So the real question gets down to when you are teaching the 
forces of another nation, where do you apply what force?
    In my case, with the Special Operations Forces, they 
started training the Iraqi Special Forces. So you start with a 
unit that doesn't exist. You recognize the need and you go 
through a recruiting effort to find people. You then vet those 
people and then you put them through a training program. In 
some cases we did that in Iraq, and others we took out of 
country to train them.
    Then you build the unit. Then you start to take them 
through. After you do the individual training, you do small 
unit training. Then you let them go with you on a mission. Then 
they participate in a mission. Then you step back and let them 
do the mission. And, before long, they are doing the mission 
and you are watching them from a distance.
    That is what is happening. I think General Brown made a 
comment to you about the effectiveness of how that is 
happening. In fact, we have the most effective units in the 
theater that have been trained under that program and are doing 
an absolutely wonderful job.
    So that is kind of the ideal, and that is the goal of a SOF 
operator, is to have that opportunity to create that, because 
what we are trying to do is build capacity, build the capacity 
of the Nation to do the job themselves.
    Now, while we can do that with Special Operations Forces 
and it becomes a priority--you should prioritize our forces 
against special mission units in the country--conventional 
forces have to do the same thing. They are training infantry 
battalions and the infantry brigades, because it is more of a 
capacity than we can do ourselves. So it becomes a priority, 
where you prioritize your Special Mission Units against that 
special capability you are trying to develop in the nation.
    So I can tell you that it is happening. It is happening 
around the world. It is happening in the Philippines. It is 
happening all around the world. It is a little bit more visible 
perhaps right now in Iraq.
    Mr. Ellsworth. And the will, the fortitude and the will is 
there?
    General Wagner. Absolutely. We are very proud of the 
people. Then you see the missions they are conducting. What you 
do when you build a special unit like that, it brings the local 
leadership, the civilian leadership to the field to see these 
people, and then they start to get resources because they 
realize how capable a unit like that can be.
    So it goes far beyond just you trained a unit. It makes a 
mark on how they try to bring that professionalism to the rest 
of their force. It is a nation-builder,
    Mr. Ellsworth. Thank you.
    General Wooley. Sir, if I could jump in there and add the 
aviation piece. One of the things we got in the QDR was 
capacity doubling, if you will, in our aviation, foreign 
internal defense capability, which we are very excited about.
    We are training those folks right now. We have got a 
pipeline set up. As we drawdown our Image 53 Fleet, we are 
taking those already trained SOF aviators and maintainers and 
bringing them into this new unit that we are building to go out 
and work with other countries' aviation assets. Not teaching 
them how to fly the basic airplane, because they already know 
that, but taking them to the next level, if you will, giving 
them the skills that we want them to excel in, night vision 
goggle flying, for example.
    So we are pretty excited about that capability, and one 
that you all have been very supportive of and the Department at 
large has been very supportive of. So we thank you for that.
    Mr. Ellsworth. Thank you. I yield back.
    General Hejlik. Sir, I don't have teams in Iraq. I have 
teams in Chad, basically Africa. And your question is, what do 
we get out of it? That is a great question.
    First of all, the teams that we trained in Chad were the 
same two battalions that pushed the forces back in East Chad on 
the border. That in itself, to bring that force up to that 
level, was absolutely amazing.
    What we get out of it is language skills. You watch those 
young marines go in there with basic French, basic Arabic. They 
come out of there at 1-1 out of a 2-2. So we get that out of 
it. We get retention out of it, because those young marines go 
in there and they go, wow, this is exactly what I signed up to 
do.
    So it is tough to deploy a lot, but that country, we build 
the capacity in that country so they don't have to go back when 
we are in phase four or active combat operations, and we get 
retention out of it and get language skill sets out of it.
    Mr. Ellsworth. I didn't want you to misunderstand. It is 
just what feelings you are getting about those people we are 
going over and training. Are you getting feelings they are 
receptive and/or have the same--or at least a percentage of the 
will--that our troops do, because I know that is a high level.
    Mr. Smith. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Gentleman, good to see 
you all again.
    General Wagner, a trip or two ago when I was in Iraq, I was 
looking at the training of the Iraqi counterterrorism forces. I 
know we have changed the names and the organization a little 
bit. But fundamentally, your forces, in particular the Green 
Berets, were doing the training of those Iraqi forces. I 
understand from our subsequent conversations that the Iraqis 
are now doing most of their own training, or a significant part 
of it. Is that correct?
    General Wagner. Yes. That is, of course, again one of the 
objectives, is to train them to that level where they can do 
it; yes, sir.
    Mr. Kline. But we still have some Green Berets involved in 
supervising and so forth?
    General Wagner. Participating with them, yes, sir.
    Mr. Kline. Great. Thank you. I just was very, very 
impressed with their capabilities when I was over there, and I 
gather again from subsequent discussions that you are pretty 
pleased with their progress as well and their ability to do the 
job and to do most of their own training.
    General Wagner. Yes, sir.
    Mr. Kline. General Hejlik, I got to talk to the Marines. 
Just a couple of quick things. When MARSOC was stood up, there 
was no end strength/force structure to accommodate that. It was 
taken out of hide. With the new addition of new Marines and the 
end strength of the Marines Corps, is MARSOC now whole in that 
regard? Or perhaps looking at it another way, is the Marine 
Corps now whole? Are the Marines part of MARSOC now 
accommodated?
    General Hejlik. They are, sir. As you well know, 2,600 came 
right out of the end strength of the Marine Corps. There is 
also 191 sailors in there, which are basically corpsmen and 
doctors, and there are two Army veterinarians in there, because 
we have dogs or will have dogs for that capability. But with 
the plus-up of the Marine Corps for that 20,000, 22,000, it 
will take about 5 years to recruit that.
    But, Representative Kline, I think the important thing to 
understand is when we took those 2,600 marines, 1,300 of which 
we have on deck right now, we took basically all of the Marine 
Corps' force reconnaissance capability.
    Mr. Kline. That was my next question. Do we still have a 
force reconnaissance capability in the regular Marine Corps, or 
are they now your Marine Special Operations companies?
    General Hejlik. What we did, sir, each force reconnaissance 
company had seven platoons. Two platoons stayed with the Marine 
Expeditionary Force, one east and one west. So they still have 
that capability.
    The other thing that the war has done for both force 
reconnaissance battalion that belongs to the division and force 
reconnaissance that belongs to the Marine Expeditionary Forces 
(MEF), their capabilities gap has really shrunk. So they still 
have that capability in the Marines. What we took from the 
Marine Corps is really that more experienced Marine.
    Mr. Kline. I assumed that is what happened when we set up 
MARSOC, is that Force Recon would take the hit. I would hope 
that with the plus-up in end strength of the Marine Corps, that 
the Marine Corps, not MARSOC, but the Marine Corps can go back 
and do some of that repair work, or, as you are suggesting or 
perhaps I am hearing, that the recon Marines who are not Force 
Recon but in the regiments will improve.
    Let me ask that question then. How would you compare the 
Marines in your Marines Special Operations Company to the Force 
Recon Marines of three years ago before there was a MARSOC? Are 
they the same, a little below, twice as good? Just ballpark for 
me. Come on, you can do it.
    General Hejlik. The Marines in the Marine Special 
Operations Company get in the Corps as the Force Reconnaissance 
Marine. So if you look at the capability of the MARSOC today 
and looked at the capability of the Force Reconnaissance 
platoon three years ago, the standard is quite a bit higher. 
The difference is this: They shoot probably five times as much. 
But the other part is, you can teach any Marine to shoot, any 
good soldier, any good sailor, any good airman. Give them 
enough ammunition and give them enough time, they can shoot.
    Mr. Kline. Apparently even you and I.
    General Hejlik. Well, at least you can, sir. I don't know 
about myself. But the other side of that is where we really get 
to that SOF standard is working with General Wagner's folks at 
Fort Bragg and at Fort Campbell and Fort Lewis, Washington, 
working with Admiral Maquire's folks at Coronado and down at 
Norfolk, and working with General Wooley's folks at Holbrook 
Field.
    That is the difference, because they are very well 
qualified in the AC-130, working with the different type 
aircraft. All our air controllers are JTAC, Joint Tactical Air 
Controls, they are all qualified that way. And they have the 
enabler, that high demand, low density. That is also a bit 
different. They carry their own Intel assets with them. That is 
about 14 Marines.
    Mr. Kline. Okay. I am looking forward to the opportunity to 
come down and visit.
    Mr. Chairman, I yield back.
    Mr. Smith. Thank you very much.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General Wagner, you mentioned a couple of phrases which I 
wrote down a while ago. When talking about people you talked 
about the unique blend of skills that was required and mature 
people with good judgment, particularly in thinking about those 
Special Forces involved in indirect action. I guess I want to 
ask how do we keep such people. We talked a lot today about how 
we get them and how we train them, but if you could do one 
thing that you can't do currently to retain folks who have 
worked their way through and have developed these skills and 
this judgment, what would that be?
    I will just throw out one example. This committee last year 
heard testimony that we need to expand the number of E-8 or E-9 
slots to make it easier to keep people who have worked their 
way through the ranks. But without limiting to that, what one 
thing that we are not doing now could we, should we do or look 
at in order to retain the folks that develop that judgment and 
skills that you talked about?
    General Wagner. Congressman, I say we can't afford to break 
our system because I can't fix it. Because I have senior 
people, you have to build them over time, and if I lose them, I 
can't replace them. I can only bring in junior people and wait 
over time to grow them. So I cannot afford to break the senior 
structure that I have because I can't fix it on my watch. So we 
watch that very carefully and ask why do these people stay. It 
is a very good question because most of them could easily earn 
more money somewhere else. They are highly motivated, they have 
got great initiative, and they are problem solvers. So they are 
people that could be easily attracted for employment somewhere 
else.
    The heart of it is they have to believe in what they are 
doing, they have to believe the team they are part of, and they 
have to think that we care about what they are doing and it has 
to be an honest caring. I think some of the initiatives, 
incentives and bonus payments that we give them, it is not the 
money that keeps them there, it is believing that we care and 
knowing that we are going a little bit of an extra step to 
thank them because we know that nobody else in the world can do 
what they are doing and that their job is absolutely critical.
    So I think how we take care of our soldiers and their 
families. When we say we recruit the soldier but we retain a 
family, we must continue to care for these people as we would 
want to be cared for while they are doing this serious work for 
us.
    So we continue to look at our incentive programs, we look 
at the amount of time we have them deployed. They see that we 
are trying to grow the force. They realize if we grow the force 
it will help them with the tempo. I think they stay with us 
because they trust in what we are doing and believe in what 
they are doing. If we break faith with them we will have made a 
serious mistake. For example, if we are giving an incentive, a 
bonus, and we take the money away and ask them to do the same 
work, than what have we told them? We have now told them, hey, 
it's not that important anymore. And that would be unfair.
    And so the sergeant majors do a wonderful job of looking at 
the rank structure and been giving a fair amount of latitude 
with the Army to increase range structure where we need to do 
it, but personnel system is a total throughput and the 
retention part is absolutely the most key to us because if we 
can't retain those people we are in trouble.
    So I do think honestly it is about truly caring about the 
people and recognizing how important they are to us, the 
soldiers and their families. And I think that is true for the 
other services, but that is my view. Thank you.
    Mr. Thornberry. Anybody else have a suggestion on something 
we could do that is currently not being done to help retain 
these people?
    General Hejlik. I think, sir, it is being done but it is 
something we are going have to pay attention to as we continue 
to go through this, and that is the care of our wounded because 
as those young Marines, sailors, soldiers, airmen come back, 
some with traumatic brain injury, TBI, that is a long-term 
effort, and if the service member knows he is going to be taken 
care of and his family is taken care of, no matter how 
seriously wounded, then they will do anything we ask them to do 
regardless of the money because they are just that patriotic.
    Taking care of our wounded I think is going to be a long-
term effort.
    Mr. Thornberry. Thank you. I do want to ask General Wooley 
about one other matter. The chairman referred earlier to the 
fact that if special operations were designing the CV-22 it 
would be designed with probably greater carrying capacity in 
some way. I would like to get your view on the program, where 
it stands now. Do you think it is on track, moving ahead and so 
forth.
    General Wooley. Yes, sir. Thank you for that question. The 
CV-22 is a wonderful airplane. I have had the opportunity to 
deliver two of the CVs, one out to Kirtland, our training unit, 
and the first operational one to Hurlburt on the 16th of 
November. The airplane, as you know since it is put together in 
your district, flies at turbo prop speed, so it is comparable 
to our C-130 fleet that we have, and then it can pull into a 
hover and land exactly where it needs to land to drop off those 
troops.
    The aircraft, as you know, was filling a niche that we 
found that we had a shortfall in after the failed Iranian 
hostage attempt at Desert 1 during Operation Eagle Claw. The 
airplane was specifically designed to do combat radius of 500 
nautical miles unrefueled and in one period of darkness, so 
that is why the speed is such an important factor.
    The airplane is performing very, very well. I often get 
questions well, what about the bad rap? There has been several 
deaths. When you take a transformational leap, particularly in 
the aviation field, I think this airplane has performed and is 
continuing to perform at or above standards.
    We don't anticipate any real difficulties bringing this 
airplane on board. We are still in the testing phase, so there 
are some things that we will continue to find out about the 
airplane. But I would invite any of the members of this 
subcommittee to come down and fly on the airplane because it 
will answer a lot of questions in your mind, and it is a 
magnificent piece of equipment, one that is truly 
transformational for us.
    If there is one thing that I could make a pitch for to this 
subcommittee and other committees is the time frame that it is 
scheduled to be delivered is almost unacceptable for us. 
Acceleration of the delivery would be most helpful to get it 
out on the battlefield in useful numbers because the first time 
we will have enough airplanes that we will be able to deploy is 
in fiscal year 2009. So anything we could do to speed up that 
initial capability for the airplane and then get all 50 of them 
sooner rather than later would be very helpful.
    But I would invite any of the members to come out and visit 
with us and explore the airplane for yourself. It is 
magnificent. One of the things that I think we did exactly 
right in building and designing this airplane, we designed it 
as a system. One of the strengths of the airplane is not the 
airplane itself, but it is in the training system that we 
bought to go with it. The FAA level D simulator capability we 
benchmarked from the airlines, and most of you may know that 
when an airline captain changes from one airplane to another, 
most often the first time he lands with people in the back of 
the airplane is on his first mission, it is not on a training 
mission in the airplane. He or she learns that in the 
simulator.
    So we have benchmarked off of them and bought the training 
systems with the fidelity and the other things that will allow 
most of the training and currency and some of the proficiency 
flying to be done in the simulators so we don't waste that 
precious airframe time. So that is one of the things that we 
did do right when we designed that airplane.
    Mr. Thornberry. Thank you. Let me say, Mr. Chairman, in 
conclusion, that I appreciate each of the witnesses being here 
and each of your service to the country and through you the 
people you lead.
    General Wagner, I hope each of them knows how much this 
committee appreciates them and their families and the sacrifice 
they make because it is certainly inspirational for us. Thank 
you, Mr. Chairman.
    Mr. Smith. Thank you, Mr. McIntyre.
    Mr. Conaway, something quickly on that subject?
    Mr. Conaway. You mentioned care of our wounded. Are there 
gaps there, do you have concerns there, or are you just making 
that as a statement that that is something we need to do? Are 
we not doing that?
    General Hejlik. It is a concern because I think it is a 
long term.
    Mr. Conaway. But you will keep us apprised--this committee, 
among all of them, including Veterans' Affairs, would come 
unwrapped if we--let me tell you a quick story. John Kelly 
tells a great story about a young Marine he was visiting at 
Bethesda, and the family was there from Montana, and the dad 
pulled Kelly aside, said I need to visit with you about 
something. So John walked out with him and said my son is 
really hurt pretty bad but he's getting great care. He said but 
I'm just a working man from Montana, I don't know how I'm going 
to pay for that care.
    Of course Kelly looked at him and said what do you mean, he 
said well, we don't have health insurance. Kelly was just 
stunned that this father thought he needed to take care of that 
son.
    So if any of you see something that Armed Services Or 
Veterans' Affairs or something is not doing in regards to 
making sure that there is a 50-year commitment to that young 
soldier who is unable to do for himself what he ought to able 
to do, you will bring that to our attention, I hope.
    General Wooley. Yes, sir, thank you.
    Mr. Smith. To follow up, I think there are some gaps. One 
of the biggest gaps right now is in mental health. And I know 
there are different pieces that are working to change that. Out 
at Ft. Lewis and Madigan they have got a program to make it 
mandatory and a whole bunch of different pieces to deal with. 
There are things beyond the basic health care. Actually, when 
we were down with General Brown in Tampa he mentioned SOF has a 
special charity that is set up, and a variety of different 
examples. One soldier was going home in a wheelchair and the 
house where he was at wasn't outfitted for that so they had 
some money set up to build what was necessary. There are some 
pieces and my initial look at it is there are things that we 
can be doing better to make sure that the wounded are taken 
care of. I think when you are talking about when they are in 
the hospital when they are getting that direct care, it is 
pretty good, but there is so many complications to the life of 
an injured soldier and his or her family that looking at that 
total piece is something we can do and it is great that these 
charities are set up. They shouldn't have to rely on that. It 
might be a good thing to look at.
    Mr. McIntyre.
    Mr. McIntyre. Thanks to each of you for the magnificent 
mission that each of you do in leading our forces who are at 
the tip of the sphere. As you know, I share Ft. Bragg with a 
couple of my colleagues here and go up near the edge of Camp 
Lejeune, so I want to ask you, General Wooley, the airlift 
capacity, do you feel like you have the necessary airlift 
capacity to help with the projected increase in the Army, in 
the Marines Special Operations Forces particularly?
    General Wooley. Sir, we are looking very closely at that. 
One of the things that is going on right now is we are looking 
at recapitalizing our mobility fixed wing fleet, the MC-130's, 
and I believe General Brown talked a little bit about that 
during his testimony. But that is something that we have to 
keep our eye on, we need that recapitalization effort to move 
out very quickly the decision to be made and then purchase 
those aircraft, get them on the ramps where we can use them.
    There has been a lot of growth in Special Operations Forces 
across the board. This will not be a one-for-one replacement of 
the airplanes but an increase in the number of the airplanes 
that we will buy. So it will be very, very important for us to 
get through this source selection process.
    Mr. Smith. General, do you have a time frame on that? 
Because I know that is already running months behind schedule 
and I know that is the Air Force that needs to make that 
decision. But as the Air Force guy here, I know that is not 
your decision. But do you know the time frame?
    General Wooley. Yes, sir. Source selection is scheduled for 
the springtime. I would tell you that I don't think it is 
running behind. We ran very fast to catch up with an existing 
program. We linked up with Air Combat Command (ACC) on the 
rescue side. They are recapitalizing their eight C-130 fleet. 
Our airplane is almost a mirror image of that one.
    So we got our documentation very quickly after the 
increases in the QDR manpower, the growth of the SOF forces was 
made known to us, and then we joined up on ACC's wing.
    Mr. Smith. If I may, I wasn't talking about the SOF forces 
piece. The Air Force overall was supposed to come up with a new 
airframe decision for the 130 for their needs as well as yours. 
Maybe I got the information wrong but actually General Brown 
was the one that told me eight, nine months ago that was 
supposed to have been done.
    General Wooley. We don't know what the airplane will be. We 
have written the requirement document. It is going to be a C-
130 size airplane. There are two or three airplanes out there 
that would fill that bill, ranging from a new airplane; the A-
400 comes to mind, the C-130J comes to mind. There are 
attributes of all of them. And we are urging moving quickly 
through that process that is very rigid, as you know, and, as I 
said, that decision should be made in the springtime on which 
airplane that will be.
    And one of the things that we have pushed very hard for is 
that we don't want just the basic airplane when we get it. We 
have written the requirements such that we will get the SOF 
modifications done as the airplane is being built because we 
can ill afford to stagger step, if you will, get an airplane 
and then have to turn a brand new airplane right around and go 
through the modification process.
    So we have very meticulously and specifically written into 
our requirement that those--the airplane be delivered full up 
as a SOF airplane, which is a different approach. And that may 
be what you may have been thinking that has slowed down the 
process. But I would tell you that from where we were when we 
were notified that the plus-ups were coming to where we are 
today, the Air Force has done very well by us and we are 
working very closely with them to--and anxiously awaiting these 
new airplanes to get to us. It is a wonderful question and one 
that we have to keep our eye on to keep it moving.
    Mr. McIntyre. Very quickly in my remaining time, what 
additional capacity would you require? Do you have an idea 
about how many additional planes for Special Operations Forces?
    General Wooley. Two numbers are coming to mind. The initial 
37, which will recapitalize the fleet that we have, and then 
the growth of the forces takes that number up to 61.
    Mr. McIntyre. Thank you. If I may ask you about one other 
plane, the AC-130 gunship. How many gunships now are 
operational? How many do you have in the fleet and how many are 
actually operational?
    General Wooley. We have 25 today. There are eight H models, 
which are the oldest Vietnam-era airplanes, and 17 U models, 
which are the newest ones. In that 17 are four brand new ones 
that was just recently completed and are going through the 
testing phase. We are putting some new weapons on the airplane, 
we are getting rid of the 25-millimeter up front on the U 
models and the old 40-millimeter cannon in the back of the 
airplane.
    So the new four that are coming off the line will have 30-
millimeter, an area suppression weapon, if you will, with 
common ammunition with the other services, and of course the 
Stalwart 105 cannon in the back as well. We had to replace the 
40. It is getting very expensive. Each round fired is about 
$200 and the cannon is literally an old naval antiaircraft gun 
that has been in use ever since we designed the C-130 model of 
the gunship.
    The thing that I would tell, though, even though the U 
models are the newest airplanes they are the ones that I am 
concerned the most about. We are flying, literally flying the 
wings off of those airplanes. The center wing box where the 
attachment point of the wing to the fuselage joins together, we 
are putting so much stress on that airplane because it is 
flying three times the amount that we had programmed for it to 
fly.
    So the equivalent hours that we are eating up on that 
airplane, we have got about four airplanes that are entering 
into a caution zone. So we are having to meticulously monitor 
the flying time on those airplanes, use them for trainers at 
Hurlburt, keep the ones that have airframe hours left on that 
center wing box because we can ill afford to sit those 
airplanes down waiting for the center wing box to be replaced.
    We have a similar problem with our Talon II fleet, and I 
know that wasn't part of your question but I will take this 
opportunity to say we have the same issue with our Talon IIs. 
We have a plan that we have worked on, the money is there, the 
wings boxes are being built. We have got our first one in 
modification now.
    But the rate at which we are flying the U model gunships 
has brought that as a new issue and one that I am very, very 
concerned about.
    Mr. McIntyre. Thank you very much. Thank you, Mr. Chairman.
    Mr. Smith. Thank you. I have a couple more questions. The 
hour is late here so I will probably just ask you them and then 
you can just get back to us on the piece. One is going back to 
something that Mrs. Drake was talking about on the time away 
from families, on the dwell time and how even within that they 
are away, soldiers are away training a great deal.
    If there was any way to consolidate that training someplace 
closer to home, we would be very interested in ideas. I know 
that costs money undoubtedly, but we would be happy to provide 
that to try to help with some of that retention of the family 
piece.
    I am also interested in, within each of your forces, the 
difference between direct and indirect action and the emphasis. 
One of the concerns is that direct action gets more emphasis in 
terms of promotions, in terms of how it is used. If you would 
just let me know sort of what the practice is in your field 
because I think it is the opinion of this committee on both 
sides that the indirect piece is enormously important and more 
long term. So the emphasis that is placed on that.
    I guess the only thing that I would like to get an answer 
from before we go is if Admiral Maguire could tell us a little 
bit about the experience in the Philippines and what your teams 
did down there. Obviously you can answer that question in an 
hour length version, so I am looking for a little more 
condensed. If you could give us a little bit of an idea of what 
you did, why it was successful, and how it worked down there.
    Admiral Maguire. Mr. Chairman, we are just part of the team 
down there. I don't mean to minimize and give an ``aw, shucks'' 
on that, but we are down there in the Philippines working 
through the Joint Special Operations Task Force (JSOTF) down 
there, the Special Operations Task Force led by a Special 
Operations colonel. I provide SEALs and special boats to that 
effort.
    Mr. Smith. That is my ignorance. I apologize. It wasn't 
just Navy, it was other?
    Admiral Maguire. We have got Green Berets, also Air 
Commandos. So it is a team effort. But what the Pacific 
Commander is doing and what we are supporting is a long-term 
foreign internal defense down in the southern Philippines. We 
are working in Mindanao, Tawi-Tawi, Basilan Island and Jolo 
Island in order to work with the Filipino military to help them 
raise their standard of professionalism in order for them to be 
able to conduct military operations to a certain level down 
there in the southern Philippines.
    We as a group have been supporting the Pacific Command in 
those operations now for about over two years, and I think that 
you can see from some of the stories in the press that the 
Filipinos that we are working with and the Filipino military is 
actually having some success with their combating terrorism 
operations down there, with the recent stories that have been 
in the press as far as those that have been killed.
    Our forces were not directly involved in those military 
operations, but we have been advising and training those 
Filipinos that have conducted those military operations. In 
addition to that, it is a maritime environment. So I do have my 
Mark Vs that have been there, as well as my rigid hull 
inflatable boats that have been significantly working not only 
to transport folks back and forth, but we are putting ISR 
equipment on board that and working around there in order to, 
just like overhead with ISR in order to be able to increase the 
intelligence picture there as well and then with Pacific 
Command we share what intelligence we can with the Filipinos in 
order to enable them to be successful in the battlefield.
    Mr. Smith. And the final question, actually, your comment 
made me think of it, that I did want you to get back to us on, 
is the ISR piece and what acquisition you might need in order 
to get that up to a higher level. I know it is at a very high 
level right now. I appreciate your honesty there, Admiral. And 
what other equipment you need. Just in the brief period I have 
been looking at this I know that is enormously important to 
have that complete situational awareness real time, and we have 
the technology these days, a lot of great stuff out there, we 
just want to make sure we get it to you. So let us know what 
your wish list top priorities are on that.
    I will also say for the record that if any members want to 
submit questions for the record, they can do that as well. And 
with that, if there are no objections, nothing further, we are 
adjourned. Thank you very much.
    [Whereupon, at 5:52 p.m., the subcommittee was adjourned.]
     
=======================================================================
                            A P P E N D I X

                            January 31, 2007

=======================================================================
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 31, 2007
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
=======================================================================
             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            January 31, 2007

=======================================================================
     
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. Mrs. Drake was talking about on the time away from 
families, on the dwell time and how even within that they are away, 
soldiers are away training a great deal.
    Admiral Maguire. The United States Special Operations Command 
(USSOCOM) Deployment Red Line Policy, dated January 23, 2007, sets the 
command's dwell time at a 1:1 ratio. This policy was originally 
established on August 2, 2005, and is retroactive to May 1, 2004. 
USSOCOM personnel do spend time training away from home when they are 
not deployed. The greatest impact is on our Naval Special Warfare 
personnel who conduct most of their training away from their home 
station.
    The command recognizes that training cuts into dwell time and has 
considered that in our policy. The policy states: ``The dwell time 
ratio is the time away from home versus home station time. Calculating 
time away from home includes deployments, Theater Security Cooperation 
Plan events and unit training temporary duties (TDY), i.e., Joint 
Combined Exchange Training, Certification Exercises, etc. However, 
individual training/school TDYs, i.e., military freefall, professional 
military education, etc., are not included in time away from home 
calculation.''
    Mr. Smith. If there was any way to consolidate that training 
someplace closer to home, we would be very interested in ideas. I know 
that costs money undoubtedly, but we would be happy to provide that to 
try to help with some of that retention of the family piece.
    Admiral Maguire. Some training may be consolidated at venues closer 
to home. Where possible, U.S. Special Operations Command Component 
commands are moving training closer to home facilities. For example, 
the Naval Special Warfare Command (NSWC) established a Naval Parachute 
Course at Otay Lake, on the eastern edge of San Diego, just a few miles 
from Naval Air Base Coronado, California. This school provides what is 
now considered a pipeline skill to all NSWC personnel locally. The 
upside to this is less travel cost and temporary duty time. The 
downside, specifically to new schools, is they must be assessed 
initially to ensure they meet Special Operations Forces (SOF) 
standards, with some type of monitoring function to ensure operators 
from various components are receiving a minimum standard of training. 
An additional strategy that can be used is the use of mobile training 
teams (MTTs) for certain skills that can be taught in 1-2 week blocks. 
Unfortunately, not all training can be accomplished close to home. Some 
training events require specific ranges cleared for military operations 
such as live fire, exercises, realistic urban terrain training, 
military operations in urban terrain, etc. Is it possible to move more 
training ``closer to home?'' Yes. However, such a move would require 
feasibility studies to determine which training could be moved, 
expansion of facilities, coordination with local and state authorities, 
and the completion of several Environmental Impact Statements for 
training to be moved closer to home.
    Mr. Smith. I am also interested in, within each of your forces, the 
difference between direct and indirect action and the emphasis. One of 
the concerns is that direct action gets more emphasis in terms of 
promotions, in terms of how it is used. If you would just let me know 
sort of what the practice is in your field because I think it is the 
opinion of this committee on both sides that the indirect piece is 
enormously important and more long term. So the emphasis that is placed 
on that.
    Admiral Macguire. I share your opinion that the indirect approach 
is enormously important and more long-term in nature. In fact, in the 
Department of Defense's plan for the Global War on Terror (GWOT), three 
of the five lines of operation use the indirect approach to combat our 
terrorist enemies. They are: Enable Partners to Combat Violent 
Extremist Organizations; Deter Active and Passive Support for Violent 
Extremist Organizations; Erode Support for Extremist Ideologies.
    DOD's GWOT plan further stipulates that enabling our partners is 
expected to be the decisive military effort in the campaign over time. 
It is understood that these efforts will require a long term effort by 
not only DOD, but the entire US Government, as well as our partners 
around the world. The direct approach by itself, while important in 
keeping us safe, will not win this war. It will, however, allow us and 
our Partners the time needed for the indirect approach to have effect 
and ultimately defeat our terrorist enemies. One of the keys to the 
indirect approach is to address the roots of terrorism.
    We believe addressing the roots of terrorism requires a whole 
government approach where DOD predominantly supports interagency 
actions and requirements such as those required by the Department of 
State or the U.S. Agency for International Development. Their actions 
to engage partner nations focus on the nation state or the regional 
development necessary to diminish extremist influence by implementing 
socio-economic initiatives that improve governance as well as health, 
welfare, and education programs. Also, the Department of State 
Strategic Communication activities promote our messages and counters 
radical ideology. Development and enhancing local or regional 
leadership capable to represent and establish legitimate local 
governance extends control and support to ungoverned areas and de-
legitimizes the terrorist ideological focus against their governments.
    Mr. Smith. The final question, actually, your comment made me think 
of it, that I did want you to get back to us on, is the ISR piece and 
what acquisition you might need in order to get that up to a higher 
level. I know it is at a very high level right now.
    Admiral Maguire. The U.S. Special Operations Command (USSOCOM) 
continues to rely on a combination of Service-provided and Special 
Operations Forces (SOF)-unique airborne Intelligence, Surveillance and 
Reconnaissance (ISR) to help meet our needs. Currently we are working 
with the U.S. Central Command and the Joint Staff to meet the immediate 
surge requirement of SOF in that theater. At the same time, we are 
formalizing our Fiscal Years 2010 through 2015 enduring ISR 
requirements, which will likely continue to increase. USSOCOM 
appreciates the Committee's support of our past and current requests 
for ISR needs, and as emergent needs are identified, we will work with 
the Committee to address those requirements.
    Mr. Smith. Could you please describe for us the vision of the 
Capstone Concept for Special Operations 2006, or CCSO? What are the 
goals of this vision and what are the plans for implementing it 
throughout the community?
    Admiral Olson. The Capstone Concept for Special Operations (CCSO) 
is the intellectual foundation of the U.S. Special Operations Command's 
(USSOCOM) long range planning and a blueprint for how Special 
Operations Forces (SOF) will adapt to the requirements of the complex 
security environment. It is our overarching depiction of how the 
Special Operations community will support national strategic and 
military objectives beyond the Future Years Defense Plan (FYDP). We 
recognize that traditional concepts of military response will no longer 
succeed in defeating the current adversaries, and will not succeed in 
defeating adaptive future adversaries. The vision of the Capstone 
Concept is simply this: to develop the premier team of special 
operators who are highly skilled, thoroughly prepared, and properly 
equipped for the significant challenges our Nation will continue to 
face.
    The goal of the Capstone Concept is to provide a direction for how 
USSOCOM will implement its Title 10 and Unified Command Plan functions, 
focus the Joint SOF capabilities growth identified in the 2006 
Quadrennial Defense Review, and operate around the world to disrupt and 
defeat transnational terrorists and other adversaries.
    The implementation pathway for the Capstone Concept is centered on 
three strategic objectives: first, to plan, prioritize, and synchronize 
Department of Defense global operations against terrorist networks; 
second, to establish a worldwide persistent Joint SOF presence to shape 
operational environments; third, to provide expeditionary, quick 
reaction, task-organized Joint SOF teams.
    These three objectives are enabled by five Keystone Capability 
Areas that we are developing in concert with our component forces. 
These Keystone Capability Areas represent concepts, innovations, and 
adaptations we must pursue to place SOF in the best posture to support 
U.S. objectives.
    The first keystone capability is developing truly integrated SOF, 
with interagency and international partners that can address the 
spectrum of challenges in the operational environment. The second 
keystone is developing our SOF individuals to achieve higher order 
special skills for both direct and indirect approaches to defeating our 
adversaries. The third keystone is developing command, control, 
communications, computer, and intelligence capabilities that enable SOF 
to understand and comprehend the complex environment so that we can 
devise tailored, nuanced plans. The fourth keystone is developing 
logistics, acquisition, and resourcing capabilities to equip our team 
with best tools for them to operate. The last keystone is the 
development of intelligence and information capabilities across the 
full spectrum of multidisciplinary intelligence functions to enable our 
comprehension of the complex international environment.
    Mr. Smith. What type of Special Operator is needed to meet the 
national security challenges of the future and help our nation succeed 
in the Global War on Terror (GWOT)? What attributes are required? How 
do we maintain a force consisting of these individuals?
    Admiral Olson. Our highly skilled and proficient people are the 
reason Special Operations Forces (SOF) are so unique, but they do not 
develop these attributes overnight. It takes years of development and 
experience. Through all our adaptations and innovations, we will 
maintain the focus on continuing to provide people who can do what no 
one else can do, in conditions no one else could operate.
    To operate effectively in this war on terror, special operators 
need to be mature, able to comprehend the complex operational 
environment, adept at working alongside interagency and international 
partners, and able to operate in small teams or even alone. They must 
have highly developed intuition built from an understanding of other 
cultures and the variety of motivations and interests that drive 
peoples' actions. They must know how to knit together security, 
political, social, ideological, economic, and informational aspects of 
a particular operation to achieve the operational and strategic 
objectives given to them. Most of all, special operators need the 
ability to reason and determine what is the best thing to do in the 
most complex of circumstances. These attributes are highly nuanced, but 
they form the core of what makes our people special. The SOF warrior 
works at the tactical level, often with strategic outcomes.
    Maintaining a force of these highly qualified individuals will be 
challenging but it is essential. The Joint Special Operations Warrior 
of the future who will be prepared and equipped for global 
expeditionary employment. USSOCOM is developing a prototype of the 
Joint SOF warrior system, blending individual skills with the proper 
equipment, weapons, mobility, support, and communications systems. We 
are also developing a Joint SOF career management system emphasizing 
selected educational, overseas and exchange or liaison assignments. We 
will continue to examine potential improvements to current selection 
and assessment processes to broaden the range of people joining Joint 
SOF. We will also look at our Joint Special Operations University so 
that it can direct and integrate educational initiatives and student 
management throughout USSOCOM and coordinate educational initiatives 
with other Department of Defense, interagency, civilian and foreign 
educational institutions.
    USSOCOM takes the business of preparing its people very seriously. 
Our people are the essence of what we do, and we will continue to 
ensure we have the best.
    Mr. Smith. The MARSOC manning assessment and selection process is 
expected to be fully functional in May 2007. For cost-saving purposes 
and to incorporate already-existing training standards, have your 
examined the option of utilizing USASOC infrastructure for MARSOC 
schooling? If not, then why not? Does the current plan for the command 
include the creation of parallel and perhaps redundant accession 
pipeline? If so, then please explain how this is in the best interest 
of our nation?
    Admiral Olson. Yes, we are currently assessing all skill sets but 
not all assessments have been completed. Completed assessments include 
the combat medic career field. For combat medics, the increased 
training requirement will be accomplished through an increase in the 
U.S. Army Special Operations Command (USASOC) training capacity. Other 
skill sets such as, Military Free-Fall and Combat Dive, are currently 
under review. We are working to incorporate those into the USASOC 
training pipeline where available. There are some limitations to 
training capacity increases that will require longer-term solutions and 
we are only beginning to look at those.
    Mr. Smith. What is your view of the Command's casualty rates in the 
GWOT? How does it compare with those of General Purpose Forces? How do 
these break down between the ``white'' and ``black'' SOF communities? 
Could you provide these figures to the subcommittee?
    Admiral Olson. Special Operations Forces (SOF) casualty rates are 
proportionately higher than conventional forces. Total SOF killed in 
action (KIA) in Operation ENDURING FREEDOM (OEF)/Operation IRAQI 
FREEDOM (OIF) is 177 (3.7 percent of deployed SOF in the Area of 
Responsibility (AOR)). Comparatively, the conventional forces' KIA 
number is 3,176, which equates to 1.4 percent of conventional forces 
deployed in the AOR. Of the 177 SOF KIA, 11 were ``black'' SOF.
    Mr. Smith. Please share with us your views on the ``1208 
authority'' provided by Congress. How has this improved SOF's ability 
to execute the GWOT? Would you please provide a detailed classified 
briefing on the use of this authority to date?
    Admiral Olson. In some cases, it has been used to better enable 
partner nation forces to support us in fixing and finishing terrorists. 
In others, it has been used to employ indigenous elements to gain 
access to hostile areas where U.S. forces cannot operate overtly and 
obtain information about potential terrorist targets which could not be 
obtained through conventional intelligence collection methods. In all 
cases, 1208 has provided invaluable access and information which have 
saved American lives and contributed to the successful apprehension of 
high-value terrorist targets.
    Mr. Smith. Please tell us what modernization issues are your 
greatest concerns.
    Admiral Olson. Since entering Operation IRAQI FREEDOM, U.S. service 
members have been exposed to evolving tactics by the opposition. One of 
the key methodologies for engaging Special Operations Forces (SOF) has 
been the use of the improvised explosive device (IED). Thus, we need to 
obtain ground vehicles capable of surviving these new and constantly 
evolving threats.
    SOF has not modernized the standard combat rifle since the fielding 
of the original M4 carbine in 1994. The M4 was based on a conventional 
Army specification that did not take into account all the requirements 
of the SOF warfighter. Consequently, performance and sustainment issues 
with the weapon have emerged during its service life. To remedy this 
situation, the United States Special Operations Command (USSOCOM) 
developed a requirement for a new assault rifle. This requirement, the 
SOF Combat Assault Rifle (SCAR), calls for a modular weapon system 
capable of firing current North Atlantic Treaty Organization standard 
5.56mm and 7.62mm ammunition in two weapon variants labeled SCAR-Light 
(L) and SCAR-Heavy (H).
    There are three major concerns associated with modernizing the SOF 
aviation fixed wing fleet: aging airframes and associated structural 
fatigue, obsolete avionics, and filling capability gaps. USSOCOM is 
addressing these concerns by recapitalizing the oldest SOF aircraft, 
fielding MC-130W aircraft, and accelerating the procurement of AC-130U 
center wing kits. Due to delays in Service-common avionics 
modernization programs, USSOCOM will need to execute service-life 
extension and replacement programs for our C-130 avionics.
    To satisfy current mobility capability gaps, USSOCOM is fielding 
CV-22s to increase vertical lift capacity with significantly improved 
speed and range. The Fiscal Year (FY) 2008 Global War on Terror (GWOT) 
Supplemental request includes accelerating procurement of five CV-22s. 
The capability gap for operational movement of small special operations 
teams in support of GWOT in austere and remote locations not serviced 
by reliable and safe commercial aviation service is being addressed by 
the Non-Standard Aviation program starting in FY 2008.
    The major concern associated with modernizing the SOF Naval 
platforms is replacing the aging combatant craft. The need for a new 
combatant craft brings with it several areas of technological 
improvement such as signature reduction, utilization of advanced 
composites and new hull forms, better human systems integration to 
reduce shock and vibration, integrated bridge systems, and the need for 
enhanced communications.
    Mr. Smith. Please share with the subcommittee your view of the 
command's recruitment and retention efforts? What are the challenges 
and solutions?
    Admiral Olson. Recruiting and retention are Service 
responsibilities and we work closely with the Services to monitor and 
influence the process. The biggest challenge for non-prior Service 
recruiting is the available population of qualified applicants for 
military service. Figures that are widely accepted by recruiting 
experts show that approximately 28 percent of Americans in the target 
enlistment cohorts of 19-24 years of age qualify for military service. 
The three main qualification criteria are: medical, character, and 
mental. The Services, as well as universities and industry, are all 
competing for the same population. Successful recruiting has and will 
continue to be a cornerstone for Special Operations Forces (SOF).
    More specifically, Navy recruiting continues to give us great 
support. The Chief of Naval Operations made Sea, Air, and Land (SEALs) 
the number one recruiting priority. The U.S. Army Special Operations 
Command (USASOC), in partnership with the U.S. Army Recruiting Command, 
continues to meet with success through the Special Operations 
Recruiting Battalion (SORB). Unlike SEALs, Army SOF are recruited 
almost exclusively from within the Service. The SORB is highly 
successful and allows us to better field candidates for Special Forces 
(SF) Assessment and Selection of the best qualified who volunteer 
whether they are prior Service and non-prior Service. In turn, there is 
a lower attrition rate at the SF Qualification Courses. The Air Force 
is meeting recruitment goals for Air Force special operators. The U.S. 
Marine Corps Special Operations Command is on target to be fully 
operational capable by December 2008. The Marine Corps is filling their 
authorizations that meet or exceed targets.
    The challenges to recruiting and retention continue to be the 
operational tempo for our forces. Because many of our Army and Marine 
ground forces are committed overseas, the full complement of available 
in-Service SOF candidates are not optimally available for recruitment. 
To offset this challenge, the SORB intends to explore an in-theatre 
initiative by the end of the year to widen the recruitment pool. 
Recruiting and retention continue to be areas that require vigilance 
and your support.
    Mr. Smith. The subcommittee has received anecdotal evidence of 
frustration with the nature of leadership at the mid- and lower-level 
ranks of SOF. a. What is your view of the leadership demands at these 
levels? b. What efforts do you have underway to strengthen leadership 
skills at these levels? c. Do these efforts include both compensatory 
and non-compensatory solutions?
    Admiral Olson. It is my view that leadership at all levels within 
the Special Operations Community is at an all time high due to the 
incredibly experienced and mature force we are currently fielding 
across the globe in combat and in peace. Without more specificity to 
anecdotal evidence referenced, I cannot address the frustrations 
addressed.
    The U.S. Special Operations Command (USSOCOM) relies upon the 
Services and Service Component training and education institutions, as 
well as SOF organizational leadership, to instill leadership values and 
serve as mentors for their junior officer and enlisted forces. USSOCOM 
also relies upon the Service and Joint Professional Military Education 
(PME) venues as opportunities for leadership development and discussion 
on leadership values and characteristics to take place. The command has 
SOF representation at many of the intermediate and senior Service 
colleges for military officers to assist in specific learning outcomes, 
however they are primarily directed at special operations-specific 
knowledge and meeting the Chairman, Joint Chiefs of Staff-defined 
learning areas and objectives (CJCSI 1800.01C, Officer PME Policy). 
USSOCOM has developed a Joint SOF Leadership Competency Model as part 
of an education requirements analysis study in 2005. As SOF-specific 
courses are developed or revised in institutions like the U.S. Air 
Force Special Operations School (USAFSOS) or the USSOCOM Joint Special 
Operations University QSOU), course developers and managers look to 
incorporate those as additional standards. The majority of the USAFSOS 
and JSOU courses are attended by junior and mid-level officer and 
enlisted special operations and SOF-enabling personnel. Of note, the 
Joint Staff is currently working on Joint Leadership competencies 
which, when approved and published, will be utilized and assessed by 
the special operations community.
    Without specifics, it is difficult to speculate on anecdotal 
evidence as it relates to leadership. The welfare of our SOF personnel 
and their families are of primary importance to me.
    Mr. Smith. How do you compare U.S. Special Operations Forces with 
SOF in other countries, such fielded by the United Kingdom, Israel, 
Jordan and Poland? Do each of these SOF communities have a distinct 
characteristics? How would you rate them and describe their respective 
attributes?
    Admiral Olson. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. Please describe for the subcommittee frustrations you 
have about the current requirements and acquisition system for SOCOM, 
especially the challenge of coordinating and co-producing weapons with 
the larger Services.
    Admiral Olson. We must deal with two separate timelines in the 
requirements generation and approval process. We have our internal U.S. 
Special Operations Command process which is quite efficient. But the 
Joint Staff's Joint Capabilities Integration and Development System 
(JCIDS) process is much more time consuming, and not as conducive to 
rapid decisions on a routine basis.
    From the acquisition perspective, we need to work with the 
Secretaries of the Military Departments to put in place overarching 
Memoranda of Understanding (MOU) addressing how we will do business 
together. These MOU would cover not only the respective acquisition 
processes, but also a variety of other business and administrative 
processes such as manpower management and participation in their 
requirements generation and budget processes. This particular 
deficiency was noted in the recent Government Accountability Office 
(GAO) analysis of our management of weapons system programs.
    Mr. Smith. What is your overall view about the current and 
projected growth of SOF? From a practical standpoint, can SOF grow 
beyond projected levels? If not, why not?
    Admiral Olson. The U.S. Special Operations Command (USSOCOM) is 
regularly reviews how we can increase our responsiveness and 
effectiveness to fight the Global War on Terrorism (GWOT), as directed 
by the President and Secretary of Defense. The Quadrennial Defense 
Review (QDR) provided Special Operations Forces (SOF) with the 
resources to right size and equip its force to prosecute the GWOT, but 
recruiting, selection and training creates challenges that have to be 
continually monitored to ensure force growth can be achieved. SOF can 
grow beyond projected levels, but it will require a multi-faceted 
approach, starting with a coordinated effort in conjunction with the 
Services.
    Prior to the 2006 QDR-approved growth, USSOCOM grew its school 
houses and instructor cadre in preparation for programmed growth. 
However, any growth beyond currently projected levels will require a 
re-evaluation of training capacity at SOF school houses.
    Since the original QDR analysis, and in conjunction with our 
continuous review of our operational tempo, the GWOT has expanded SOF 
roles and missions, which in turn, has increased the strain on SOF 
forces. USSOCOM will continue to monitor this area, but a requirement 
for additional force structure could soon exist in the following areas: 
Command, Control, Communications, Computers, and Intelligence (C4I); 
Intelligence, Surveillance, and Reconnaissance (ISR); Combat Service 
Support (CSS); and Theater Special Operations Commands (TSOCs). 
Additional air, maritime, and ground mobility will be required to 
support forward deployed operations and rotational deployments.
    Mr. Smith. What is your ``tooth-to-tail ratio'' in the community? 
Can it be adjusted?
    Admiral Olson. The U.S. Special Operations Command's (USSOCOM) 
``tooth-to-tail ratio'' is about 80 percent tooth, 20 percent tail. The 
tooth-to-tail ratio is appropriately balanced to support USSOCOM 
operational requirements. Adding or subtracting force structure could 
result in impacts on the ratio.
    Mr. Smith. Are current SOF incentive programs effective? Is there 
anything that should be down to enhance or modify them?
    Admiral Olson. Yes, the current Special Operations Forces (SOF) 
incentive programs are effective and require continual assessment to 
identify how they can be enhanced or modified. Our assessment of the 
incentive programs show initial popularity and success upon 
introduction. The programs are still in their early stages, but are 
making a positive difference in retention. Removal of these pays would 
have a disproportionately negative response than not having introduced 
them at all.
    Mr. Smith. What is your overall assessment of the interagency 
capability and level of effort? Do you have thoughts or recommendations 
about how it might be improved?
    Admiral Olson. Overall assessment of the U.S. Special Operations 
Command (USSOCOM) interagency capability is good. We have established 
our engagement efforts on two levels: a ``home'' team, Interagency Task 
Force (IATF), with liaison personnel from 11 different Department of 
Defense (DOD)-- and non-DOD agencies; and an ``away'' team, Interagency 
Partnership Program (IAPP), with USSOCOM (to include the Joint Special 
Operations Command) personnel assigned to 19 different agencies.
    There are several ways to improve interagency engagement. For 
example, exchanging liaison personnel is one key way to facilitate 
collaboration. USSOCOM personnel assigned to interagency locations are 
hand-picked for their Special Operations Forces (SOF), interagency, and 
Joint experience. We are currently re-evaluating our interagency 
program to determine if we've placed the right number of personnel at 
the right organizations. Sharing education and training opportunities 
is another way to improve interagency relationships. USSOCOM personnel 
attend agency orientation and training courses, and facilitate partner 
agency personnel attendance in USSOCOM courses. Another critical factor 
in ensuring interagency engagement is establishing interoperable 
communications channels. USSOCOM has developed an interagency website 
to provide key contact information and assist in collaboration. USSOCOM 
has also installed communications equipment at many of our partner 
agencies to provide video teleconference and secure communications 
connectivity. Finally, institutionalizing interactions will contribute 
greatly to improving the interagency process. These activities could 
include establishing common battle-rhythms, capitalizing on agency 
specific authorities, developing staff and senior leader visit 
programs, and attending partner conferences and key events.
    Mr. Smith. Do you foresee necessary SOF organizational growth 
beyond that identified in the QDR?
    Admiral Olson. Transforming Special Operations Forces (SOF) to be 
more responsive and adaptive to the current world situation will 
require the U.S. Special Operations Command (USSOCOM) to continuously 
make adjustments to its force structure. USSOCOM will continue to 
conduct detailed analysis of additional requirements as we realize the 
full capabilities, capacity, or potential shortfalls or gaps of the 
programmed Quadrennial Defense Review (QDR) growth. We will evaluate 
our Active and Reserve Component force structure levels, striving to 
achieve the optimum force mix based on the additional increases in both 
the active and reserve components provided through the QDR. In 
addition, we will continue to coordinate with the Services to determine 
any future force structure requirements.
    Mr. Smith. What are the details of the SOF Retention Initiative and 
how will it affect your command? What specific problem or problems were 
identified to be addressed by this number?
    Admiral Olson. The Special Operations Forces (SOF) retention 
incentive initiatives are primarily the Critical Skills Retention Bonus 
(CSRB) and the Assignment Incentive Pay (AIP) which target retention of 
our senior enlisted and Chief Warrant Officer (CWO) SOF operators. The 
CSRB is offered to operators between 19 and 25 years of service. This 
target population is critical at the tactical and operational level 
because they provide senior enlisted leadership, guidance, and training 
to junior operators. This program provides an incentive for these 
highly skilled and trained leaders to remain on active duty beyond 
retirement eligibility. If an operator accepts a 6-year contract to the 
25 years of service point, he will receive $150,000 upfront. The 
amounts decrease significantly on a sliding scale with declining years 
of obligation: 5 years would amount to $75,000; 4 years would amount to 
$50,000; 3 years would amount to $30,000; 2 years would amount to 
$18,000; and 1 year would amount to $8,000. The AIP targets the E-8 and 
E-9 senior enlisted population. They receive $750 per month.
    Our current inventory of SOF operators is critical as we achieve 
Quadrennial Defense Review growth. The introduction of these programs 
provided both measurable gains and stability in Special Forces (SF), 
Sea, Air, Land (SEAL), Combat Controllers (CCTs), and Pararescue 
Jumpers (PJs) inventory. In communities with possible shortfalls, the 
introduction of the CSRB increased continuation by 10% in targeted 
enlisted Special Forces and SEALS. For Air Force CCTs and PJs, the 
effects are not as clear cut. Unlike SF and SEALs, Air Force SOF are 
not separate communities within the Air Force, but the incentive 
initiatives are having a positive overall effect. As with senior 
enlisted operators, SF Chief Warrant Officers retention is extremely 
critical in the Operation Detachment Alpha teams. In Fiscal Year 2007, 
83% of eligibles signed up for the CSRB. The AIP is also a critical 
program and designed for the highly skilled, extensively trained, and 
experienced senior enlisted and CWOs. We have invested heavily in their 
training and need to retain them. As a population, their skill sets are 
very sought after in the lucrative private sector.
    Mr. Smith. Please tell us more about the ``assessment and 
selection'' process and the identification of the proper ``aptitude and 
attitude'' for potential SOF-personnel.
    Admiral Olson. Assessment and selection is done at the component 
level. USSOCOM assures the standardization of training for SOF selected 
personnel. Assessment and selection for each MOS varies.
    Mr. Smith. Does SOCOM have a training modernization plan? If so, 
what is it?
    Admiral Olson. Modernization of training for USSOCOM is based on 
the Joint training system model and hinges on the recapitalization and 
modernization of the operational forces.
    Mr. Smith. How has your component command supported or taken steps 
to execute the vision contained in the Capstone Concept for Special 
Operations 2006?
    General Wagner. The U.S. Army Special Operations Command (USASOC) 
remains globally engaged having conducted missions to over 60 countries 
in the past year. Each of these engagement missions have been crafted 
by Geographic Combatant Commanders, Ambassadors, Theater Special 
Operations Commands and United States Special Operations Command 
(USSOCOM) to advance priority Theater and USSOCOM missions; 50 of these 
countries were for Theater Security Cooperation Programs, and 32 
countries were for operational missions. USASOC's Special Forces, Civil 
Affairs and Psychological Operations forces are experts in both 
advancing U.S. interests and objectives; and, developing the 
capabilities of partner nations through regional engagement. The 
Capstone Concept for Special Operations (CSSO) 2006 brings excellent 
focus and direction to the global engagement strategy which will 
enhance an already robust and successful engagement program.
    The CCSO outlines the Future Operating Environment for Special 
Operations Forces (SOF) and lists USSOCOM's three strategic objectives: 
Department of Defense Global War on Terror (GWOT) Lead, Global 
Presence, and Global Expeditionary Force. During Fiscal Year 2006-2007, 
USASOC worked closely with the USSOCOM Center for Knowledge and Futures 
conducting wargaming and experimentation on these strategic objectives 
to assist in developing implementing actions. USASOC is currently 
involved in seven initiatives that support the CCSO:
    Joint Futures Wargaming. Unified Quest 07 (UQ 07, completed May 
2007) and Unified Quest 08 (UQ 08), Title X wargames co-sponsored by 
U.S. Army, U.S. Joint Forces Command (JFCOM) and USSOCOM. USASOC 
Futures Center was USSOCOM's Executive Agent for UQ 07 and is again for 
UQ 08. Wargame objectives for UQ 08 include examining the effects of 
evolving operational command and campaign design initiatives on Global 
SOF Posture and the Joint Expeditionary SOF concept. UQ 08 also 
contains the February 4-8, 2008 USSOCOM-led Irregular Warfare Seminar 
Wargame, with robust USASOC participation.
    Joint Futures Experimentation. Futures Expeditionary SOF Experiment 
08 (FESOF 08) is a USSOCOM Futures Experiment that focuses on the 
CCSO's Joint Expeditionary SOF strategic objective. USASOC Futures 
Center is USSOCOM's executive agent for FESOF 08. The experiment is 
projected for execution in May 2008, and will provide quantitative 
analysis of joint SOF collaborative planning capability using the 
Command Post of the Future.
    Future Operating Environment (FOE). The USASOC FOE is the Futures 
Center's effort to simplify the JFCOM Joint Operating Environment 
document into a condensed readable version that is applicable to Army 
SOF. Guidance contained in this document was derived from the CCSO, and 
provides the Army SOF component of the overarching USSOCOM FOE.
    Army SOF Enabling Concept Development. USASOC Futures Center's 
Concept Division is developing the Army SOF portion of the CCSO's five 
Joint Special Operations Keystone Capability Areas.
    Operational and Experimentation Support to activation of Joint 
Special Operations Group 08-PACOM 1.
    Staff participation in USSOCOM's Global SOF Posture workgroups to 
identify and solve challenges related to developing and maintaining an 
expeditionary SOF capability. The capabilities include logistical 
support, personnel management, movement of personnel and equipment and 
command and control.
    Irregular Warfare. USASOC staff directorates are participating in 
the Irregular Warfare Joint Operating Concept initiative, which has now 
become a Capabilities Based Assessment. In support of this USSOCOM 
initiative, USASOC is currently conducting an Unconventional Warfare 
Functional Area Assessment.
    Mr. Smith. What is your view of recruiting and retention? a. What 
is the general quality of recruits and is there a need to improve 
recruiting methods? What steps are in place to make such improvements? 
b. What is the general state of retention? What steps have been taken 
or need to be taken to maintain an effective retention situation?
    General Wagner. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. Please tell me about the linguistic skills of the Army 
Special Operations Force (ARSOF) community. What are the strengths and 
weaknesses of the command in this area? How are you trying to address 
the weaknesses?
    General Wagner. It is important to understand our requirement for, 
and our approach to language. Our expectation is that our Special 
Forces (SF) Soldiers will leave our training institution with a 
``working knowledge'' of a language. We do not provide the training 
necessary to be a ``linguist''. . . we want our Soldiers to be Special 
Operators; not linguists. Our SF Soldiers, for example, are trained on 
numerous Military Occupational Specialties (MOS) such as; SF Combat 
Medic, SF Combat Engineer, SF Communications, SF Weapons Sergeant and 
others. In addition to the extensive training involved in these 
specialties, they will be regionally aligned throughout their career. 
They must understand the culture they will work in and they have 
functional language skills in their MOS specialty: a working knowledge 
of the language. To achieve that ``working knowledge'' we train to a 
minimum standard of 1/1/1 on the Defense Language Institute (DLI) 
Scale; this is up from the previous goal of 0+/0+. Since 2004, when we 
raised the standard and transformed our program, 95 percent of our SF 
Soldiers have achieved the new higher standard with no increase in 
training time. As a means of comparison, our personnel whose MOS is to 
be a ``linguist,'' are trained to a minimum level of 2/2/2 at the DLI. 
For example, the ``signals intercept'' personnel in our formations are 
trained at DLI. Additionally, we provide for sustainment and 
enhancement training at the unit locations. Many of our Soldiers, with 
the benefit of numerous deployments, the incentive of additional pay, 
and additional study, improve their qualifications. Current OPTEMPO and 
out of sector deployments have had an effect on our language skills.
    Mr. Smith. Please provide greater detail on your statement that 
ARSOF's recruiting effort is ``uniquely tied to the overall health of 
the Army.'' What exactly do you mean?
    General Wagner. Most of our Soldiers are recruited from other units 
within the Army. If the ``pool'' from which we select our Soldiers is 
healthy, in terms of numbers and quality, then our recruiting will 
reflect that. This is also true for our low-density Military 
Occupational Specialties (MOS) which are often critical throughout the 
entire Army.
    Mr. Smith. Please explain and describe the ``change in training 
venue'' for Special Forces Warrant Officers and why this is expected to 
increase end strength figures for that community?
    General Wagner. All Special Forces Warrant Officer (MOS 180A) 
training requirements are now conducted at Fort Bragg, North Carolina, 
by the John F. Kennedy Special Warfare Center and School (JFKSWCS). 
Previously, the training was split between Army's Warrant Officer 
Candidate School (WOCS) at Fort Rucker, Alabama, and Special Forces 
specific training at Fort Bragg. Unlike the larger Army; all SF Warrant 
Officer Candidates must have first served as a Special Forces Non-
Commissioned Officers (NCO) in one of the Special Forces Groups. Thus, 
on average, they start Warrant Officer training with an average of over 
10 years service. Much of what was taught at Fort Rucker has already 
been taught to our NCOs through the Non-Commissioned Officer Education 
System (NCOES), and through their years of experience as a Special 
Forces NCO. This new format (all training at Fort Bragg) eliminates 
redundant training and acknowledges the NCOs' professional and life 
experiences. Additionally, although the course remains 15 weeks in 
length, the training is now tailored to our specific requirements. 
Further, since our Warrant Officer candidates no longer have to wait in 
a queue for a class date at Fort Rucker, we can enroll the candidates 
soon after their request is approved, and we can get them fully 
trained: frequently up to 30 weeks sooner. All of these factors result 
in a more efficient, effective and attractive course. Since inception 
of this new design, the 180A program has exceeded its Fiscal Year 2006 
and Fiscal Year 2007 recruiting missions--after having failed to meet 
mission requirements the previous three years.
    Mr. Smith. Please provide your views on the low manning figures for 
National Guard Captains and Warrant Officers (34% and 26% 
respectively). Why do you believe these are so low? Please explain how 
the command is addressing this situation.
    General Wagner. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. Please share with us the plan to improve the training 
through-put problem associated with shortfalls in MH-47 personnel.
    General Wagner. A number of major factors impact the MH-47 
personnel throughput: increased pilot authorizations due to growth, 
ongoing transition from MH-47D/E to MH-47G aircraft, and operational 
tempo. In December 2006, the 160th Special Operations Aviation Regiment 
(Airborne) (SOAR (A)) received Department of Defense authorization to 
grow from 2,437 Soldiers to 2,993 Soldiers. This allowed the 160th SOAR 
(A) to organize into four battalions, provide them with equipment for 
another Company of 10 MH-60s, and authorized an increase of 556 
Soldiers to round out the staff, maintenance, and aircrew growth to 
increase the ratio of crews to aircraft. This 556 Soldier growth will 
occur as depicted with 84 Soldiers in Fiscal Year 2008, and the 
remaining 472 Soldiers through the Fiscal Year 2012 Future Years 
Defense Program.
    The planned growth over the next five years will cause the 160th 
SOAR (A) to annually chase personnel fill rates to meet the pace of new 
authorizations. However, the gradual increase of personnel 
authorizations over the five year period was specifically designed to 
give the Regiment the ability to manage that growth. Bottom line: this 
is ``good news'' as we have been authorized to grow which is essential 
to supporting mission requirements.
    As of September 2007, the 160th SOAR (A) has fielded 38 of 61 
authorized MH-47G aircraft, 8 of which are assigned to the training of 
new MH-47G crews.
    The Special Operations Aviation Training Company (SOATC), 160th 
SOAR (A) can currently train 32 MH-47G pilots and 32 Flight Engineers 
per year. Beginning in January 2008, they will increase throughput up 
to 48 MH-47G pilots and 48 Non-rated crewmembers per year to keep pace 
with the programmed growth of the Regiment. However, the Regiment 
expects difficulty filling some pilot training seats. Army Aviation 
GWOT unit rotations complicate assessment and assignment of qualified 
pilots. To help reduce these new pilot assignment issues, the command 
must continuously dialog with other Combat Aviation Brigade Commanders.
    The 160th SOAR (A) is addressing three areas that challenge the 
training through-put issue: availability of aircraft, training time, 
and instructor availability.
    The availability of training aircraft will be a constant challenge 
until all MH-47G aircraft are fully fielded in July 2011. This requires 
the 160th SOAR (A) to meticulously manage its aircraft. SOATC is 
conducting the last MH-47E training class and will soon focus on 
training a pure fleet of MH-47G pilots and crewmembers. Reducing the 
MH-47 series aircraft to one type will increase overall aircraft 
availability through the reduction in maintenance and trainer overhead. 
While it has taken time, the 160th SOAR (A) is beginning to reap the 
benefits of transformation from 3 types of MH-6s, 4 types of MH-60s, 
and 3 types of MH-47s to a single airframe of each type.
    Training time continues to be an issue while the 160th SOAR (A) 
remains heavily engaged in the GWOT. Every increase in the deployed 
number of combat aircraft ultimately affects the ability to train our 
Special Operations Aviators and Crewmembers to exacting standards. The 
initial training base remains relatively unaffected, but we experience 
training setbacks as low density/high demand operational assets, such 
as MC-130 tankers, are committed in support of the GWOT. Our mission 
crews have great difficulty apportioning continuation training time as 
they balance a GWOT cycle of rotation at a nearly 1:1 rate. Without a 
reduction in OPTEMPO, mission crews will continue to get less than 
optimal environmental training during their dwell periods. The result 
is a force that is highly proficient in the environments presented in 
Iraq and Afghanistan.
    Instructor limitations are addressed through increases to SOATC's 
contractor support base. The primary training base within SOATC is the 
complement of Civil/Military Instructors (CMIs), retired Special 
Operations Aviators who continue to pass on a wealth of knowledge to 
newly assigned aviators--holding them to the demanding standards 
expected of the 160th SOAR (A).
    Mr. Smith. The fill-rate within the field of psychological 
operations is unsatisfactory, especially at the rank of Captain. Is 
this a recruiting problem, a schoolhouse through-put problem, or 
retention problem? As the proponent of this branch, what is your 
command doing to assist with efforts to address this situation?
    General Wagner. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. Please describe in detail the metamorphosis of the 
Special Operations Sustainment Brigade, especially as some elements 
will be utilized to form the five new Special Forces Battalions and 
three Ranger Support Companies.
    General Wagner. Based on Lessons learned from the Global War on 
Terrorism, the U.S. Army and the U.S. Army Special Operations Command 
(USASOC) Transformation Campaign Plan, and the U.S. Special Operations 
Command (USSOCOM) Special Operations Forces (SOF) Logistics Study, 
USASOC redesigned and reorganized its organic Combat Support Service 
(CSS) force structure. The new CSS force structure supports 
expeditionary Army Special Operations Forces (ARSOF), provides early, 
rapidly deployable CSS force structure, provides logistical staying 
power to deployed ARSOF by tying into the operational theater support 
structure, and structures ARSOF CSS units so they are co-located and 
habitually train with their supported units.
    Prior to transformation, the USASOC CSS force structure consisted 
of centralized organizational level support from detachments and 
platoons organic to tactical units, direct support from the 528th 
Special Operations Support Battalion (SOSB), and operational level 
support from Theater Units coordinated by the Special Operations 
Support Command (SOSCOM). This CSS structure was inadequate to provide 
sustained CSS to deployed ARSOF.
    To alleviate the shortfall in organizational support to Special 
Forces Groups (SFG), the Group Service Detachments were merged with the 
Special Forces Forward Support Companies of the 528th SOSB to create 
five Special Forces Group (SFG) Support Battalions transitioning to a 
decentralized structure. The Group Support Battalions are now assigned 
to and located with the SFG, and are commanded by CSS Lieutenant 
Colonels. In the Ranger Regiment, Ranger Support Platoons were 
transformed to Ranger Support Companies, organic to and co-located with 
each Ranger Battalion, to provide the required tactical logistical 
support. These companies are commanded by CSS Captains. Additionally, a 
Ranger Support Operations Detachment was added to the 75th Ranger 
Regiment Special Troops Battalion to provide field grade oversight to 
the logistics planning and operations in the Regiment.
    SOSCOM was reorganized to create the Sustainment Brigade (Special 
Operations) (Airborne) (SB(SO)(A)) which provides synchronization of 
logistical operations and planning, and battlefield command and control 
for logistical and Combat Health Support operations in support of 
USASOC or a SOF Joint Task Force. The most critical component of this 
command is the ARSOF Liaison Element (ALE). ALEs are organic to the 
SB(SO)(A), in direct support of the five Theater Special Operations 
Commands (TSOC), with duty at the Theater Army Service Component 
Command (ASCC). The ALE coordinates ARSOF CSS requirements with the 
ASCC in accordance with ASCC Title 10 or Executive Agent 
responsibilities.
    Increasing CSS structure in concert with the growth of Special 
Forces and Ranger units remains a challenge. The transformation of CSS 
units in USASOC has improved support in war and garrison.
    Mr. Smith. Special Forces Warrant Officer training and 
commissioning is now conducted entirely at Ft. Bragg. Would you help us 
understand the significance of this approach by contrasting it with how 
it was done previously? How is this more effective and cost-efficient?
    General Wagner. It is more effective because we can now include 
more training relevant to being a Special Forces Warrant Officer. It is 
more cost efficient because there is less time required to complete all 
the necessary training (transition from Non-Commissioned Officer (NCO) 
to Chief Warrant Officer) and there is less travel involved. 
Previously, once NCO were selected for the Warrant Officer program, 
they typically waited weeks or months for a class date at Fort Rucker, 
Alabama's, Army Warrant Officer Candidate School (WOCS). After 
completing the 4 weeks of WOCS, they returned to their unit to await a 
class date for the 11 week Special Forces Warrant Officer training 
course at Fort Bragg, North Carolina. Now, they make one trip to Fort 
Bragg where we design, control, and schedule the training to optimum 
effect.
    Mr. Smith. Please explain the vision of the Special Operations 
Recruiting Battalion for increasing the number of recruits for USASOC. 
It is more than a matter of increasing the number of recruiters, 
correct?
    General Wagner. We recruit the majority of our Soldiers from 
existing Army units--such as Brigade Combat Teams (BCT). The Special 
Operations Recruiting Battalion (SORB) is the only recruiting battalion 
in the Army focused solely on recruiting in-service Soldiers. Our 
vision is to have recruiting teams, augmented with trained Special 
Forces, Civil Affairs, and Psychological Operations personnel, co-
located with the major concentrations of the Army's combat units. We 
also need the ability to quickly move recruiters from one installation 
to another as the availability of potential recruits ebbs and flows 
with BCT deployments. This management is provided by a Battalion 
command and control structure that understands this mission and SOF 
unique requirements. So yes, it is not about increasing the number of 
recruits--we have not increased the overall target number of recruits 
in three years. It is more about giving as many Soldiers as possible 
access to accurate information about careers in Army Special 
Operations, and then getting the right recruits to the training.
    Mr. Smith. Special Forces soldiers must achieve a passing language 
rating of ``1, 1, 1'' in reading, speaking and understanding to 
graduate. What was the standard before? Was there previously no 
language requirement for an SF soldier?
    General Wagner. Previously there was a goal of 0+/0+. If a Soldier 
failed to achieve this goal they were still awarded the Green Beret and 
sent to their unit with instructions to continue their language study. 
The new 1/1/1 standard provides both a better initial capability as 
well as a stronger base from which to improve.
    Our approach is that we teach 10 core languages based on current 
and projected requirements. We now make language assignments 
immediately after a Soldier's selection for Special Forces Training, 
doing so based on Defense Language Aptitude Battery exam scores and 
personal interviews. Then, we reinforced the learning process through 
the use of technologies such as Rosetta Stone and grouping students for 
training based on languages and regions of the world. We now 
incorporate language and cultural training throughout the Special 
Forces Qualification Course training pipeline, and we incorporate 
language-capable role players in our Culmination Exercise, Robin Sage.

Definition of 1/1/1:

    Reading: Sufficient comprehension to read very simple connected 
written material in a form equivalent to usual printing or typescript.
    Listening: Sufficient comprehension to understand utterances about 
basic survival needs, and minimum courtesy and travel requirements.
    Speaking: Able to satisfy minimum courtesy requirements and 
maintain very simple face-to-face conversions on familiar topics.

    Mr. Smith. What modernization concerns keep you awake at night?
    General Wagner. [The information referred to is classified and 
retained in the committee files.]
    Mr. Smith. How has your component command supported or taken steps 
to execute the vision contained in the Capstone Concept for Special 
Operations 2006?
    Admiral Kernan. To achieve our national strategic goal of defeating 
terrorist extremism and creating a global environment inhospitable to 
terrorist extremists, NAVSOF is increasing its capability to wage 
Irregular Warfare (IW) against Fourth Generation Warfare adversaries. 
Naval Special Operation Forces (NAVSOF) will continue to provide the 
nation with the premier maritime special operations (SO) capability; 
uniquely trained to access maritime environments to conduct SO. 
NAVSOF's highest priority is to conduct IW against the global network 
of terrorist and insurgent groups. Much of this capability is being 
sourced from our two newest commands, Support Activity Teams ONE and 
TWO (Questions #8 refers). Naval Special Warfare Command (NSWC) 
recruits, organizes, trains, equips, deploys, and sustains NAVSOF to 
conduct UW, FID, Counterterrorism (CT), Counterproliferation (CP), 
Direct Action (DA), and Special Reconnaissance (SR) in support of GWOT 
and other operations as directed. To adapt NAVSOF to more effectively 
prosecute the Global War on Terrorism (GWOT), NSWC has taken steps in 
the areas of specialized training, technology development, and 
equipment procurement to improve our Find-Fix-Finish-Exploit-Analyze 
(F3EA), Foreign Internal Defense (FID) and Unconventional Warfare (UW) 
capabilities.
    Mr. Smith. What is your view of recruiting and retention? a. What 
is the general quality of recruits and is there a need to improve 
recruiting methods? What steps are in place to make such improvements?
    Admiral Kernan.

Recruit Quality:

    Overall the quality of recruits is satisfactory with some recent 
improvements noted. Within the last year we have some interesting 
trends. On the one hand, we see increased physical preparation. Much 
stricter quality control has been established in the pipeline; we are 
seeing a much lower number of candidates who fail the basic Physical 
Screening Test upon arrival at BUD/S. In addition, an increased number 
of recruits are achieving higher scores on their PST. There are several 
possible explanations for this. First of all, there is more information 
available to potential SEAL candidates about the training pipeline then 
ever before, which obviously helps candidates prepare more effectively. 
Recent initiatives such as the CNRC contracted Mentor Program, which 
gives Delayed Entry Program (DEP) personnel access to contracted 
retired SEALS, also appears to be paying significant dividends in 
helping candidates prepare physically and mentoring.
    On the other hand, we are still seeing students that show up for 
SEAL training that are not serious candidates.

Recruiting Methods:

    There is a need to continue to improve recruiting methods to ensure 
those candidates with physical and mental attributes conducive to 
success in the Naval Special Warfare community are exposed to NSW 
career opportunities. Based on analysis of years of training data, we 
know that successful SEAL training graduates generally do well on the 
Physical Screening Test and have participated in competitive sports 
where teamwork, commitment and mental toughness are keys to success. In 
light of that, we are working with CNRC to expand the NSW-developed 
``Navy SEAL Fitness Challenge'' that has already been piloted in 
several venues throughout the country, using the NSW PST is used as an 
athletic event. The SEAL Fitness Challenge is envisioned as a campaign 
with a local high school component and regional and national events 
that enliven interest in young athletes. When combined with both a 
targeted media effort and a contracted relationship with a national 
high school coaches organization, we have high hopes for this 
initiative.
    Other important recruiting/accessions efforts that are underway and 
require continued effort:

    - Media outreach to support targeted marketing within the US 
population and the Fleet. While there are some good supporting media 
initiatives, more work is required in this arena.
    - Establishment of a BUD/S preparation course to better prepare 
SEAL candidates. Pilot course expected to start in November 2007.
    - Psychological testing of SEAL candidates to complement current 
physical screening. A very promising test battery has already been 
developed and tested on four classes of BUD/S students. Further testing 
is planned at RTC and at Recruiting Stations. Analysis of 
implementation options has started recently.

    Mr. Smith. b. What is the general state of retention? What steps 
have been taken or need to be taken to maintain an effective retention 
situation?
    Admiral Kernan. b. The overall health of SEAL retention is very 
good. Overall SEAL retention for FY07 is 86.4% compared with 83.2% 
during FY02 (stop-loss) year. Below is a comparison between FY04 and 
FY07 as we have seen a steady increase each year since FY04.
 
                                       FY04  FY07       Percent +/-Zone A                                 67.8  96.3                 +28.5
Zone B                                 78.6  86.2                  +7.6
Zone C                                 68.3  81.3                 +13.0
Zone D                                 97.3  99.1                  +1.8
Zone E                                 45.5  39.1                  -6.4TOTAL                                  70.6  86.4                 +15.8

    Incentives: Increased SDAP and SRB while adding AIP and CSRB.
    CSRB should remain in effect. Reducing funding for CSRB during this 
time would have a negative effect not only on Zone E but those members 
in Zones C and D. Recommend keeping SDAP at current level and 
increasing SRB level.
    Mr. Smith. ``WARCOM'' is at 87% manning levels for enlisted SEALs 
and you expect this to drop to 77%. What are all the causes of this 
drop?
    Admiral Kernan. Current manning level for enlisted SEALs is 94%. On 
1 October 2007, 150+ additional SEAL billets will come online. Due to 
the rapid manpower growth and rate of graduation, we expect manning 
levels to drop to approximately 77%. This will be mitigated by SEAL 
production process efforts which will increase SEAL qualification 
training graduates and execute the planned growth.
    Mr. Smith. The Command has increased annual accession efforts to 
address the need for more enlisted and officer personnel. How is this 
being accomplished? Why was this not initiated earlier?
    Admiral Kernan. The Navy has gone to great lengths to establish 
policies, offer retention incentives and improve the manning of what is 
one of the most critical communities in the Global War on Terrorism. 
This occurred recently due to 2006 QDR directed growth. Naval Special 
Warfare focused Navy actions for recruiting and retention:

      -- The significant increases in bonuses for enlisted personnel 
such as the $40K enlistment bonuses for SEAL recruits and the $60K, 
$75K, $75K Zone A, B & C Selective Reenlistment Bonuses which has 
improved overall reenlistment rates by 6%.
      -- Adding Assignment Incentive Payments for Naval Special Warfare 
personnel over 25 Years of Service in non USSOCOM billets.
      -- The creation of the Naval Special Warfare Center recruiting 
directorate led by a SEAL O-6 to assist Commander, Naval Recruiting 
Command (CNRC) with the great challenge of recruiting young men with 
the determination and ability to succeed as SEALS.

    To combat recruiting discrepancies and Recruit Training Command 
attrition NAVPERS, Commander, Naval Recruiting Command and Commander, 
Naval Special Warfare Center have been working together to implement 
several actions including the following:

    * In January 2006, Chief of Naval Personnel issued a Special 
Warfare/Special Operations accessions planning order to provide 
strategic direction.
    * In March 2006, CNRC recruiting districts administered swim tests 
with the PST prior to offering the recruit a SEAL, SWCC, Diver or EOD 
Challenge contract.
    * In March 2006, CNRC began hiring former SEAL/EOD personnel as 
contractors to work at CNRC recruiting districts as the Naval Special 
Warfare and Special Operations program coordinators. As of May 2006, 14 
of 31 contractors have been hired.
    * Naval Special Warfare detailed a SEAL Master Chief to CNRC 
Headquarters.In addition, a Navy Master diver and a Master EOD 
technician will be joining the CNRC team in order to better align 
recruiting policy and goals.
    * The Navy established the SEAL (Special Operator-SO) and Special 
Warfare Combatant Crewman (Special Warfare Boat Operator-SB) rating in 
October 2006. Aligned with Sea Warrior, the rating enables Special 
Warfare/Special Operations to work solely in their own rating and 
compete for promotion against their respective peer groups.
    * Established a Special Warfare/Special Operations recruiting goal 
for Naval Recruiting District.
    * Organized a cross-functional working group to attempt to develop 
psychological screening tests for identifying recruits with a higher 
chance of success in Special Warfare/Special Operations.
    * In February 2006, CNRC raised the enlistment bonus for SEALS from 
$18K to $40K; EOD from $15K to $30K; Navy Diver from $12K to $25K; SWCC 
from $12K to $18K.

Additional Navy initiatives implemented to improve retention:

    * Implemented SOF Critical Skills Retention Bonus on 08 February 
2005.
    * Increased Special Duty Assignment Pay $450 per month May 2007.
    * Began paying Assignment Incentive Pay to Sailors with 25 years or 
more of service as of 1 January 2005.
    * Implemented targeted Selective Reenlistment Bonus payments in 
order to improve retention rates.

    RADM Kernan is chairing an NSW/NRC/NSTC process that is working to 
identify and implement policies and business practices that optimize a 
candidates chances for success in SEAL training while improving 
efficiency of the entire process. BUD/S did have some success 
decreasing attrition; and due to the large amount of recruits that CNRC 
has accessed we have added another BUD/S class during FY07.
    The Navy's FY06 goal for enlisted recruiting was 1400 and we did 
not meet it, producing only 829 SEAL candidates. However, the Navy has 
revamped its business practices on SEAL and SWCC recruiting and 
pipeline training. Changes such as the implementation of the SEAL and 
SWCC ratings (as of October 2006) are streamlining the time it takes 
for a recruit to get to BUD/S. The average timeline for a recruited 
BUD/S candidate to complete all SEAL training to earn his warfare 
designation is 18-24 months, so the effects of our changes in FY06 have 
had direct positive results in FY07 (1222 recruited for a goal of 
1397--87%). Additionally, the hiring of the ex-Special Warfare and 
Special Operations Sailors by CNRC will continue to improve both 
quality and quantity of the recruits.
    For Officer growth, Naval Special Warfare has increased annual 
accessions from 63 to 83. Accessions have been increased across all 
commissioning programs--U.S. Naval Academy, ROTC, and Officer Candidate 
School--and also in the number of Lateral Transfers from other 
communities within the U.S. Navy.
    Mr. Smith. The total number of SEALs--enlisted and officer--seems 
low when compared with the total manning figure of 47,000 in the SOF 
community. What is the tail-to-tooth ratio of Naval Special Warfare 
Command?
    Admiral Kernan. Tail-to-tooth ratio is 86%.
  
TOOTH (Total SEALs/SWCC Officers and Enlisted):
                                                                  2729
TAIL (Total Technicians--Support Personnel):
                                                                  3181
Total TOOTH and TAIL:
                                                                  5910
TOOTH to TAIL Ratio:                                         2729/3181
                                                                   86%

    Mr. Smith. Why is the greatest manning shortfall found at the mid-
grade, or O-4 level? What is the cause of this?
    Admiral Kernan. Our shortage of O-4's has been created by a marked 
increase of SEAL Lieutenant Commander billets in a short five year 
timeframe, from FY03 to FY08 SEAL Officer Programmed Authorizations 
(OPA) have increased from 101 to 200 (99%). The current 97 SEAL 
Lieutenant Commanders would have filled those 101 FY03 OPA requirements 
very well but the 99% increase in O-4 requirements cannot be filled 
without time to grow Naval Special Warfare Lieutenant Commanders from 
the Ensign and Lieutenant Junior Grade pay grades. In an effort to meet 
the SEAL mid grade officer requirements Navy has increased SEAL 
accessions every year since 2002 and is diligently working to retain 
the current inventory with retention incentives such as Officer 
Critical Skills Retention Bonus.
    Mr. Smith. Please describe in greater detail the current and 
planned ``Special Warfare Combatant Crew,'' or ``SWICK,'' curricula 
reforms mentioned in your testimony. What do these entail and how do 
they affect standards and future skillsets within the community?
    Admiral Kernan. In early 2006, Commander Naval Special Warfare 
Center initiated a bottom-up review of the SWCC basic training pipeline 
(Basic Crewman Training and Crewman Qualification Training COIs). Upon 
completion of this review, the recommended changes were implemented in 
order to improve course efficiency and effectiveness. The changes 
include:
    Basic Crewman Training (BCT): COI duration reduced from eight weeks 
to seven weeks (two weeks indoctrination and five weeks of BCT 
training). Weapons Training, Land Navigation, and Water Rescue phases 
were moved to the Crewman Qualification Training (CQT) COI. This shift 
allowed trainees greater opportunity to enhance individual skills 
required to complete training without changing the passing standards of 
performance.
    Crewman Qualification Training (CQT): COI duration increased from 
12 weeks to 14 weeks; as noted above, Weapons Training, Land 
Navigation, and Water Rescue phases were moved to the Crewman 
Qualification Training (CQT) COI.
    Further changes were implemented IOT maximize training cadre 
capability and SWCC basic training pipeline efficiency. CQT classes are 
now composed of the graduates from two BCT classes. As a result, there 
are now a total of six BCT classes, vice four, conducted each year; and 
a total of three CQT classes conducted each year vice four previously.
    Taken together, the above noted changes to the SWCC training 
pipeline decreased attrition rates without lowering training standards.
    Mr. Smith. Please explain the concept of and plan for the Support 
Activity Teams.
    Admiral Kernan. In February 2005, Commander, Naval Special Warfare 
Command (COMNAVSPECWARCOM), directed establishment of two Support 
Activities to provide more robust, tactical-level intelligence, 
surveillance, and reconnaissance (ISR) capability and capacity in 
support of Naval Special Warfare Command operations.
    On December 7, 2006, Naval Special Warfare Group One commissioned 
Support Activity (SUPPACT) One in San Diego, CA. Support Activity Two 
was commissioned 19 July, 2007, in Virginia Beach, VA. The Support 
Activities are commanded by SEAL Commanders (pay-grade 0-5).
    SUPPACTS accomplish their missions by operating like other 
conventional Army and Marine Corps ground support units--by integrating 
and organizing multi-discipline, combat support personnel with 
administrative, logistical, and analytical skills to support SEAL 
combat elements. Naval Special Warfare units have been receiving this 
type of combat support and combat service support on an extended basis 
from the Navy's Individual Augmentee Program. Establishment of SUPPACTs 
enables Naval Special Warfare Command to permanently assign personnel 
to provide necessary, dedicated support at the earliest opportunity in 
the NSW Inter-Deployment Training Cycle--thus providing better, more 
integrated support to combat operators. Similar to other Services' 
combat and combat service support, these personnel also coordinate and 
deconflict tactical-level operations with other DoD units.
    Increasing and focusing subject matter expertise at the tactical 
level of Naval Special Warfare operations fulfills the intent of the 
2004 Quadrennial Defense Review (QDR) by engaging non-SOF forces in 
support of SOF's prosecution of the GWOT and enabling more SEALs to 
focus on combat operations.
    Mr. Smith. What is your understanding of how the Navy's Chief of 
Naval Personnel will execute the stated goal of pursuing a ``focused 
and targeted enlisted SEAL recruiting'' as his number one priority?
    Admiral Kernan. My understanding and hope is that the current 
emphasis placed on SEAL recruiting will be supported well into the 
future. Some important aspects of that current emphasis:

    - SEAL recruiting clearly established and promulgated as CNP's #1 
priority.
    - Mandatory PST in DEP. (prior to 2006, no swim was included)
    - Contracted NSW/NSO mentors in each of the 26 NRDs (majority are 
retired SEALs)
    - NRD recruiters given hard goals for SEAL candidates
    - Establishment of the BUD/S preparation course at Great Lakes 
(Nov. 2007)
    - Development of a psychological test battery intended for SEAL 
screening (ongoing)
    - Support to the SEAL fitness challenge program and a partnership 
with the national high school coaches association to help best identify 
candidates with the mental and physical attributes valued in the SEAL 
community.

    In addition, within the constraints of a stretched NSW force, I 
have endeavored to help with SEAL recruiting efforts wherever possible. 
I established a NSW Recruiting Directorate (NSW RD), headed by a SEAL 
O-6, that serves as a leveraging force to help focus recruiting 
efforts, utilizing the lessons learned from many years of tracking 
successful and unsuccessful SEAL candidates. In addition to developing 
the Navy SEAL Fitness Challenge concept, the NSW RD has facilitated 
SEAL presence at a multitude of important recruiting efforts and has 
expanded NSW's media reach considerably.
    Mr. Smith. What exactly is the attrition rate at BUD/S? Might this 
be improved?
    Admiral Kernan. The historic attrition rate for BUD/S is 74% for 
all students and 78% for enlisted students. Over the period of the last 
two years the attrition rate was 70% for all students and 74% for 
enlisted (This is over a 15% improvement in success rate). We expect 
this attrition rate to continue to improve as we improve our targeted 
recruiting programs and as we implement a Pre-BUD/S preparatory course.
    Mr. Smith. The graduation rate in 2006 increased by 6%. Is this a 
sign of future rates? If so, why?
    Admiral Kernan. We believe the graduation rate increase experienced 
in 2006 is an indication of future rates, and our expectation is that 
future graduation rates will continue to improve for several reasons. 
First of all, we have recently implemented a professional mentorship 
program at BUD/S that we believe will not only help reduce DOR 
attrition, but will also help us develop a more mature and mentally 
prepared SEAL. Additionally, recent Navy efforts at targeted recruiting 
through events such as the SEAL Fitness Challenge will help us attract 
better qualified candidates that have demonstrated the attributes 
necessary for success during BUD/S training and a Naval Special Warfare 
career. Attributes such as goal-setting, self-discipline, and the 
desire to succeed. Last, the Pre-BUD/S preparatory course at Great 
Lakes will give young men the opportunity to properly prepare 
themselves physically and mentally for the rigors of SEAL training 
under the guidance of mentors and physical training experts. We expect 
this will have an almost immediate impact on the number of medical 
losses due to improper physical preparation (injuries such as stress 
fractures) as well as reduce the number of physical performance 
failures during basic SEAL training.
    Mr. Smith. What is the attrition rate of recruits prior to their 
actual start of BUD/S? Why is this so great?
    Admiral Kernan. Historic attrition during our Indoctrination Course 
is approximately 10%. The FY 2007 rate went up to 25%). Many students 
quit before they start the First Phase of training. We believe there 
are two factors contributing to this trend.
    First, as of October 2006 when the enlisted SO rate was 
established, Basic Underwater Demotion/SEAL (BUD/S) training is now a 
Navy ``A'' school. Prior to that point, all of our recruited BUD/S 
students (those not lateral transferring from the fleet) went to a 
``source rate'' A school prior to SEAL training. Pre-BUD/S attrition in 
that part of the pipeline was spread out among a variety of A schools 
and was not well tracked. Now, that attrition has moved to BUD/S and is 
much more visible.
    Second, we believe that we are seeing an unintended consequence of 
the continued high priority that CNRC is placing on filling the SEAL 
schoolhouse. Aggressive recruiting campaigns coupled with significant 
financial incentives to candidates that complete the SEAL training 
pipeline have attracted some percentage of students that would not have 
otherwise considered being a SEAL. We know that a true passion for a 
NSW career is critical to success in the pipeline; when a young man's 
motivation is based primarily on other factors, his lack of commitment 
often becomes evident in early attrition.
    Mr. Smith. Your command seems correctly focused on the recruitment 
and throughput phases of SEAL development and also targeted solutions 
for retention. But what about ``non-compensation'' types of solutions, 
such as leadership development and improved business practices and 
better approaches to operationalizing the force? A recent reform effort 
called ``Naval Special Warfare-21'' successfully ``operationalized the 
operators.'' What about ``operationalizing the direct and 
administrative support'' to SEALS? Are there opportunities to improve 
WARCOM's operational support to SEALS?
    Admiral Kernan. Prior to Naval Special Warfare 21 (NSW 21), three 
SEAL Teams on each coast would deploy SEAL Platoons to Geographic 
Combatant Commanders based upon validated theater requirements and 
availability of forces. The SEAL Teams were organized geographically so 
that a number of platoons from each Team would be required to fulfill 
existing commitments.
    NSW 21 created a fourth SEAL Team on each coast and reduced the 
number of platoons at each Team from eight to six. Support personnel 
that were previously inherent to the individual commands were 
synergized under a newly formed Logistical Support Unit in order to 
more effectively manage support requirements for deploying units. Under 
this new construct, the entire SEAL Team would deploy with augmentation 
from a variety of units as a Naval Special Warfare Squadron.
    NSW 21 operationalized direct and administrative support by 
establishing a Logistics Support Unit (LOGSU) on each coast through the 
consolidation of Combat Service Support (CSS) and Combat Service (CS) 
assets under a single hat. The LOGSUs are responsible for CSS support 
in CONUS and for sustainment of deployed forces. Each LOGSU is 
approximately sixty percent Sea-duty and forty percent Shore-duty. 
LOGSU personnel regularly deploy to support NSW operations as 
augmentation for each deploying Squadron to provide support for 
deployed operations. Recently, Supply Officers have been assigned to 
the Teams as the CSS Troop Leaders in the Professional Development 
Phase of the Inter-deployment Training Cycle (ITDC) to ensure the SEAL 
Team's Expeditionary Operational Logistics requirements of are managed 
in garrison and deployed.
    In the ongoing OIF and OEF operations, the direct and 
administrative support personnel that are within the Naval Special 
Warfare claimancy are not sufficient to fulfill all the existing 
support requirements. U.S. Navy individual augmentees have been 
critical to the success of Naval Special Warfare across the battlefield 
by filling essential support positions. The Navy is currently providing 
240 Navy augmentees annually to support Naval Special Warfare. Another 
ongoing effort is WARCOM's POM 10 submission to USSOCOM for 177 
personnel in order to operationalize the Naval Special Warfare Groups 
so that they may deploy as the core element of a Joint Special 
Operations Task Force. Additionally, 800 personnel were submitted into 
the POM 10 cycle to support expeditionary Echelon IV combat support/
combat service support requirements to alleviate reliance on Navy 
Individual Augmentees.
    Mr. Smith. Please qualify for us the ``continual improvements'' in 
instructor and staff development, and leadership training. What about 
this gives you confidence that attrition rates will be reduced without 
a sacrifice in standards?
    Admiral Kernan. The instructor staff is just one element of the 
NSWC instructional system, so instructor training is not the sole 
factor in attrition. However, continual improvement in instructor 
performance ensures other counter-attrition initiatives are fully 
effective. There are four major areas in which high-performance 
instruction can prevent the loss of SEAL and SWCC students who pass a 
rigorous selection process:

    1. Applied principles of learning and motivation. Instructors are 
expected to develop instructional techniques based on recognized 
research from the cognitive sciences. These fundamentals enable 
instructors to make sound decisions in any given learning environment. 
They are given the skills to continually analyze student performance 
and immediately respond to variable student needs, whether in the 
classroom or the field.
    2. Presentation and briefing skills. Practical exercises in the 
instructor qualification process focus on teaching lessons and 
presenting briefs that are drawn from NSW curricula. Unlike the generic 
presentation-skills training stressed in standard Navy instructor 
courses, the NSW Instructor School centers on NSW specific training.
    3. Critical review of curriculum, methods, and standards. 
Instructor responsibility extends beyond training delivery to an active 
role in continuously improving the training system. Each instructor is 
taught to identify deficiencies or inefficiencies in any part of the 
curriculum. They are expected to maintain active relationships with 
instructional systems specialists to fine-tune the delivery, 
assessment, and maintenance of their courses.
    4. Mentorship and Instructional Leadership. The special 
responsibilities and critical role of the NSW Instructor are stressed 
in formalized instructor training and ongoing professional 
relationships. Mentorship has two dimensions. The first is instructor-
to-student mentorship. Second, and equally important, is mentorship 
within the instructor staff--senior instructors and supervisors guiding 
the professional development of junior instructors.
    Finally, initial instructor training is seen as the first step in a 
professional development continuum, not as a singular instructional 
event. The continuum includes regular in-service training and 
evaluation, but will also provide consultation from technical training 
experts. This includes customized workshops designed to meet the needs 
of any training phase or specialized course.
    The initiatives cited above are specifically designed to improve 
student success while preserving the high standards placed on SEAL and 
SWCC qualification.
    Mr. Smith. How has your component command supported or taken steps 
to execute the vision contained in the Capstone Concept for Special 
Operations 2006?
    General Wooley. AFSOC has focused on the fact that our adversaries 
are ideologically driven and globally networked. Traditional kinetic 
weapons are less important than exploiting influence, information and 
intelligence. Improvements in EC-130J COMMANDO SOLO aircraft contain 
upgrades for cell phone and PDA capabilities in the target audience, as 
well as satellite and wireless internet broadcasts. Our unmanned ISR 
capabilities have greatly expanded, providing SOF-trained specialists 
to process, exploit, and disseminate intelligence information. As part 
of this process, we stood up two squadrons specifically to operate UAVs 
and to process intelligence information. QDR 05 doubled our specialized 
aviation manpower. This growth will continue to enable our aviation 
advisors to help coalition partners develop an internal defense 
capability. This low visibility approach will facilitate indirect use 
of US military power without a large US presence, and help friendly 
nations counter terrorist threats.
    Mr. Smith. What is your view of recruiting and retention? a. What 
is the general quality of recruits and is there a need to improve 
recruiting methods? What steps are in place to make such improvements? 
b. What is the general state of retention? What steps have been taken 
or need to be taken to maintain an effective retention situation?
    General Wooley. The general quality of AF recruits has remained 
high since we have the luxury of being selective while continuing to 
meet or exceed recruiting goals. Consistent with the overall AF quality 
of recruits, AF SOF recruiting quality has remained high as well. The 
introduction of recruiter incentives for bringing recruits into some 
critical SOF specialties has been beneficial. Keep in mind that getting 
new recruits in the door has not historically been a problem, but 
rather getting them through their initial qualification training in 
several demanding SOF specialties. Significant washout rates and 
training pipeline backlogs in a few specialties have hindered our 
ability to fully man some operational units. Within the AF (AFSOC and 
AETC), we are addressing these issues. In fact, we have steadily 
increased production/throughput over the past 3 years. Our current 
manning picture in some specialties may give the appearance of 
remaining low due to programmed QDR growth in the out years.
    Mr. Smith. Your testimony states that your number one issue is 
recapitalizing your fleet. What action have you taken so far and what 
can this subcommittee do to assist this effort?
    General Wooley. We have worked closely with Air Combat Command and 
USSOCOM to complete the formalized validation process required by the 
Joint Capabilities Integration and Development System. In October 2006 
the Initial Capabilities Document (ICD) received Joint Requirements 
Oversight Council (JROC) validation. Since then we have completed an 
Analysis of Alternatives and produced a Capability Development Document 
or CDD. We are currently waiting the final stage of validation from the 
JROC via memorandum regarding the HC/MC-130 Recapitalization CDD. We 
believe we have provided the required documentation and the memorandum 
providing validation of the CDD should be forthcoming shortly.
    With Congressional approval of fiscal year 2008 advance procurement 
funds and the JROC's endorsement of our urgent need to begin procuring 
new aircraft, I am hopeful that the Undersecretary of Defense for 
Acquisition, Technology and Logistics (OSD/ATL) and the Assistant 
Secretary of the Air Force for Acquisition (SAF/AQ will move forward 
quickly to begin the acquisition. It is my understanding the 
determination of an acquisition strategy regarding full and open 
competition or a sole-source action has yet to be decided. This appears 
to be the biggest issue at this point. Once that acquisition decision 
is made we will have better visibility on meeting the warfighter 
required IOC, and enact the recapitalization effort for this critical 
capability.
    Mr. Smith. Do you currently have enough airlift capacity to meet 
the projected increase in Army and Marine Special Operations Forces? If 
not, what additional capacity would you require?
    General Wooley. The 2006 QDR yielded unprecedented SOF growth and 
AFSOC must continue critical programming actions in order to support 
SOF mobility. AFSOC did not gain additional airlift force structure 
commensurate with SOF ground growth. It is therefore imperative that we 
improve our current force as we recapitalize and pursue acquisition 
efforts in order to support increased airlift requirements into the 
future. AFSOC currently has a programmed fleet of 65 MC-130s (23 MC-
130Ps, 20 MC-130Hs, 10 MC-130Es, and 12 MC-130Ws).
    Based on QDR guidance, the AFSOC C-130 force will necessarily 
increase, incorporating requirements due to increased SOF strength and 
a new AFRICOM combatant command. This force will include MC-130H/W and 
recapitalized MC-130E/P SOF tankers. In addition, AFSOC is pursuing a 
three-year acceleration of CV-22 deliveries, critical to getting this 
capability to the field. This planning is targeted toward obtaining the 
optimal force required to implement the SOF Pre-deployment and Training 
Cycle, allowing continual long term rotation of SOF forces throughout 
the globe.
    AFSOC is also pursuing additional commercial off-the-shelf light 
and medium aircraft to fulfill immediate theater combatant commander 
intratheater lift requirements. We are also planning long range 
requirements to include a transformational capability that goes beyond 
the speed and range of the MC-130, adds greater cargo capacity than the 
CV-22, and increases clandestine SOF air mobility. These aircraft will 
provide SOF rapid, self-deployable, global, high threat, anti-access 
capability with agility in the objective area independent of prepared 
runways. This conceptual aircraft is required to support and improve 
SOF rapid global mobility beyond 2018.
    Mr. Smith. How mature is the AFSOC Predator Squadron concept? Has 
this been deployed overseas? Is this in the training/ramp-up mode? When 
should we expect Initial Operational Capability and/or Full Unit 
Equipped status?
    General Wooley. AFSOC Predator concept is mature as evidenced by 
two years of 3 SOS operational experience since the squadron's 
activation on 28 Oct. 05. The squadron is organized to fly Combat Air 
Patrols from CONUS and operate overseas Launch & Recovery Elements 
which take-off and land the MQ-1s. AFSOC's concept for the 3 SOS is 
well documented in its Concept of Operations/Concept of Employment, 
USSOCOM Hunter-Killer Requirement, and the Unit Manning Document. 
Today, 3 SOS flies six Combat Air Patrols (i.e. Orbits) and operates 
two Launch & Recovery sites in support of Operation IRAQI FREEDOM and 
Operation ENDURING FREEDOM.
    AFSOC personnel are deployed overseas operating the Launch & 
Recovery Elements. MQ-1 aircraft that are assigned to AFSOC are also 
deployed.
    Even with this success, we're not yet meeting the full requirement 
to special operations forces. That requirement calls for having the 
capability to operate four simultaneous Launch & Recovery Elements; 
today we do two. Requirement also calls for a rapidly deployable, 
expeditionary capability; we're working towards having this capability.
    AFSOC should have its full unit-equipped status in FY10. This is 
when the USAF can provide the remaining pieces of equipment required to 
claim full operational capability. AFSOC can declare Initial 
Operational Capability when operational control of the fielded MQ-1s 
transfers from CENTCOM to USSOCOM control.
    Mr. Smith. What are the manning requirements of the Predator 
squadron and what assumptions were used to establish these 
requirements? Your testimony includes the term ``Airmen'' when 
describing Predator utilization. Should we interpret this to mean that 
AFSOC enlisted personnel will pilot these aircraft? If not, why not? If 
so, how will their training requirements be met? Will their training be 
overseen by the Air Force? What will be the role and involvement of 
contractor support?
    General Wooley. For the Predator Squadron, AFSOC's current manning 
requirements to fly 6 Combat Air Patrol are: 100 officers, 171 
enlisted, and 2 civilians for a total of 273. AFSOC would be flying 6 
CAPS 24/7 with the capability to launch from up to 4 locations. Crew 
would consist of 1 pilot and 1 sensor with a crew ratio of 11.4 crews 
per CAP for a total of 92 pilots (includes Commander, Director of 
Operations, Stan Eval, Safety, Plans, and Tactics/Current Ops) and 86 
sensors (includes Stan Eval)
    Launch and Recovery Element (LRE) crews would consist of 4 pilots 
and 4 sensors per LRE and will also have limited mission coordinators 
and communications support in austere locations. Mission Coordinators 
would be earned as a post for a total of 6 officers and 40 enlisted (to 
include 10 enlisted for LRE operations). Maintenance would be Contract 
Logistics (CLS) for all aircraft and would require government oversight 
of the contract (QAEs) that would total 12 enlisted. Unit would operate 
and earn squadron overhead as applicable to an operations squadron by 
applying approved Air Force Manpower Standards.
    The term ``Airmen'' means both officers and non-commissioned 
officers. In the two-person MQ-1 crew, enlisted members serve as sensor 
operators while officers perform pilot duties. Enlisted crews are 
critical to ensuring control of the laser designator and keeping 
``eyes'' on target. Enlisted sensor operators train at Creech AFB as 
part of the Formal Training Unit where training is overseen in 
accordance with USAF regulations and operating instructions. Air Force 
only utilizes rated-officers to fly the MQ-1 because the MQ-1 operates 
in heavily congested Air Space and needs to be able to communicate with 
other manned aircraft.
    The role of contractor support includes: contractor logistics 
support for maintenance; operational-level maintenance support to 
deployed aircraft and other MQ-1 equipment. AFSOC is also examining the 
use of contractors for launch & recovery element duties.
    Mr. Smith. Your testimony mentions the skills of Battlefield Airmen 
(i.e., Combat Controllers, Pararescuemen or ``PJs,'' and Combat 
Weathermen) and note that they are embedded with ground forces. Please 
describe this in greater detail. Are these airmen deployed as units, 
deployed as individuals and assigned to Army and Navy SEAL units, or 
both? Are they also assigned to General Purpose Forces? How are these 
individuals or units trained and prepared for this joint tactical 
environment?
    General Wooley. AFSOC's Special Tactics (ST) forces are flexible in 
their employment. PJs teamed with CCT comprise specially trained teams 
uniquely suited for personnel recovery missions from an air platform. 
Often, that Special Tactics expertise will be teamed with ``shooters'' 
who defend/secure crash sites as the PJs recover personnel and 
sensitive equipment, and the CCT provides fire support and long-range 
communications. Special Operations Weather Team (SOWT) operators are 
attached to each service's Special Operations Forces with a special 
focus on Army Special Ops (Special Forces, Rangers and Aviation).
    ST members can also be attached directly to other SOF elements 
(e.g., SEAL teams, Army Special Forces detachments) to provide ST 
expertise, as required by the mission. As already mentioned, SOWT 
attach to Army SOF, often as individuals. The same is true of CCT and 
PJs, depending on the skill set needed. A single Joint Terminal Attack 
Control (JTAC)-qualified CCT can attach to Army Special Forces 
detachments and provide fire support (gunships, fast-mover CAS, naval 
surface fires, and indirect fires) and limited assault zone support for 
the entire team. A PJ can provide limited rescue/recovery capability, 
and extensive combat medical support to a SEAL team.
    In conjunction with General Purpose Forces (e.g., Air Force 
Contingency Response Groups, Army XVIII Airborne Corps), and depending 
on the scope of the mission, a team of combat controllers can provide 
critical landing zone establishment and air traffic control for follow-
on airlift forces. In an airfield seizure scenario, there may be 
anywhere from 10-30 combat controllers assigned duties in/around the 
airfield and attached to ground elements. There may also be PJs on the 
airfield to conduct the casualty collection, initial treatment, and 
management. In this fashion, ST forces are both embedded with the 
assault force as well as operate in ST-only elements, ensuring the 
airfield operations and casualty care are proceeding safely and 
smoothly.
    ST forces are trained to perform in the joint environment through 
joint exercises and training, as well as studying after-action reports 
from those who have gone before them. The various training pipelines 
and professional education expose PJ, CCT, and SOWT operators to other 
Services' elements, which are reinforced during training and 
deployments.
    Mr. Smith. Please explain in further detail the ``re-engineering'' 
of the Combat Controller training pipeline. Exactly how has it been 
possible to shorten this training schedule and improve the quality of 
instruction? And how can we be sure that the quality of instruction has 
improved and so soon?
    General Wooley. In 2000, the CCT pipeline was intertwined with the 
PJ pipeline. Attrition was high for both PJ and CCT trainees, though 
CCT throughput was the more stifled of the two. Because the attrition 
was choking off the CCT production from the pipeline, AFSOC initiated a 
change in training methodology, the so-called CCT pipeline 
reengineering.
    Working with AETC and Air Staff, AFSOC re-sequenced the CCT 
pipeline schools, placing ``Pre-Scuba'' towards the end of the 
pipeline, so we could realize improvements in throughput by helping 
trainees ramp up for Pre-Scuba over a longer period of time (approx. 
one year) rather than the ten weeks up front during Indoctrination. 
Packaged as Advanced Skills Training (AST), the streamlined 11 month 
program produces a graduate CCT with the same quality, having completed 
Dive School, Freefall School, and initial 5-level upgrade training. 
Previous to AST, this training with associated wait time was 6 to 12 
months longer. With AST, all combat controllers graduate with 
standardized lesson plans, standardized individual equipment, 
standardized operating procedures, etc., all planned and conducted 
within a cookie-cutter template, year-round.
    When the AST-era began, the CCT career field worried about a drop 
in quality CCT operators. In fact, AST operators have proven themselves 
year after year in the GWOT. Some have even returned to instruct at AST 
as 7-levels, after several deployments under fire. The fifth AST class 
to graduate did so about two weeks early: the 720th Special Tactics 
Group commander sent them to Baghdad during initial OIF hostilities to 
help his deployed forces secure and run Baghdad International Airport. 
A fair number of AST graduates are currently assigned to Special 
Tactics' Special Mission Unit. The Special Tactics Officers who have 
graduated AST are now candidates to be a squadron Director of 
Operations. We have seen that AST graduates are every bit as fit for 
duty as the Indoc graduates, which is a testament to the quality of the 
re-engineered CCT pipeline training.
    Mr. Smith. You state in your testimony ``that the best way to 
reduce the length of our training programs and (simultaneously) 
increase operational readiness is to invest in new training facilities 
(with) high-fidelity simulators at our schoolhouses and operational 
bases.'' Would you please provide this analysis to the committee?
    General Wooley. Aircrew experience can only be developed by flying 
aircraft or high-fidelity simulators. The SOF aviation mission requires 
complex aircraft and drives a need for aircrews to fly 30-40 hours per 
month. However as our fleet ages and maintenance requirements increase, 
aircraft are only available 30-35 hours a month, resulting in average 
monthly flying of only 15-20 hours for most pilots. Eliminating this 
flying experience deficit requires either additional aircraft or high-
fidelity simulators.
    Aircraft procurement is costly and so are life-cycle sustainment 
costs. Most AFSOC aircraft exceed $8000/hour to operate and when 
aircraft procurement and modification costs are factored over a 40 year 
life span, it adds an additional $4,000-$10,000 per hour depending on 
aircraft variant. A simulator with its combination of procurement and 
sustainment costs can provide the same amount of training as 6-8 
aircraft, and provide that training at 1/10 the cost.
    An analysis of all AFSOC aircraft actual flying hours covering a 
five-year period shows 66% of all flying time was documented as some 
form of training time. In the post-9/11 period, sustained deployments 
have significantly reduced aircraft flying time for training. In FY06 
our most heavily deployed aircraft, the AC-130U, documented 80% of 
flying time in combat leaving only 20% for all other flying 
requirements which include training, testing, and currency.
    Setting aircraft maintenance issues aside, and without providing 
more aircraft, the only way to build and maintain aircrew readiness is 
to provide adequate numbers of high-fidelity simulators for formal 
school training/qualification and for operational unit use. Because of 
the small procurement numbers, several AFSOC aircraft types were never 
provided adequate numbers of simulators. Those built were for initial 
aircrew training only.
    Flight simulator technology is proven in the commercial world. The 
FAA allows commercial pilots to fully qualify in a Level-D simulator, 
so that his first flight in the aircraft is a revenue flight. High-
fidelity flight simulation is the only possible way to meet the 
commands aircrew readiness challenges and can be done at a fraction of 
the cost of flying actual aircraft.
    Mr. Smith. What is the total size of the AC-130 gunship fleet? How 
many gunships are operationally available and mission ready at any 
given time? What is the current maintenance cycle of these aircraft and 
how does it compare with the historical average? What are the greatest 
challenges for keeping this capability forward and operational?
    General Wooley. The AC-130 fleet consists of 8 H-model aircraft and 
17 U-model aircraft. These numbers include combat, training and backup 
aircraft. Two AC-130Hs and four AC-130Us are simultaneously unavailable 
for modification, test and major maintenance.
    The AC-130H fleet averaged 5.7 aircraft possessed with a 75% 
mission capable rate for FY05-07, resulting in an average of 4.3 
aircraft being available and mission ready. The AC-130U fleet averaged 
10.8 aircraft possessed with a 75% mission capable rate, resulting in 
an average of 8.1 aircraft being available and mission ready.
    The Planned Depot Maintenance (PDM) cycle is 54 months for the AC-
130H and 60 months for the AC-130U. Historically they required over 200 
days in PDM, but through an application of AF Smart Operations for the 
21st Century (AFSO21) procedures, we have reduced PDM to 150 days for 
the last 6 aircraft. Higher combat utilization rates for the AC-130U 
has compressed the isochronal inspection cycle from 360 days to 330 
days and may be an indicator of ever increasing maintenance 
frequencies.
    One of the greatest challenges we face is reducing down time for 
PDM, recurring inspections and modifications. We are having success in 
achieving some of those goals, reducing the down time in maintenance 
inspections, but we have serious challenges ahead with C-130 Center 
Wing Box (CWB) replacement requirements. We are carefully monitoring 
individual aircraft flying time against the scheduled point for that 
aircraft to enter the CWB replacement modification line. Aircraft that 
over fly their maximum flight hours prior to entering the CWB 
replacement line would be ``grounded'' until entering that line.
    Last, we are installing 30mm cannons to replace the 25mm and 40mm 
legacy gun systems. This program has had some accuracy problems develop 
during testing, but the resultant commonality and ability to strike 
from a higher altitude will greatly enhance our lethality.
    Mr. Smith. What is the plan for modernizing the gunship fleet? What 
is the current state of affairs regarding the follow-on capability for 
the AC-130 fleet? What kind of aircraft might be required after the 
phase-out of the AC-130 fleet? What might be the desired flight 
envelope associated with the requirements of a follow-on aircraft 
design?
    General Wooley. AFSOC recognizes the critical need for AC-130 
Gunship capability and has planned numerous upgrades for the fleet. The 
AC-130U will have its center wing box replaced for enhanced service 
life. Both versions of the Gunship have modernization programs, 
including various aspects of radar, target designator, mission 
computer, and sensor systems. A 30mm gun system is being tested that 
will provide commonality between both Gunship versions and address a 
vanishing vendor for the 40mm gun.
    The follow-on capability planned for the AC-130 fleet is based on 
the Next-Generation Gunship (NGG). The specific type of platform has 
yet to be determined. The NGG must be capable of conducting long-
endurance operations in low- to selected high-threat environments, day 
or night; a requirement much more challenging than any currently 
operational aircraft was designed to meet. The NGG will be capable of 
prosecuting multiple targets simultaneously and engaging them in 
adverse weather and all terrain environments as well as having the 
ability to coordinate closely with supported friendly ground parties 
both in terms of applying offensive fires and sharing information. 
Last, the NGG must have the persistence to remain in the area of 
responsibility for eight hours, up to 500 nautical miles from its base 
or tanker, deliver fires and record sensor data.
    The NGG requires a cruise speed permitting operations with other 
CAF strike and suppression assets. The ability to operate at high 
subsonic airspeeds will minimize reaction time to get to real-time 
emerging targets and ``on-call'' calls for fire in support of dynamic 
ground situations. To accomplish this, the NGG requires an unrefueled 
range (without loiter) in excess of 4,000 nautical miles, a night/all-
weather capability, and enhanced weapons and sensors to allow greatly 
increased stand-off distances.
    AFSOC would like to aggressively pursue a small gunship capability 
to augment the AC-130 fleet until the Next Generation Gunship delivers. 
Intent for the small gunship is not to phase out the current AC-130 
fleet, but add to it. Battlefield commanders need more gunship capacity 
today to support ground forces, and we expect this demand to increase 
through the FYDP. The ideal kind of aircraft would be twin engine class 
aircraft capable of carrying at least 16,500 lbs. for the gunship 
unique characteristics (e.g. one or two side-firing guns, gun mounts, 
ammo, crew and sensors) with an un-refueled range of 2,000 nautical 
miles. Desired flight envelope is: operating altitude of 6,000-15,000 
feet above ground level, 18,000 feet attack slant range, minimum 
service ceiling of 25,000 feet mean sea level, and day/night and all 
weather capable.
    Mr. Smith. What is the total number of fixed-wing aircraft in the 
entire C-130 family? Are modernization efforts being coordinated across 
each parts of this family?
    General Wooley. AFSOC has 65 C-130 based aircraft in its active 
force inventory, broken down by individual aircraft type, there are 
eight AC-130H Spectre Gunship, seventeen AC-130U Spooky Gunship, 
seventeen MC-130H Combat Talon II, nineteen MC-130P Combat Shadow, and 
four MC-130W Combat Spear aircraft. Over the next two and a half years 
the MC-130W inventory will grow to a total of twelve aircraft as the 
donor aircraft from the Air National Guard are converted. In addition 
to the AFSOC inventory, Air Education and Training Command (AETC) owns 
three MC-130Hs and four MC-130Ps used to train our new aircrew. 
Finally, as part of our total force, the Air Force Reserve Command 
(AFRC) own and operate ten MC-130E and have four more in flyable 
storage, while the Pennsylvania Air National Guard (PAANG) at 
Harrisburg own and operate a total of seven EC-130Js.
    Modernization efforts are being coordinated across the entire AFC-
130 inventory. As a result of the USAF C-130 Avionics Modernization 
Program (AMP) Nunn McCurdy actions, OSD/AT&L mandated a revised 
acquisition strategy for modernizing the C-130 fleet be developed and 
briefed. The Avionics Modernization Program has already been approved 
as the way-ahead for 222 Air Mobility Command aircraft and pending a 
decision by OSD/AT&L may be the modernization strategy for AFSOC 
aircraft. Another AF wide sustainment-modernization program with 
dramatic impact to AFSOC is the C-130 Center Wing Box replacement 
schedule. Both the MC-130H and AC-130U are scheduled to have their 
center wing boxes replaced by the enhanced service life box.
    Mr. Smith. In terms of recapitalization efforts, what action have 
you taken to date and what can the subcommittee do to assist in this 
effort?
    General Wooley. We have worked closely with Air Combat Command and 
USSOCOM to complete the formalized validation process required by the 
Joint Capabilities Integration and Development System. In October 2006 
the Initial Capabilities Document (ICD) received Joint Requirements 
Oversight Council (JROC) validation. Since then we have completed an 
Analysis of Alternatives and produced a Capability Development Document 
or CDD. We are currently waiting the final stage of validation from the 
JROC via memorandum regarding the HC/MC-130 Recapitalization CDD. We 
believe we have provided the required documentation and the memorandum 
providing validation of the CDD should be forthcoming shortly.
    With Congressional approval of fiscal year 2008 advance procurement 
funds and the JROC's endorsement of our urgent need to begin procuring 
new aircraft, I am hopeful that the Undersecretary of Defense for 
Acquisition, Technology and Logistics (OSD/ATL) and the Assistant 
Secretary of the Air Force for Acquisition (SAF/AQ) will move forward 
quickly to begin the acquisition. It is my understanding the 
determination of an acquisition strategy regarding full and open 
competition or a sole-source action has yet to be decided. This appears 
to be the biggest issue at this point. Once that acquisition decision 
is made we will have better visibility on meeting the warfighter 
required IOC, and enact the recapitalization effort for this critical 
capability.
    Congressional support for the recapitalization of our HC/MC-130 
fleet will be vital in maintaining the acquisition rate once a strategy 
is in place. With the aging of our C-130 fleet, it is critical to 
ensure funding and timelines for recapitalization are maintained.
    Mr. Smith. How has your component command supported or taken steps 
to execute the vision contained in the Capstone Concept for Special 
Operations 2006?
    General Hejlik. The vision statement from the U.S. Marine Corps 
Special Operations Command's (MARSOC) Campaign Plan, published in April 
2006, clearly aligns MARSOC's way ahead with the vision of the Capstone 
Concept for Special Operations from 2006.
    MARSOC is charged with organizing, training, equipping and 
deploying highly capable, flexible, and mature special operations 
forces with the ability to seamlessly integrate with joint special 
operations forces, interagency representatives, conventional forces, or 
partner nation militaries. Our primary goal is to build a special 
operations force with long term relevancy that the U.S. Special 
Operations Command (USSOCOM) can successfully employ across the 
spectrum of Special Operations Forces (SOF) mission requirements.
    People are our center of gravity. MARSOC has the capability to 
assess and select from a qualified population of recruited and screened 
candidates to find the right people to perform special operations 
missions involving a high degree of political and physical risk while 
independent of friendly support. Marine Special Operations Forces 
(MARSOF) will be expert conventional warriors first, a platform from 
which to build SOF-unique skills to meet or exceed USSOCOM standards. 
During our initial build, we will capitalize on our investment in 
training with the execution of our extended five year tour policy.
    MARSOC will provide the indirect forces of choice for supported 
commanders. To that end, MARSOC will prioritize language and cultural 
training for the majority of its operating forces, with further 
emphasis on combat advising and expert instruction of partner nation 
forces. We will continue our contribution to USSOCOM's world wide 
standard for regionally-focused, persistent engagement designed to 
develop lasting relationships with partner nations. Similarly, MARSOC 
will maintain and refine our direct action and special reconnaissance 
capability in order to swiftly and conclusively deal with emerging 
counter-terror opportunities.
    This is a critical juncture in our common history and future as 
MARSOC. We are in the initial stages of a campaign to create a new 
warrior archetype. Combining the tenacity, espirit de corps, and 
indomitable spirit of our Marine heritage with the independence, 
maturity, and cultural awareness of the SOF operator will ensure the 
MARSOC of 2015 is actively engaged in influencing partner nations, 
providing critical training to support nascent democracies and taking 
action to find and stop the spread of terrorism in critical regions of 
the world.
    Mr. Smith. What is your view of recruiting and retention? a. What 
is the general quality of recruits and is there a need to improve 
recruiting methods? What steps are in place to make such improvements? 
b. What is the general state of retention? What steps have been taken 
or need to be taken to maintain an effective retention situation?
    General Hejlik. U.S. Marine Corps Special Operations Command 
(MARSOC) recruiting is in its infancy. We currently have five 
recruiters and a recruiting senior non-commissioned officer but need to 
grow the recruiter pool if we are to fill sic to eight 80-man 
assessment and selection classes per year in order to achieve our 
staffing goals. Initial assumptions were that many Marines would be 
very interested in coming to MARSOC and we would have more interest 
than we have billets. We are currently working with the manpower 
section of the Marine Corps on MARSOC's unique manpower requirements to 
include non-standard tour lengths, assignment process, and retention 
process required for this unit to function. Additionally, we are 
establishing and codifying the processes required to make finding the 
correct Marines for MARSOC a Headquarters U.S. Marine Corps priority.
    Currently MARSOC has conducted three assessment and selection 
courses. To date, our attrition rate is approximately 70 percent. This 
includes Marines dropped for medical reasons, failure to meet course 
standards, or because they chose to quit the course. Through Fiscal 
Year 2008, Marine Recruiting and Assessment is responsible for filling 
all operational billets within MARSOC.
    Internally, MARSOC is also taking steps to improve the recruiting 
process and generate appeal among Marines about opportunities in 
Special Operations. A MARSOC Recruiting Website was recently created 
and a MARSOC Recruiting Film is in development. The film, scripted to 
highlight MARSOC's legacy in World War II Marine Raider Units and 
Vietnam Combat Advisors, will highlight MARSOC's critical role in our 
Nation's War on Terrorism and educate Marines about Special Operations.
    Recruiting methods will be improved by bringing professional 
military recruiters in to educate them on the standards required in 
successful recruits. We are developing a plan that requires an increase 
in recruiting structure and manning those billets from recruiting 
school graduates along with a senior non-commissioned officer or 
Warrant Officer career recruiter.
    The following SOF recruiting incentives and retention entitlements 
have been approved for various MARSOC Marines and Sailors based on the 
governing order: Special Duty Assignment Pay (SDAP) was approved for 
Operational and combat support billets. Levels 2 through 5 are 
authorized based on billet assignment within MARSOC. Assignment 
Incentive Pay (AIP) for enlisted members serving in critical primary 
skills within MARSOC who have more than 25 years of active service is 
authorized. The Critical Skills Retention Bonus (CSRB) is authorized 
for enlisted members serving in critical primary skills within MARSOC 
who have more than 19 but less than 25 years of active service.
    Every first term Marine in MARSOC gets interviewed, and informed 
what their options are in relation to retention, by his or her Career 
Retention Specialist (CRS) and either his or her Battalion Commanding 
Officer or Company Commander. First term Marines are interviewed at 
least twice before they become eligible for reenlistment. We are in the 
process of creating a First Term Alignment Plan brief that will be 
given to Marines to inform them on available options to stay within 
MARSOC. Career Marines that have not put in for reenlistment within six 
to nine months of their end of service will be interviewed and informed 
of their options. MARSOC as a whole has very little problems with 
retention at this time. For Fiscal Year 2007 we are at 155 percent of 
our mission for first term Marines and 126 percent for career Marines.
    Mr. Smith. What exactly is MARSOCs ``build plan'' for personnel and 
equipment agreed to by U.S. SOCOM and the U.S. Marine Corps?
    General Hejlik. The approved personnel plan for the U.S. Marine 
Corps Special Operations Command (MARSOC) was a three year build plan 
with the understanding that an additional 45 Marine High Demand Low 
Density billets would not be completely filled until Fiscal Year 2010 
for a total of 2,290 Marine billets, 191 Navy billets, 2 Army billets 
and 33 civilian billets. MARSOC is currently at 88.73 percent for 
overall staffing of the 1,892 personnel authorized during Fiscal Year 
2007.
    The MARSOC equipment build plan is designed to support the 
personnel build plan. The goal of the equipment build plan is to meet 
Full Operational Capability no later than First Quarter of Fiscal Year 
2009. MARSOC will continue to build capability under this construct 
until it is Fully Mission Capable in Fiscal Year 2010.
    The equipment required has been identified to both the U.S. Marine 
Corps and the U.S. Special Operations Command. The fielding of this 
equipment is aligned with the personnel build plan in order to match 
the two and provide an operational capability.
    As emerging requirements for equipment are identified through 
operational deployments, these requirements or capability gaps will be 
addressed to the appropriate headquarters in accordance with the Joint 
Capabilities Integrated Documentation System.
    Mr. Smith. According to your testimony, the completion of some 
MARSOC manning requirements will not occur in some ``high demand, low-
intensity specialties'' until after the FY 2008 deadline due to 
throughput capacity at formal schools. Are these Marine Corps schools? 
Where are they located?
    General Hejlik. The U.S. Marine Corps Special Operations Command 
(MARSOC) will be short 42 intelligence Marines (primarily HUMINT and 
SIGINT) after the Fiscal Year 2008 deadline. The below data lays out by 
primary military occupational specialty (MOS) the intelligence Marines 
MARSOC will be short during this timeframe and the schools they will 
attend:
    Marine Air-Ground Task Force (MAGTF) Intelligence Officers will be 
short 1 officer (MOS 0202). The 0202's are trained at a 10-week U.S. 
Marine Corps (USMC) course at Navy-Marine Corps Intelligence Training 
Center (NMITC), Dam Neck, Virginia. This is a career-level, MOS-
producing school where officers at the rank of Captain from the four 
officer specialties (ground, air, HUMINT and SIGINT) are trained to be 
well-rounded intelligence officers.
    Counterintelligence/HUMINT specialist (MOS 0211) will be short 19 
Marines. The 0211's (typically enlisted ranks E-5 through E-8) are 
trained at a 16-week USMC course at NMITC.
    Counterintelligence/HUMINT Officer (MOS 0210--Warrant Officer (WO)) 
will be short 3 Marines and are generally accessed from the 0211 
population and don't necessarily need to attend the MOS producing 
course at NMITC. The 0210 population in the Marine Corps is small, 
meaning the 11 Warrant Officers for MARSOC would be a healthy 
percentage of these professionals.
    MAGTF Intelligence Specialist (MOS 0231) will be short 2 Marines 
and attend a 12-week USMC course at NMITC.
    Communications Signal Collection/Manual Morse Operator/Analyst (MOS 
2621) will be short 9 Marines and attend a 15-week combined Navy and 
Marine course at Corry Station.
    Tactical Data Network Operator (MOS 2651) will be short 2 Marine 
and attend an 18-week USMC course at Corry Station.
    Arabic Cryptologic Linguist (MOS 2671) will be short 4 Marines and 
attend 63 week joint language course at Defense Language Institute, 
Monterey, California, with a 10-week follow-on USMC course at 
Goodfellow Air Force Base, Texas.
    Mr. Smith. In terms of professional development, what will occur 
when select Marines complete their initial schooling and finally report 
to MARSOC? Does a plan exist to build upon their basic skills? Will 
additional ``joint-like'' schooling occur to ensure seamless, 
interoperability with the rest of SOF? If not, then why not?
    General Hejlik. As noted above, U.S. Marine Corps Special 
Operations Command (MARSOC) Marines completing Recruiting Screening 
Assessment and Selection (RSAS) and Individual Training Course (ITC) 
will go on to unit level training in Marine Special Operations Teams 
(MSOTs) as part of the Marine Special Operations Advisory Group (MSOAG) 
or in MSOTs as part of Marine Special Operations Companies (MSOCs) in 
the Marine Special Operations Battalions (MSOBs). Designated personnel 
will go on to advanced schooling as necessary depending on where their 
parent unit is in the deployment cycle. Advanced schooling can include 
additional language and cultural training for those Marines who 
demonstrate language proclivity during the Initial Acquisition Program 
for language and culture in ITC and have the appropriate Defense 
Language Aptitude Battery score, and advanced training in Special 
Operations Forces (SOF) specific skills at the unit level, at the 
Marine Special Operations School (i.e. breaching, language, Survival, 
Evasion, Resistance, Escape), at other Service or SOF component schools 
(i.e. Airborne, Joint Special Operations Medical Course, and Military 
Free Fall) or USMC schools (i.e. USMC sniper).
    Joint training occurs through informal coordination between MSOCs/
MSOTs and their counterparts in Operational Detachments from Army 
Special Forces and U.S. Navy Sea, Air and Land (SEAL) teams. If an MSOT 
is engaging with a partner nation in alternation with another SOF unit, 
they will coordinate with that unit to maximize efficiencies and 
exchange of pertinent information about the host nation, tactics, 
techniques, procedures, and development of that host nation's partnered 
forces. MSOCs are already training with the Naval Special Warfare 
Command's Special Boat Team (SBT) assets during their pre-deployment 
training to develop the habitual relationship for conduct of Visit, 
Board, Search, and Seizure while underway aboard a Marine Expeditionary 
Unit. MSOCs are also coordinating with the Special Forces Groups who 
form the core of the Joint Special Operations Task Forces forward in 
order to synchronize their pre-deployment training schedules to allow 
for interoperability and exposure. MSOCs also coordinate with Air Force 
Special Operations Command (AFSOC) assets to conduct air assault 
operations and Close Air Support training when these assets are 
available.
    There is no substitute for conducting side by side operations with 
other SOF forces, and MARSOC has done this successfully in Fiscal Year 
2006 and Fiscal Year 2007 around the world. Only with years of 
experience will there be truly ``seamless interoperability'' between 
SOF forces, but the current deployment tempo has ensured that 
generations of SOF Marines, Airmen, Soldiers, and Sailors have been 
able to work together, learn from one another, and get past many of the 
cultural differences and conflicts that existed as recently as a decade 
ago when attempting to conduct joint operations.
    Mr. Smith. Please explain the ``closed loop'' concept for personnel 
management at MARSOC. What does this mean? What are the strengths and 
weaknesses to both SOF and the Marine Corps writ large?
    General Hejlik. There are three key elements a component has to 
consider when creating Special Operations Forces (SOF). The first is 
selection based on a set of criteria that need to be pre-existing 
within the Marine and Sailor (in the Army Special Forces, this comes in 
the form of Special Forces Assessment and Selection and in the Navy 
Sea, Air, and Land (SEALs) this comes in the form of Basic Underwater 
Demolitions School). MARSOC screens, assesses and selects for effective 
intelligence, leadership, maturity, people skills, judgment, physical 
fitness, and determination with its Recruiting Screening Assessment and 
Selection (RSAS) program. These are attributes that must exist in the 
individual that cannot be trained to and can be measured quantitatively 
or qualitatively through the screening and selection process.
    The second key element in creating quality SOF forces is investment 
in SOF specific skills to a unique set of conditions and standards. 
This can include everything from specialized insertion and extraction 
skills such as military free fall (MFF) parachuting and combat diving 
to practical application of SOF specific equipment related to special 
reconnaissance, to investment in language and culture or survival, 
evasion, resistance and escape (SERE) training. This investment works 
from the same basic skill areas that conventional forces use to form 
the core of their training--shoot, move, communicate, survival, 
medical--but take a step beyond. This investment initially occurs 
across the SOF component in the form of an initial training course (for 
the Army Special Forces this is the Special Forces Qualification Course 
and for the Navy SEALS this comes in the form of SEAL Qualification 
Training) such as the Individual Training Course (ITC) that MARSOC will 
start in October 2008. Follow-on investment will occur in the form of 
advanced training in SOF specific skills at the unit level, at the 
Marine Special Operations School (i.e. breaching, language, SERE), at 
other Service or SOF component schools (i.e. Airborne, Joint Special 
Operations Medical Course, and MFF) or USMC schools (i.e. USMC sniper).
    The third key element is return on investment or retention of 
``mature SOF.'' Taking a Marine non-commissioned officer, sailor, or 
junior officer and investing in RSAS, ITC, and advanced skills creates 
a SOF Warrior, but he needs to be seasoned with experience that can 
only be gained by operational deployments before he can be considered 
``mature SOF''--the bread and butter of the U.S. Special Operations 
Command (USSOCOM) engagement strategy. What we are looking to build at 
MARSOC is the SOF senior non-commissioned officer (NCO) who has joint 
operational experience, a myriad of advanced skills, is multilingual, 
and has developed relationships with partner nations that can be 
leveraged at the strategic level in the long term. This investment of 
both training and experience necessitates extended tours, and in some 
cases, a ``closed loop'' personnel system to ensure appropriate return 
on SOF specific investment for MARSOC and USSOCOM. This impacts Marine 
Corps manpower management because MARSOC attracts and targets high 
quality NCOs, senior NCOs, and junior officers removing this group from 
the conventional operating forces. The five year extended tour in 
MARSOC serves our initial integration of MARSOC into USSOCOM with the 
eventual goal of achieving USSOCOM's `closed loop' personnel system.
    Mr. Smith. Have you considered utilizing the existing USASOC 
schoolhouse infrastructure for developing MARSOC Special Operators?
    General Hejlik. The U.S. Marine Corps Special Operations Command 
(MARSOC) uses existing U.S. Army Special Operations Command (USASOC) 
infrastructure to the greatest extent possible by sending MARSOC 
Marines to skill courses such as Military Free Fall, Ranger, and the 
Joint Special Operations Medical Course. The Special Forces Assessment 
and Special Forces Qualification Course could be leveraged by MARSOC 
and has been evaluated in detail at the Marine Special Operations 
School (MSOS) when developing the Recruiting Screening Assessment and 
Selection (RSAS) and Individual Training Course (ITC), but USASOC has 
different requirements to fill. MARSOC has a different input than 
USASOC and different guidance from the U.S. Special Operations Command 
(USSOCOM) in its mission guidance letter, therefore MARSOC requires a 
MARSOC-unique baseline Special Operations Forces (SOF) specific school 
and selection process. The costs of sending MARSOC Marines to schools 
include filling instructor billets in proportion to allocated school 
seats with MARSOC operators and a lesser priority level at some SOF 
specific skill schools.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. THORNBERRY
    Mr. Thornberry. How indicative is the current readiness reporting 
system of actual unit readiness? What recommendations do you have to 
improve the monitoring and reporting of unit readiness?
    General Brown. Current readiness reporting systems provide a basis 
for determining actual unit readiness. However, there are many other 
factors that must be considered in order for we can develop a more 
complete picture of Special Operations Forces (SOF) readiness.
    One of the biggest challenges is that SOF units submit readiness 
reports to their respective Services and not directly to the U.S. 
Special Operations Command (USSOCOM). This command does not have its 
own specific readiness reporting system. In order to derive data on our 
SOF components, we must utilize each of the Services' current systems 
and these systems are tailored Service needs and rather than USSOCOM 
needs.
    Each Service system measures personnel, equipment-on-hand, 
equipment condition, training, and an overall assessment of command 
readiness. Each Service has differing standards for measuring these 
readiness areas and each have a unique philosophy on the way readiness 
is maintained in its units. The end result is that USSOCOM must extract 
readiness data on SOF units from Service databases, break down the 
data, interpolate information, and then cross-level the various inputs 
in an effort to make a readiness assessment that covers our forces 
across the board. This is very time consuming and is often open to much 
debate within the command and the services.
    A second issue is that Service readiness reports only measure 
equipment-on-hand and equipment condition status against Service 
provided equipment. However, SOF units have significant quantities of 
SOF-peculiar equipment which is not measured in Service readiness 
reports.
    USSOCOM has taken steps to make readiness reporting of SOF units 
more relevant for our purposes. The ultimate goal will be a tailored 
readiness report with SOF units reporting directly to USSOCOM.
    Mr. Thornberry. What impact has the current restriction of one 
involuntarily mobilization of Reserve and National Guard troops for a 
named conflict had on SOCOM's ability to effectively meet its world-
wide mission requirements?
    General Brown. The current restriction of one involuntarily 
mobilization of Reserve and National Guard troops for a named conflict 
has had no negative impact on the U.S. Special Operations Command 
(USSOCOM). USSOCOM is able to meet mission requirements while complying 
with current policy.
    Mr. Thornberry. Some graduates of the Special Forces Qualification 
Course arrive at their units without having met the graduation 
requirement of a 1/1/1 rating on the Defense Language Proficiency Test. 
What steps are taken to retrain them and how effective has that been? 
Additionally, some SF graduates are reassigned before the completion of 
the Qualification Course to a SF Group that requires a different target 
language than that in which the graduate has been trained. How often 
does this happen and why? What is done to ensure they are culturally 
and language proficient for the target region of their new Group?
    General Wagner. To put our response in perspective, in 2004 the 
U.S. Army Special Operations Command (USASOC) raised the initial 
language standard from 0+0+ to 1/1/1. Since July 2004, we have 
graduated over 2,500 Army Special Operations Forces (ARSOF) Soldiers 
and 98 percent achieved 1/1/1 before reporting to their unit. Thus a 
very small percentage of graduates of the Special Forces (SF) 
Qualification Course arrive at their units without having met our self 
imposed graduation standard of a 1/1/1 rating on the Defense Language 
Proficiency Test (DLPT).
    Soldiers failing to meet the 1/1/1 DLPT standard on the first 
attempt are immediately placed into a six week intensive retraining 
program. This retraining program meets the requirements specified in 
the Department of Defense Instruction for Soldiers in order to retake 
the DLPT. If a Soldier fails to meet the 1/1/1 DLPT standard after 
retaking a second DLPT, a formal board of officers will determine if 
the Soldier should be allowed to continue training and be assigned to 
an operational unit. The board reviews each Soldier's entire training 
and academic record when determining suitability for continued training 
and assignment to an operational unit. If the board determines that a 
Soldier should be allowed to continue training, the 1st Special Warfare 
Training Group Commander signs a memorandum that is forwarded to the 
Soldier's gaining unit commander notifying that the Soldier requires 
further language training. Each Operational Group has a robust unit 
language sustainment training program designed and resourced to provide 
Soldiers with the tools to maintain and improve required language 
skills. Unit Language Program Managers are able to tailor continued 
language training to meet the specific requirements of these Soldiers. 
Bottom line: The Special Forces language training program is a major 
success operating above a 98 percent 1/1/1 graduation rate.
    Reassignment before the completion of the Qualification Course to a 
SF Group that requires a different target language than that in which 
the graduate has been trained is a very rare occurrence. It should also 
be noted that the five Active Duty SF Groups have multiple language, 
and overlapping, language requirements. Thus, there are no wrong 
languages to know in any group as most adversaries and target countries 
operate in a global environment such that within their own boundaries 
they, and we, encounter languages ``foreign'' to the nation with which 
we are engaged. Every effort is made to assign Soldiers to the group 
requiring the target language in which they have been trained. The ten 
core languages that are taught during the SF Qualification Course span 
multiple operational units and regions of the world. Assignment of 
Soldiers to an operational group that requires a different language 
than that in which the soldier was trained in initial acquisition 
training is triggered by extremely rare circumstances; i.e. exceptional 
family member program, compassionate reassignment, medical or 
unforecasted critical personnel shortfalls in one of the operational 
groups.
    SF units conduct routine and detailed analysis and study of their 
respective operational areas. Soldiers assigned under these afore 
mentioned exceptional circumstances will participate in these events 
with their fellow Soldiers who have extensive regional expertise. These 
Soldiers can also become invaluable when unexpected language 
requirements emerge in the global environment.
    Mr. Thornberry. What is the MSOC's command relationship with the 
MEU on which it is deployed and how will the MSOC be operationally 
employed from the MEU once in the theater of operations?
    Gerneral Hejlik. The U.S. Marine Corps Special Operations Command's 
(MARSOC) forces are commanded and controlled in accordance with U.S. 
Code Title 10, Joint Doctrine, and the associated Joint Staff and U.S. 
Special Operations Command (USSOCOM) deployment orders. USSOCOM 
executes command and control (COCOM) of MARSOC forces. Inherent in 
COCOM is the execution of operational control (OPCON) of MARSOC forces 
in the United States. When MARSOC forces deploy overseas, they are 
under the OPCON of the associated Geographic Combatant Command (GCC) 
and OPCON is normally delegated to the Theater Special Operation 
Command (TSOC).
    MSOCs deploy with the Marine Expeditionary Unit (MEU) or as 
directed by USSOCOM in support of GCC operational requirements. When 
embarked with a MEU the MSOC is OPCON to the associated TSOC. The TSOC 
has the authority and flexibility to delegate tactical control (TACON) 
of the MSOC to the MEU in support of specific operational requirements. 
The TSOC retains OPCON throughout the exercise or operation.
    Our recent deployments from January 2007 to February 2008 have 
resulted in the MSOC remaining OPCON to the TSOC or delegation of OPCON 
to one of their subordinate Joint Special Operations Task Forces. The 
MEU maintains an OPCON relationship with the associated Naval Force 
(NAVFOR) while afloat and transfers OPCON once ashore to the associated 
Marine Force Commander (MARFOR) or Land Component Commander.
    The MSOC re-embarks the MEU for the redeployment transit to the 
continental U.S. Once embarked; the MSOC continues its OPCON 
relationship with the associated TSOC until arrival in the continental 
U.S.
    Mr. Thornberry. What needs to be done to ensure AFSOC has enough 
airlift capacity to meet the operational needs associated with a larger 
SOF organization?
    General Wooley. The Air Force Special Operations Command (AFSOC) 
needs to increase the capacity and capability of its mobility fleet to 
support the growth of the ground and naval forces in Special Operations 
Forces (SOF). This capacity and capability increase should be provided 
as rapidly as possible to insure we are able to meet our operational 
commitments.

                                  <all>

</pre></body></html>
